<html>
<title> - LEGISLATIVE HEARING ON H.R. 1017, H.R. 1036, H.R. 2504, H.R. 2559, H.R. 2735, H.R. 3073, H.R. 3441, H.R. 2506, AND DRAFT DISCUSSIONS ON HOMELESSNESS, GRADUATE PSYCHOLOGY EDUCATION, AND PSYCHIATRIC SERVICE DOGS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                   LEGISLATIVE HEARING ON H.R. 1017,
              H.R. 1036, H.R. 2504, H.R. 2559, H.R. 2735,
               H.R. 3073, H.R. 3441, H.R. 2506, AND DRAFT
                      DISCUSSIONS ON HOMELESSNESS,
                     GRADUATE PSYCHOLOGY EDUCATION,
                      AND PSYCHIATRIC SERVICE DOGS

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 1, 2009

                               __________

                           Serial No. 111-47

                               __________

       Printed for the use of the Committee on Veterans' Affairs







                  U.S. GOVERNMENT PRINTING OFFICE
53-432                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                         Subcommittee on Health

                  MICHAEL H. MICHAUD, Maine, Chairman

CORRINE BROWN, Florida               HENRY E. BROWN, JR., South 
VIC SNYDER, Arkansas                 Carolina, Ranking
HARRY TEAGUE, New Mexico             CLIFF STEARNS, Florida
CIRO D. RODRIGUEZ, Texas             JERRY MORAN, Kansas
JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas
JERRY MCNERNEY, California           GUS M. BILIRAKIS, Florida
GLENN C. NYE, Virginia               VERN BUCHANAN, Florida
DEBORAH L. HALVORSON, Illinois
THOMAS S.P. PERRIELLO, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.









                            C O N T E N T S

                               __________

                            October 1, 2009

                                                                   Page
Legislative Hearing on H.R. 1017, H.R. 1036, H.R. 2504, H.R. 
  2559, H.R. 2735, H.R. 3073, H.R. 3441, H.R. 2506, and Draft 
  Discussions on Homelessness, Graduate Psychology Education, and 
  Psychiatric Service Dogs.......................................     1

                           OPENING STATEMENTS

Chairman Michael Michaud.........................................     1
    Prepared statement of Chairman Michaud.......................    26
Hon. Henry E. Brown, Jr., Ranking Republican Member..............    14
    Prepared statement of Congressman Brown......................    26

                               WITNESSES

U.S. Department of Veterans Affairs, Peter H. Dougherty, 
  Director, Homeless Veterans Programs, Office of Public and 
  Intergovernmental Affairs......................................    23
    Prepared statement of Mr. Dougherty..........................    45

                                 ______

American Legion, Joseph L. Wilson, Deputy Director, Veterans 
  Affairs and Rehabilitation Commission..........................    16
    Prepared statement of Mr. Wilson.............................    34
Arcuri, Hon. Michael A., a Representative in Congress from the 
  State of New York..............................................     5
    Prepared statement of Congressman Arcuri.....................    29
Filner, Hon. Bob, Chairman, Committee on Veterans' Affairs, and a 
  Representative in Congress from the State of California........     8
    Prepared statement of Congressman Filner.....................    31
Hare, Hon. Phil, a Representative in Congress from the State of 
  Illinois.......................................................     2
    Prepared statement of Congressman Hare.......................    27
Herseth Sandlin, Hon. Stephanie, a Representative in Congress 
  from the State of South Dakota.................................     3
    Prepared statement of Congresswoman Herseth Sandlin..........    28
Nye, Hon. Glenn, a Representative in Congress from the State of 
  Virginia.......................................................    11
    Prepared statement of Congressman Nye........................    32
Paralyzed Veterans of America, Blake C. Ortner, Senior Associate 
  Legislative Director...........................................    21
    Prepared statement of Mr. Ortner.............................    42
Rodriguez, Hon. Ciro D., a Representative in Congress from the 
  State of Texas.................................................     9
    Prepared statement of Congressman Rodriguez..................    31
Teague, Hon. Harry, a Representative in Congress from the State 
  of New Mexico..................................................    12
    Prepared statement of Congressman Teague.....................    33
Veterans of Foreign Wars of the United States, Justin Brown, 
  Legislative Associate, National Legislative Service............    18
    Prepared statement of Mr. Brown..............................    26
Vietnam Veterans of America, Richard F. Weidman, Executive 
  Director for Policy and Government Affairs.....................    19
    Prepared statement of Mr. Weidman............................    39

                       SUBMISSIONS FOR THE RECORD

American Chiropractic Association, Rick A. McMichael, DC, 
  President, letter..............................................    49
American Physical Therapy Association, statement.................    50
American Tinnitus Association, statement.........................    53

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

    Hon. Michael Michaud, Chairman, Subcommittee on Health, 
      Committee on Veterans' Affairs, to Joseph L. Wilson, Deputy 
      Director, Veterans Affairs and Rehabilitation Commission, 
      American Legion, letter dated October 1, 2009, and Mr. 
      Wilson's responses.........................................    55
    Hon. Michael Michaud, Chairman, Subcommittee on Health, 
      Committee on Veterans' Affairs, to Justin Brown, 
      Legislative Associate, National Legislative Service, 
      Veterans of Foreign Wars of the United States, letter dated 
      October 1, 2009, and Mr. Brown's responses, dated October 
      8, 2009....................................................    57
    Hon. Michael Michaud, Chairman, Subcommittee on Health, 
      Committee on Veterans' Affairs, to Richard F. Weidman, 
      Executive Director for Policy and Government Affairs, 
      Vietnam Veterans of American, letter dated October 1, 2009, 
      and VVA responses..........................................    58
    Hon. Michael Michaud, Chairman, Subcommittee on Health, 
      Committee on Veterans' Affairs, to Blake Ortner, Senior 
      Associate Legislative Director, Paralyzed Veterans of 
      America, letter dated October 1, 2009, and response from 
      Carl Blake, National Legislative Director, Paralyzed 
      Veterans of America, letter dated October 6, 2009..........    62
    Hon. Michael Michaud, Chairman, Subcommittee on Health, 
      Committee on Veterans' Affairs, to Hon. Eric K. Shinseki, 
      Secretary, U.S. Department of Veterans Affairs, letter 
      dated October 1, 2009, and VA responses....................    65

 
                   LEGISLATIVE HEARING ON H.R. 1017,
              H.R. 1036, H.R. 2504, H.R. 2559, H.R. 2735,
               H.R. 3073, H.R. 3441, H.R. 2506, AND DRAFT
                      DISCUSSIONS ON HOMELESSNESS,
                     GRADUATE PSYCHOLOGY EDUCATION,
                      AND PSYCHIATRIC SERVICE DOGS

                              ----------                              


                       THURSDAY, OCTOBER 1, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                    Subcommittee on Health,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room 334, Cannon House Office Building, Hon. Michael H. Michaud 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Michaud, Teague, Rodriguez, 
Donnelly, Nye, Brown of South Carolina, Boozman, and Bilirakis.

             OPENING STATEMENT OF CHAIRMAN MICHAUD

    Mr. Michaud. I would like to call the hearing to order. I 
know Congressman Hare has another meeting he has got to run off 
to, so I appreciate you being here. And I want to thank 
everyone for coming today.
    Today's legislative hearing is an opportunity for Members 
of Congress, the veterans, the U.S. Department of Veterans 
Affairs (VA), and other interested party to provide their views 
and discuss recently introduced legislation within the 
Subcommittee's jurisdiction. I don't necessarily agree or 
disagree with any of the bills before us today, but I believe 
it is an important part of the legislative process to hear the 
testimony of individuals who submitted legislation or draft 
concepts.
    We have 13 individual bills or drafts for us today, so I 
would like to start now, and I would ask unanimous consent that 
my full statement be submitted into the record. Hearing none, 
so ordered.
    Does Representative Rodriguez have an opening statement? If 
not then I would like to begin the hearing starting off with 
Congressman Phil Hare's piece of legislation before us, H.R. 
2559, to direct the Secretary of the VA to carry out a national 
media campaign directed at the homeless veterans and veterans 
at risk for becoming homeless veterans. So without any further 
ado, Mr. Hare.
    [The prepared statement of Chairman Michaud appears on p. 
26.]

STATEMENTS OF HON. PHIL HARE, A REPRESENTATIVE IN CONGRESS FROM 
   THE STATE OF ILLINOIS, HON. STEPHANIE HERSETH SANDLIN, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH DAKOTA; HON. 
MICHAEL A. ARCURI, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
   OF NEW YORK; AND HON. BOB FILNER, CHAIRMAN, COMMITTEE ON 
 VETERANS' AFFAIRS, AND A REPRESENTATIVE IN CONGRESS FROM THE 
                      STATE OF CALIFORNIA

                  STATEMENT OF HON. PHIL HARE

    Mr. Hare. Thank you, Mr. Chairman, and let me thank the 
Ranking Member and the members of staff of the House Veterans' 
Affairs Subcommittee on Health for inviting me to testify this 
morning. As a former Member of this Subcommittee it is always a 
pleasure to be in this room among friends who are so dedicated 
to the welfare of our Nation's heroes.
    And if I may, Mr. Chairman, as just a side note, the 
veterans of this Nation are very, very fortunate to have you 
Chair the Subcommittee on Health. I can't think of a person who 
fights harder for the health of our veterans than you, and I 
appreciate your work.
    I come before you today to present testimony on legislation 
that I have introduced, H.R. 2559, the ``Help Our Homeless 
Veterans Act.'' This bill directs the Secretary of the 
Department of Veterans Affairs to carry out a national media 
campaign directed at homeless veterans and veterans who are at 
risk of becoming homeless to help in this growing problem. The 
number of homeless veterans is rising and must be addressed in 
our Nation's homeless population. In fact, they make up about 
one-third of our Nation's homelessness. On any given night this 
year, 131,000 veterans are sleeping on our streets. This year 
alone, 300,000 veterans will experience homelessness. Vietnam 
Veterans represent the largest segment of the homeless veterans 
population.
    Now, at a time with the highest unemployment rate in 26 
years, with more and more servicemembers returning home from 
the conflicts in Iraq and Afghanistan, the number of veterans 
who are unable to make ends meet and face the prospect of 
homelessness is growing. The VA estimates that it is already 
providing services to 916 veterans from the conflicts in Iraq 
and Afghanistan. Additionally, the VA has identified over 2,986 
veterans that are at risk of becoming homeless.
    Additionally, there has been an alarming increase in the 
number of female homeless veterans. The VA estimates that 10 
percent of all homeless veterans are now women. This means that 
about 740 female veterans from the Iraq and Afghanistan 
conflicts are homeless, or have been identified at risk of 
becoming homeless. These numbers are simply unacceptable.
    Addressing the National Coalition for Homeless Veterans 
National Conference, Secretary Shinseki said, ''We have a moral 
duty to prevent and eliminate homelessness among veterans.'' I 
could not agree more and I applaud the Secretary for his 
commitment to end veterans' homelessness in the next 5 years.
    In order to meet this goal, I strongly believe that the VA 
must immediately begin conducting media outreach to connect 
homeless veterans to available programs, services, and 
benefits. That is why I introduced the ``Help Our Homeless 
Veterans Act.''
    This bill will mandate that the Secretary dedicate funding 
to establish a national media outreach campaign on 
homelessness. This campaign will be designed to educate 
veterans about where they can turn if they are homeless or at 
risk of becoming homeless.
    Mr. Chairman, since the VA's internal ban on paid public 
advertising has been lifted, the VA has carried out one media 
campaign about the availability of an emotional crisis hotline, 
which I understand has been remarkably successful in preventing 
suicide among Nation's veterans. Thus, I believe that using the 
media to educate veterans about available services has proven 
to be effective, and I believe we can use it as a tool to reach 
out to those who are at risk of becoming homeless, as well as 
those who have already found themselves on the streets.
    Ultimately, it is my hope that with the increased awareness 
and information about VA homelessness prevention and homeless 
services among veterans themselves, advocacy groups, families 
and the public, we can prevent veterans from becoming homeless, 
and inform those who are homeless about services that are 
available to them.
    We owe a tremendous debt to those who have served our 
country in uniform, and it is time that we show these heroes 
the appropriate respect. With the enactment of the ``Help Our 
Homeless Veterans Act,'' I believe that we can make a strident 
effort in ending homelessness among our Nation's veterans.
    Mr. Chairman and Members of the Committee, I thank you 
again for this opportunity to testify, and will be happy to 
answer any questions that you may have.
    Thank you again, Mr. Chairman.
    [The prepared statement of Congressman Hare appears on p. 
27.]
    Mr. Michaud. Thank you, Mr. Hare, and thanks again for all 
your advocacy for our veterans. You definitely have been a true 
leader in the veterans arena taking up the mantel of the former 
Ranking Member, Lane Evans, of this Committee, so I really 
appreciate your willingness to continue to fight for our 
veterans.
    And I know you have another Committee you got to go to, so 
I will ask if there are any questions of the Subcommittee of 
Mr. Hare. Hearing none, thank you very much Mr. Hare for 
coming.
    Mr. Hare. Thank you, Mr. Chairman.
    Mr. Michaud. I appreciate it. Next I would like to 
recognize the Chairwoman of the Economic Opportunity 
Subcommittee of Veterans' Affairs who also has been a very 
strong advocate of veteran issues, especially women's veteran 
issues, and look forward to hearing your testimony on H.R. 
1036. Ms. Herseth Sandlin?

          STATEMENT OF HON. STEPHANIE HERSETH SANDLIN

    Ms. Herseth Sandlin. Well good morning, Mr. Chairman, I 
thank you for holding today's hearing. Good morning to the 
other Members of the Subcommittee. I appreciate having the 
opportunity to be here to discuss H.R. 1036, the ``Veterans 
Physical Therapy Services Improvement Act.''
    At the outset, I would also like to thank the American 
Physical Therapy Association for their continued leadership on 
this issue and their support of this important legislation. 
And, I would also like to thank the Iraq and Afghanistan 
Veterans Association for their endorsement of this bill.
    The ``Veterans Physical Therapy Services Improvement Act,'' 
which I introduced on February 12th, 2009, along with the 
original co-sponsor support of Health Subcommittee Chairman Mr. 
Michaud, and full Veterans' Affairs Committee Chairman Mr. 
Filner, will take important steps to expand and improve 
Department of Veterans Affairs health care services by 
improving the ability of veterans to access physical therapy 
services throughout the VA.
    As your Subcommittee knows, the VA is presented today with 
a unique and challenging patient population. There are large 
numbers of aging veterans, as well as men and women returning 
from Iraq and Afghanistan with complex impairments. Both of 
these groups require a full range of physical therapy services 
that can keep pace with modern advancements and techniques in 
the field.
    I would like to share just a few statistics with you that 
highlight the need for enhancing physical therapy services and 
administration at the VA.
    Currently, over 1,000 physical therapists are employed by 
the Veterans Health Administration (VHA) providing care to our 
Nation's veterans. These physical therapists practice across 
the continuum of care from primary care settings and wellness 
programs to disease prevention and post-trauma rehabilitation, 
and play critical roles in a veteran's care team.
    Approximately 9.2 million veterans are age 65 or older, 
which is currently 38 percent of veterans, and by 2033, older 
veterans will represent 45 percent of the total veterans 
population. For these older veterans, physical therapists are 
integral in fall prevention and Type 2 diabetes prevention 
strategies.
    Over 33,000 servicemembers have been wounded in Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF). Many 
of these brave men and women have multiple serious injuries, 
such as amputations and traumatic brain injury (TBI) that 
require complex rehabilitation provided by physical therapists.
    Competition is high for physical therapy graduates. The 
Department of Labor (DOL) recognizes two health care 
occupations, nurses and physical therapists, that are 
experiencing a significant shortage under its labor shortage 
determination authority. The DOL also projects an increasing 
need for physical therapists and physical therapist job growth 
of more than 25 percent over the next decade.
    Given the shortage of physical therapists and the increased 
demand for these services, it is clear that the VA needs to be 
competitive in the current marketplace to recruit and retain an 
adequate number of physical therapists to provide services to 
our Nation's veterans.
    This legislation works to solve this challenge through a 
number of initiatives.
    First, the legislation creates the position of Director of 
Physical Therapy Services at the Veterans Health 
Administration. This position would report directly to the 
Undersecretary for Health. Currently, physical therapists at 
the VA do not have a seat at the Director-level table. Having a 
voice at this level will help ensure that as the profession of 
physical therapy advances, the VA keeps its requirements up to 
date with regard to educational requirements, qualifications, 
clinical privileges, and scope of practice.
    The legislation also creates the Department of Veterans 
Affairs Geriatric, Amputee, Polytrauma, and Rehabilitation 
Research Fellowships Program to assist in the recruitment and 
retention of qualified physical therapists.
    With strong competition in the marketplace for the services 
of experienced and qualified physical therapists, the VA needs 
to be aggressive in recruiting and retaining physical 
therapists. This fellowship will allow the VA to be more 
competitive in recruiting and retaining physical therapists 
that specialize in crucial areas of need such as amputee 
rehabilitation and polytrauma care.
    This legislation also includes requirements that the VA 
update its degree and license requirements for the appointment 
of individuals to the physical therapist position. I am pleased 
that the VA already has taken some steps to improve its 
physical therapy policies. The VA has recently approved new 
regulations that allow VA facilities to use special salary 
rates, recruitment bonuses, retention allowances, and other pay 
flexibilities to enhance recruitment and retention of physical 
therapists based on the local labor market. My legislation 
would help codify these standards.
    In closing, Mr. Chairman, this legislation will help ensure 
that veterans have access to the full range of physical therapy 
services they need and deserve.
    I thank you again for inviting me to testify. I look 
forward to answering any questions you or other Members of the 
Subcommittee may have.
    [The prepared statement of Congresswoman Herseth Sandlin 
appears on p. 28.]
    Mr. Michaud. Thank you very much, Ms. Herseth Sandlin for 
your thoughtful legislation before us today. Are there any 
questions from the Committee?
    Mr. Boozman. I also would echo that. I thank you--again, 
you bring forth something that we really do need to look at, 
and we appreciate your hard work.
    Mr. Michaud. Are there any other questions? If not, thank 
you very much for your testimony this morning.
    Next I would like to recognize Mr. Arcuri from New York, 
who has also been very active in looking after our veterans. He 
will present to us today H.R. 3441, a bill to provide for 
automatic enrollment of veterans returning from combat zones 
into the VA medical system and for other purposes. Mr. Arcuri?

                STATEMENT OF HON. MICHAEL ARCURI

    Mr. Arcuri. Thank you, Mr. Chairman, Ranking Member, and 
Members of the VA Subcommittee on Health. I first wish to thank 
you for scheduling this legislative hearing today and inviting 
me to speak on H.R. 3441.
    This legislation would automatically enroll veterans who 
are already eligible for free VA health care into the VA system 
while providing a chance to opt-out of the system both at the 
time of separation from the Armed Services and 6 months 
following.
    My bill references the statute passed in fiscal year 2008, 
National Defense Authorization Act. As you know, this law 
extends the eligibility period for free VA medical care from 2 
to 5 years for veterans who served in a combat theater of 
operations after November 11th, 1998. It applies to active 
duty, National Guard, Reserve, and servicemen returning from 
Operation Enduring Freedom and Operation Iraqi Freedom for 
conditions that may be related to their combat service. 
Following this initial 5-year period, these veterans may 
continue their enrollment in the VA health care system, but 
they may be subject to applicable copayments for non-service-
connected conditions.
    My legislation takes this same group eligible for free 
health care under Fiscal Year 2008 Act and instructs the 
Department of Defense (DoD), in conjunction with the VA, to 
automatically enroll these veterans in VA health care, should 
these veterans so choose.
    This bill does not create new classes of veterans eligible 
for free VA health care, but simply changes the process by 
which these veterans would become part of the system upon 
separation from the DoD.
    Importantly, this bill includes an opt-out provision at the 
time of separation and again at 6 months after separation to 
preserve the veteran's right to choose his or her own health 
care.
    This bill would also issue a standard VA veterans' 
identification card to an auto-enrolled veteran, and provide a 
listing of VA medical facilities within 100 miles of the 
veteran. It would also require the VA to attach a description 
of Federal veterans benefits and programs, such as educational 
benefits, job training, and placement programs, for which the 
veteran may be eligible.
    The reason we are proposing this legislation is to make 
sure that acceptance into the VA is as simple and effortless as 
possible for the tens of thousands who will likely seek access 
in the coming months.
    Most of us here recognize the VA's efforts to track down 
veterans weeks and even months after their return, yet 
unfortunately, we still have a system that doesn't sufficiently 
reach all soldiers. It places responsibility fully on a soldier 
who has just returned from war and must step back into his or 
her normal life. Dealing with this single experience is 
difficult enough, we shouldn't place another burden on our 
veterans by requiring them to actively pursue the care they may 
want or need.
    The opportunity to improve our present VA enrollment system 
is reflected by the sheer demand of returning servicemembers 
who are accessing the system at record rates. The VHA Office of 
Public Health reported this January that between fiscal year 
2002 and the last quarter of fiscal year 2008, 42 percent of 
the roughly 950,000 separated veterans have sought VA health 
care. The report also predicts that the percentage of veterans 
receiving health care from the VA, as well as the percentage 
given any type of diagnosis, will tend to increase over time as 
these veterans continue to enroll in VA health care and develop 
new health problems.
    Clearly the demand for VA care will only continue to grow 
in the coming years. Unfortunately, these higher enrollment 
numbers also indicate a trend toward more cases of joint and 
back disorders, mental disorders, and what the VA characterizes 
as symptoms, signs, and ill-defined conditions. These three 
categories are what the VA has determined the most common 
health problems of war veterans, and represent our collective 
responsibility to improve our delivery of good, efficient care 
to all those who risked everything for this country.
    Let me first say that I acknowledge the outreach efforts 
that the VA has performed during this time. An extensive 
outreach effort has been developed to inform veterans of their 
benefits, including the mailing of a personal letter from the 
VA Secretary to war veterans identified by the DoD when they 
separate from active duty and become eligible for VA benefits. 
These efforts have undoubtedly contributed to the higher VA 
enrollment rates. Yet while the VA attempts to reach out to 
returning soldiers and educate them about available resources, 
it is still presently incumbent upon the veteran to initiate 
and complete the application and registration process with the 
VA, and we know that some veterans fall through the cracks.
    In many cases, a soldier's primary focus during his or her 
last few weeks of deployment is simply getting back home, not 
spending more time away from loved ones by studying the VA 
application process, filling out paperwork, and undergoing 
evaluation. These servicemembers often forego necessary 
screening or care leading to the critical situations weeks or 
months later when the symptoms begin to manifest or intensify.
    I commend the VA for its commitments and its efforts to 
reach each veteran; however, I see a chance to change the 
system so that veteran care can no longer centrally involve 
tracking down those we have missed, and no longer leaves many 
veterans finding themselves months or even years later without 
proper treatment.
    By implementing the auto-enrollment and accepting returning 
soldiers at the outset, this bill would allow the VA to shift 
time and resources away from tracking the follow up, and 
instead focus on delivering health care right away.
    I thank you again for holding this hearing on my 
legislation to provide auto-enrollment for veterans returning 
from combat zones. This bill is endorsed by the American Legion 
and the Iraq and Afghanistan Veterans of America.
    I look forward to working together to honor and protect our 
veterans, and I would be happy to answer any questions you may 
have on this bill.
    [The prepared statement of Congressman Arcuri appears on 
p. 29.]
    Mr. Michaud. Thank you very much, Mr. Arcuri for your 
testimony and for submitting this legislation before us today. 
Are there any questions? Mr. Boozman?
    Mr. Boozman. No, I also would like to echo that, and we 
appreciate you coming forward and we appreciate your testimony.
    Mr. Arcuri. Thank you, sir.
    Mr. Michaud. If there are no other questions, thank you 
very much, Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chairman.
    Mr. Michaud. I am pleased to recognize the Chairman of the 
full Veterans' Affairs Committee, one who has definitely been a 
vocal supporter of veterans' issues and is not bashful in 
giving his thoughts on how we should improve health care for 
our veterans, Mr. Filner, who is presenting H.R. 1017.
    Mr. Boozman. Mr. Chairman, I do reserve the right to 
question Chairman Filner.

                  STATEMENT OF HON. BOB FILNER

    Mr. Filner. I do reserve the right to throw Mr. Boozman off 
the Committee. Thank you, Mr. Chairman, and I thank you and Mr. 
Boozman for their leadership on these issues. I think in the 
last 3 years, this Subcommittee and the membership that is so 
active has been probably the most productive Subcommittee of 
the most productive Committee in the Congress, and it is your 
leadership, your jointness, your bipartisan approach I think 
has helped us all, and we appreciate your efforts and all the 
Members of the Committee.
    I am here to talk about H.R. 1017, the ``Chiropractic Care 
Available To All Veterans Act.'' Many of you know that 
musculoskeletal conditions are the number one reason that 
returning veterans from Iraq and Afghanistan seek care at the 
Department of Veterans Affairs. The current statute however is 
such that each Veteran Integrated Service Network or each VISN 
director is only responsible for ensuring that a minimum of one 
VA medical center provides on-station chiropractic care. We all 
know that an individual VISN often encompasses multiple States, 
and so it is fair to say that on-site chiropractic care is not 
readily accessible to all of our veterans.
    I introduced H.R. 1470 and H.R. 1471 last Congress, which 
would have expanded on-site chiropractic care and services to 
veterans at the VA medical centers. It would have included 
chiropractic services and counseling, as well as periodic and 
preventive chiropractic exams and services amongst the medical, 
rehabilitative, and preventive health services available for 
our veterans.
    We passed H.R. 1470 in 2007, but H.R. 1471 did not see 
further action after it was referred to the Subcommittee.
    So what I have done is introduced H.R. 1017, the 
``Chiropractic Care Available To All Veterans Act,'' which 
merges the provisions of H.R. 1470 and H.R. 1471 from the last 
Congress. It simply updates the time frame for expansion of on-
site chiropractic care to all VA medical centers. It removes a 
provision from H.R. 1471, which would have established 
chiropractic practitioners on the same level as VA medical 
doctors in the direct provision of primary care services. That 
decision was based on the helpful feedback I received from the 
VSO community and the American Chiropractic Association.
    So I think that we have taken care of one of the major 
concerns of the bill last year, as someone who has personally 
experienced the positive results of chiropractic care and both 
its cost effectiveness of chiropractic care and the feedback 
from patients, including veterans that shows the high level of 
satisfaction with this care. I think we need to provide this to 
all of our veterans, and that is what H.R. 1017 does.
    I will reserve the right to throw bombs at Mr. Boozman.
    [The prepared statement of Congressman Filner appears on 
p. 31.]
    Mr. Michaud. Thank you very much, Mr. Chairman for your 
testimony, and I will ask Mr. Boozman if he dares have any 
questions for the Chairman.
    Mr. Boozman. Since your testimony was brief we will let 
you--no, I appreciate----
    Mr. Filner. Did you say brief or brilliant?
    Mr. Michaud. Brilliantly brief.
    Mr. Boozman. But I do appreciate your leadership in so many 
ways. Not only in that area, but with many other things 
regarding veterans, so we appreciate you being here.
    Mr. Filner. Just for the record so that nobody thinks that 
this is real. In one survey I answered I chose Mr. Boozman as 
my favorite Republican. So he has since suffered in his caucus 
as a result, but----
    Mr. Boozman. No, we do appreciate you.
    Mr. Filner [continuing]. He certainly appreciates the--we 
appreciate your working with all of us in so many ways and your 
ability to bring us all together, Mr. Boozman. Thank you so 
much.
    Mr. Boozman. Thank you very much.
    Mr. Michaud. Are there any other questions or comments? If 
not, thank you very much, Mr. Chairman for coming forward 
today.
    On the second panel we actually have three of the four 
Members who are on this Subcommittee, so if they want to give 
their testimony from here that is fine, and I will recognize 
them in order of their attendance.
    The first one is Mr. Rodriguez who presents us with H.R. 
2735, an bill to amend title 38, the United States Code to make 
certain improvements to the Comprehensive Service Programs for 
homeless veterans. Mr. Rodriguez?

   STATEMENTS OF HON. CIRO D. RODRIGUEZ, A REPRESENTATIVE IN 
      CONGRESS FROM THE STATE OF TEXAS; HON. GLENN NYE, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF VIRGINIA; AND HON. 
 HARRY TEAGUE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
                              NEW 
                             MEXICO

              STATEMENT OF HON. CIRO D. RODRIGUEZ

    Mr. Rodriguez. Mr. Chairman, thank you very much for 
allowing me to speak today on H.R. 2735, which will improve our 
Homeless Veterans Grant and Per Diem Program.
    The purpose of the Grant and Per Diem Program is to 
encourage community agencies to develop and provide supportive 
housing as well as supportive services to our homeless 
veterans.
    The program is administered by the Veterans Administration 
Health Care for Homeless Veterans Program, which funds 
community agencies to provide transitional housing, as well as 
health services, personal counseling, and other supportive 
services to homeless veterans.
    Eligible grantees are those who operate programs with 
supportive housing for up to 24 months, or veteran service 
centers also that offer services such as case management, 
education, crisis intervention, counseling, and services 
targeted toward specialized populations such as women veterans.
    This bill improves the Grant and Per Diem Program in three 
ways.
    First, it would create a separate grant fund for the 
grantee service center personnel. The per diem component of the 
Grant and the Per Diem Program funds operational costs, 
including the salaries of service center personnel who provide 
supportive services to homeless veterans. However, the current 
per diem amount is $34.40 for organizations with service 
centers and supportive housing, and it is not sufficient to 
fund adequately the number of staff that is needed. A separate 
grant fund for personnel would end the competition between 
staff salaries versus supportive services.
    Second, the bill would change the rate of payment from a 
per diem daily cost of care to an annual cost of furnishing 
services. This would allow guarantees to draw down funds in 
anticipation of allowable and contractual expenses, and it 
would also address the cash shortfall problems faced by these 
individuals that creates and incurs debt in their behalf and 
creates a real problem in terms of the reimbursement from the 
VA, which makes extreme delays occur, and then receiving the 
resources needed for them to provide the service.
    This would allow the proper business planning and 
forecasting in order to provide the best and most cost-
effective services possible for our veterans. And this is 
really a problem that is created for these agencies and a 
headache where they have to wait months in order to get the 
reimbursement for services already provided.
    And finally the bill would allow the VA to increase the 
rate of payment to reflect anticipated changes in the cost of 
providing the services, which take into account geographic 
differences. Because the per diem rate is far less than the 
actual daily cost of care that is provided for our veterans. 
The organizations in high cost service areas typically decide 
not even to participate as a result of the low reimbursement 
rates. Allowing the VA to increase the payment rates to account 
for the changes in service costs and geographic differences 
makes this program more attractive for potential guarantees.
    And thirdly it would allow providers to use the per diem 
funds to match other Federal funding sources. Under the current 
law, providers are unable to use the per diem funds to match 
other Federal funding sources. The current system penalizes the 
Grant and Per Diem Program providers that are successful in 
securing other sources of income for services to homeless 
veterans by reducing their per diem payment rate. And 
consequently, providers are discouraged from developing 
partnerships with the Federal and State and local and non-
profit agencies and other private funding sources because of 
that, and so that is a real disadvantage.
    The proposed fix would encourage leveraging of the VA funds 
to secure additional financial resources from other entities. 
This would maximize the potential benefits and resources 
available to these providers and increase the ability of the 
provider to provide high quality care to more homeless 
veterans.
    And so I am proud to say that this bill is endorsed by the 
National Coalition for Homeless Veterans, it is also endorsed 
by the Veterans of Foreign Wars (VFW). And so I want to thank 
them for their support.
    And Mr. Chairman, I also want to thank the Committee and 
your leadership in these efforts in trying to streamline the 
type of services that we provide and to reduce some of the 
cumbersome system that we have out there and that handicaps 
these organizations that are operated with very little 
resources in trying to provide the maximum for our veterans.
    So thank you very much. I would ask for your consideration 
in this particular piece of legislation. Thank you, sir.
    [The prepared statement of Congressman Rodriguez appears on 
p. 31.]
    Mr. Michaud. Thank you, Mr. Rodriguez, and thank you for 
all your support and efforts that you have done over the years 
on this Committee to help our veterans. Are there any questions 
for Mr. Rodriguez? Hearing none, thank you very much.
    I would like to now recognize a freshman Member of this 
Committee, one who is definitely also very concerned about our 
veterans. I appreciate Mr. Nye bringing forward H.R. 3073, a 
bill to amend title 38 of the United States Code to direct the 
Secretary of Veterans Affairs to establish a grant program to 
provide assistance to veterans who are at risk of becoming 
homeless.
    Thank you very much, Mr. Nye, for bringing this forward, I 
look forward to your testimony this morning.

                  STATEMENT OF HON. GLENN NYE

    Mr. Nye. Thank you, Mr. Chairman, it is an honor for me to 
testify in support of this legislation, H.R. 3073, which I have 
had the privilege of working on as you mentioned during my 
first term in Congress, along with Congressman Duncan Hunter of 
California. And I want to say that I am especially grateful to 
you, Mr. Chairman Michaud, Members of this Committee, also to 
the veterans' service organizations, and indeed to the veterans 
themselves for their hard work and support in helping bring 
this critical legislation to the forefront.
    Just this past August, the Bureau of Labor Statistics 
released unemployment data showing a dramatic increase in the 
number of unemployed veterans of OIF and OEF. In fact, the 
number is at an all time high of 185,000 unemployed, or 11.3 
percent. Putting this into perspective, there are only 9,000 
more servicemembers currently serving in both Iraq and 
Afghanistan then there are unemployed Iraq and Afghanistan 
veterans in the United States.
    This recession is impacting every corner of our Nation, yet 
nowhere is it more demoralizing than in our veteran population. 
The men and women who have served our country in uniform 
sacrificed life and limb to protect the freedoms that we all 
enjoy, yet when they return some veterans are just a paycheck 
or two away from losing their homes.
    That is why I have introduced H.R. 3073, a common sense 
measure that will provide temporary financial support to 
veterans who are unable to make rental or mortgage payments and 
are in imminent danger of eviction or foreclosure. Instead of 
waiting for them to lose their homes before giving them a hand 
up, I want to prevent veterans from becoming homeless in the 
first place and keep them on their feet.
    This bill authorizes a new program in the Department of 
Veterans Affairs that will provide short-term assistance to 
veterans in danger of losing their homes. Veterans who 
demonstrate that they are on the verge of losing their homes 
because they are unable to make mortgage or rental payments 
will be eligible to apply for this support. Payments will be 
made on behalf of the veteran to the landlord, mortgage 
company, or utility company for a period of up to 3 months. 
Veterans will also be provided with support services to prevent 
future homelessness, including job training, mental health, and 
substance abuse treatment.
    We can never fully repay a veteran for the sacrifices they 
have made for this country, but the least we can do is to 
provide them with a sense of stability when they are having 
troubles searching for a job. This bipartisan bill will help 
bridge the gap for veterans who are struggling and give them 
the chance to get back on their feet.
    Again, I thank you, Mr. Chairman, for allowing me to 
testify on behalf of this critical legislation, and I am 
confident that we can take this positive step forward to help 
our veterans in need and urge my colleagues to support the 
legislation. Thank you.
    [The prepared statement of Congressman Nye appears on p. 
32.]
    Mr. Michaud. Thank you very much, Mr. Nye, for that 
enlightening testimony on this piece of legislation, and thank 
you for bringing it forward. I really appreciate it very much. 
Are there any questions for Mr. Nye? There are none. Thank you.
    The last individual we have on panel two actually has two 
pieces of legislation, also a freshman Member, and who is not 
bashful about bringing forward legislation to help improve our 
veterans' lives is Mr. Teague, who is bringing forward H.R. 
2504 and H.R. 2506. Mr. Teague.

                 STATEMENT OF HON. HARRY TEAGUE

    Mr. Teague. Thank you. Mr. Chairman and Ranking Member and 
fellow Subcommittee Members, thank you for this opportunity to 
speak on behalf of two bills that are before the Subcommittee 
today, H.R. 2504 and H.R. 2506.
    H.R. 2504 addresses one of our greatest national 
travesties. On any given night in our beloved country there are 
roughly 70,000 to 130,000 veterans that are homeless. They have 
no shelter from the elements, they sleep on the street of the 
very cities that they fought to defend, and after they have 
served our country faithfully they are mostly forgotten and 
left behind. The fact that this is allowed to happen is 
shameful.
    Luckily these veterans are not completely abandoned. The 
Department of Veterans Affairs and numerous State, local, and 
non-governmental entities have stepped up to the plate and 
created numerous programs to combat the problems of homeless 
veterans across the country. These groups conduct operations 
that are aimed not only at getting veterans off of the streets 
and into a shelter, but at finding ways to help veterans find 
employment, secure their own housing, and stay in that housing.
    Veterans transitional facilities do more than offer a 
short-term solution to a homeless veteran, they hold true to 
the old proverb, ''Give a man a fish and you feed him for a 
day. Teach a man to fish and you feed him for a lifetime.''
    My bill, H.R. 2504, amends section 2013 of title 38 and 
increases the funding for these programs by $50 million in the 
next fiscal year. It only makes sense that the programs that do 
the most good to give our veterans a home should receive more 
resources so that we can work toward what should be our goal, 
eradicating homelessness among our veterans.
    I am honored to say that this bill is also supported by the 
National Coalition of Homeless Veterans. I believe that it is a 
noble effort, and I hope that my colleagues and this 
Subcommittee and Congress agree, and I hope that they will 
support this legislation.
    The second bill that I have before the Committee is H.R. 
2506, the ``Veterans Hearing and Assessment Act.'' This bill 
addresses a new health factor that is facing our troops, 
tinnitus. Until recently tinnitus, better known as ringing in 
the ears, was little understood and even less addressed by the 
medical community. People suffering with tinnitus were often 
thought to have anxiety disorders, or in some cases to be 
delusional. Fortunately those misperceptions have changed and 
tinnitus is now recognized as a serious clinical syndrome that 
impacts 12 million individuals on a chronic basis, 2 million 
who are virtually incapacitated by the disorder. Tinnitus has 
generally become more common among our Nation's soldiers and 
veterans, particularly those who have been exposed to blast 
injuries in Iraq and Afghanistan.
    In addition to the personal impact of tinnitus on our 
veterans' lives and well being, the cost of tinnitus and its 
continuing rise in instance is extremely alarming. Since 2001, 
service-connected disability payments for tinnitus has 
increased by 18 percent per year, and tinnitus is currently 
ranked by the Department of Veterans Affairs as the number one 
service-connected disability for returning soldiers. If current 
trends continue, tinnitus compensation for veterans will exceed 
$1 billion by the year 2011.
    My bill, H.R. 2506, takes some important common sense steps 
to address this problem. It requires that each Member of the 
Armed Forces receive a hearing evaluation that includes 
screening for tinnitus before and after deployment. Why is this 
important? Certain forms of sensory impairment are clearly 
visible to casual observation; however, hearing impairment, 
including tinnitus, may often go undetected or be misdiagnosed, 
yet along with vision, a soldier relies most on his or her 
hearing in order to remain safe when in a combat situation.
    Impaired hearing, including tinnitus, impacts the soldiers 
ability to respond appropriately in combat situations, 
jeopardizing not only the soldier's life, but those around him 
or her, and compromising the safety of the mission itself.
    We need to ensure that pre- and post-deployment screening 
include an assessment of tinnitus to help ensure a soldier's 
safety while in the field and to assess the extent to which a 
soldier may have tinnitus as a result of their exposure to 
blasts or other high noise level.
    Mr. Chairman, my legislation also would ensure that 
tinnitus will be recognized as a mandatory condition for 
research and treatment by the Department of Veterans Affairs 
Auditory Research Center of Excellence. Recent studies strongly 
suggest a direct link between tinnitus in both post-traumatic 
stress disorder (PTSD) and traumatic brain injury. For this 
reason, improved understanding of the neurological mechanisms 
that trigger tinnitus and research into its treatment may also 
directly advance other ongoing research efforts to address the 
equally serious challenges of PTSD and TBI.
    We know that tinnitus is a condition of the auditory 
system, not a disease of the ear. Existing therapies may help 
mitigate the effects of tinnitus for some patients, but the 
extent of relief afforded to patients with tinnitus varies 
greatly. In short, they do not work for all individuals and 
they do not cure tinnitus.
    Scientific research into tinnitus has made some dramatic 
advances over the last decade, but we still have a long ways to 
go to improve prevention and treatment for tinnitus in order to 
help the millions of American veterans who have experienced 
tinnitus as a chronic ongoing condition, and hopefully to find 
a cure for this debilitating condition.
    I thank the Committee for its time and consideration. I 
would like to take this time to thank the staff Members of the 
Health Subcommittee who lent their expertise during the 
drafting of this bill, and thank Chairman Michaud and Ranking 
Member Brown for the opportunity to advance these two important 
pieces of legislation.
    This concludes my testimony, but I would like to submit a 
statement for the record from the American Tinnitus Association 
(ATA), if I may. Thank you.
    [The prepared statement of Congressman Teague, and the 
statement from ATA, appear on pp. 33 and 53.]
    Mr. Michaud. Without objection, so ordered. Thank you very 
much Mr. Teague for bringing both of these bills before us 
today. I really appreciate your testimony. Are there any 
questions for Mr. Teague? Hearing none, thank you very much, 
and once again, thank you Mr. Nye as well for your legislation.
    And I would like to recognize Mr. Brown before we bring 
forward the third panel. I know Mr. Brown actually was tied up 
in the Transportation Committee hearing and was delayed getting 
over here.
    So I want to thank you, Mr. Brown, for your friendship and 
for your willingness for work in a strong bipartisan manner 
dealing with veterans' issues. Both you and I have served and 
switched seats here over the past 7 years as Ranking and 
Chairman of this Subcommittee and the Benefits Subcommittee, so 
I really appreciate your willingness to work in a bipartisan 
manner and do what is right for our veterans. So I would 
recognize you for your opening statement.

            OPENING STATEMENT OF HENRY E. BROWN, JR.

    Mr. Brown of South Carolina. Well thank you, Mr. Michaud, 
and certainly the admiration is mutual. It has been a pleasure 
working with you on this Committee in both roles, and we always 
said early on that when you open--come through those doors this 
is a non-partisan Committee, and I think it pretty well 
reflects that among all the membership, and particularly our 
relationship, because it is all about the veteran and not about 
politics.
    But I do have a bill that I would like to introduce, and I 
apologize for not being here earlier. The Secretary of 
Transportation was in the meeting this morning, and I certainly 
wanted to listen to his report as to how the stimulus is being 
carried out and how the jobs are being created across the 
Nation. But anyway, I apologize for not being here earlier.
    But I want to also thank you for including on the agenda a 
bill that I intend to introduce, the ``Veterans Dog Training 
Therapy Act.''
    This legislation would require VA to conduct a pilot 
program at three sites modeled after an innovative mental 
health initiative that is currently being piloted at the VA 
Medical Center in Palo Alto, California.
    I know that Members and the witnesses have not had 
sufficient time to comment on this bill, so I would appreciate 
it if you would take time to respond later on for the record.
    The intent of the program is to help veterans with post-
deployment mental health and post-traumatic stress disorder 
through a therapeutic medium of training service dogs. After 
training the dogs, the dogs are placed with veterans that have 
combat-related physical disabilities.
    Although this program has only been going on in one site, 
veterans participation in the dog training program have seen 
some spectacular success in addressing symptoms associated with 
PTSD. Participating veterans are seeing improvements in sleep 
patterns, mood, patience, and sense of purpose. But because the 
program is only going on in one location, we need to see some 
further evidence of these results.
    I would like to read you what a veteran who has already 
gone through the Paws for Purple Hearts Program had to say 
about it, because I think his testimony means the most, and I 
quote:''

``To Whom It May Concern:

    I was introduced to the Dog Training Program, veterans 
training service dogs for veterans with mobility disabilities 
while I was a patient at the Men's Trauma Recovery Program at 
the Menlo Park VA facility. I am receiving treatment for post-
traumatic stress disorder. I understand I am part of the pilot 
program in working with these service dogs in training. For me, 
this opportunity has been a Godsend.
    The dog has provided me with the opportunity to work on 
patience, as we work on training him to do new tasks. I have 
learned that dogs have personalities like humans and they go 
through times when they are stubborn or distracted and don't 
want to do what they are told. But when that happens, I have 
learned to be assertive with the dog instead of aggressive. I 
give positive reinforcement and reward him for making progress 
rather than getting angry and yelling. When I am patient and 
assertive, he always comes around and gets rewarded for 
performing a commanded task. It feels good to see him succeed.
    My family has noticed a difference in the way I interact 
with them as a result of working with my service dog in 
training. I am patient with my children when they are around, I 
haven't yelled at them in several months, and they aren't 
afraid of me when I am around. I think that is a direct result 
of working with my dog.
    I have also benefited from the association with my service 
dog in training as we spend time on bonding every day. I feel 
loved by him and feel comforted when he is around. It has been 
nearly 4 years since I have felt comforted. When the dog is 
with me, people that I pass come up and talk to me and I have 
social interactions that I wouldn't have had without the dog.
    I am grateful the VA here in Menlo Park started this 
program and I got to be part of it. I wish more veterans got 
the opportunity I have been given to work with these amazing 
animals.
    Please consider this program on a larger scale so more 
veterans can benefit from training or receiving a service dog.
    Thank You. Staff Sergeant Warren Price.''
    It is vitally important that we explore new and innovative 
ways to help the increasing number of our returning veterans 
who are experiencing post-deployment and PTSD symptoms. I hope 
my colleagues will join me in supporting this legislation. And 
with that, Mr. Chairman, I yield back the remainder of my time.
    [The prepared statement of Congressman Brown appears on 
p. 26.]
    Mr. Michaud. Thank you very much, Mr. Brown. Are there any 
questions of Mr. Brown on the ``Veterans Dog Training Therapy 
Act?`` If not, thank you very much.
    I would like to ask the third panel to come forward. And 
while they are coming forward I would also like to point out 
that H.R. 2506 and the ``Veterans Dog Training Therapy Act,'' 
was added at the last minute to our agenda, so I would like to 
ask both the third and the fourth panel to submit your views on 
these two pieces of legislation if you could.
    On the third panel we have Joe Wilson who is from the 
American Legion; Justin Brown, the Veterans of Foreign Wars; 
Rick Weidman from the Vietnam Veterans of American (VVA); and 
Blake Ortner from the Paralyzed Veterans of America (PVA).
    I want to thank the four of you gentlemen for coming this 
morning to talk about the legislation you heard earlier, as 
well as the draft piece of legislation, and look forward to 
your testimony. So we will start off with Mr. Wilson.

       STATEMENTS OF JOSEPH L. WILSON, DEPUTY DIRECTOR, 
   VETERANS AFFAIRS AND REHABILITATION COMMISSION, AMERICAN 
     LEGION; JUSTIN BROWN, LEGISLATIVE ASSOCIATE, NATIONAL 
  LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED 
 STATES; RICHARD F. WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY AND 
 GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA; AND BLAKE C. 
   ORTNER, SENIOR ASSOCIATE LEGISLATIVE DIRECTOR, PARALYZED 
                      VETERANS OF AMERICA

                 STATEMENT OF JOSEPH L. WILSON

    Mr. Wilson. Mr. Chairman and Members of the Subcommittee, 
thank you for this opportunity for the American Legion to 
present its views on the broad list of veterans' legislation 
being considered by this Committee. The American Legion 
commends this Committee for holding a hearing to discuss these 
very important and timely issues.
    I will begin with H.R. 1017, the ``Chiropractic Care 
Available To All Veterans Act.'' The purpose of this bill is to 
direct the Secretary of Veterans Affairs to require the 
provisions of chiropractic care and services to veterans at all 
Department of Veterans Affairs Medical Centers and to expand 
access to such care and services.

    The American Legion supports this bill as it is an 
enhancement of an existing benefit provided to veterans.

    H.R. 1036, the ``Veterans Physical Therapy Services 
Improvement Act of 2009.'' The purpose of this bill is to 
establish a Director of Physical Therapy Services within VA to 
ensure these programs have effective oversight and management.
    Previously, the American Legion expressed a position 
supporting the establishment of a Director of Physician 
Assistant within VA to ensure efficient utilization of the 
programs and initiatives relating to this field.

    The American Legion continues to support the intent of this 
bill.

    H.R. 2504--Increase in Amount Authorized to be Appropriated 
for Comprehensive Service Programs for Homeless Veterans. This 
bill would increase the funding going to homeless veterans 
programs that are desperately needed. These programs will 
assist the homeless veteran community with their 
rehabilitation, recovery, health, and community integration.

    The American Legion fully supports this bill.

    H.R. 2559, the ``Help Our Homeless Veterans Act.'' This 
bill would direct the Secretary of Veterans Affairs to carry 
out a national media campaign directed at homeless veterans and 
veterans at risk of becoming homeless. This bill would provide 
outreach to our homeless veterans and those who are at high 
risk of becoming homeless.
    This bill would also place a special emphasis on a special 
subgroup of veterans, women veterans. According to VA, the 
number of homeless women veterans has doubled in the past 
decade, up from 3 percent to 5 percent.

    The American Legion supports this bill.

    H.R. 2735--Availability of Grant Funds to Service Centers 
for Personnel. This bill seeks to provide a service center for 
homeless veterans that could be used to provide funding for 
staffing in order to meet the service availability. This bill 
will provide the maximum amount of finances to organizations 
that are on the frontlines of assisting our most vulnerable 
veterans.

    The American Legion supports this important piece of 
legislation.

    H.R. 3073--Grant Program to Provide Assistance to Veterans 
at Risk of Becoming Homeless. This bill seeks to establish a 
Grant Program to provide assistance to veterans who are at risk 
of becoming homeless. To date approximately 3,000 veterans from 
Iraq and Afghanistan have been treated at VA Medical Centers. 
This bill could help veterans and their families avoid 
extraordinary stresses and damages that occur when they become 
homeless.

    The American Legion fully supports this bill.

    H.R. 3441--Automatic Enrollment of Veterans Returning from 
Combat Zones into the VA Medical System. The purpose of this 
bill is to amend title 38 of the United States Code relating to 
the automatic enrollment of honorably discharged combat 
veterans.
    The American Legion recently passed Resolution No. 29, 
Improvements to Implement a Seamless Transition, which 
recognized the gaps in services, and has consistently advocated 
improvements be made to the transition process.
    The American Legion fully supports H.R. 3441 and its 
efforts to improve coordination between DoD and VA during the 
seamless transition process of wounded servicemembers and 
veterans.
    Draft Discussions on Homelessness Among Veterans--This 
draft seeks to amend title 38, United States Code, to improve 
per diem grants payments for organizations assisting homeless 
veterans.

    The American Legion supports this piece of draft 
discussion.

    Draft Discussions on Graduate Psychology Education Transfer 
of Funds to Secretary of Health and Human Services for Graduate 
Psychology Education Program--The purpose of this bill is to 
transfer $5 million from accounts of the Veterans Health 
Administration to the Secretary of the Department of Health and 
Human Services for the Graduate Psychology Education Program.
    The American Legion approved Resolution No. 150, the 
American Legion Policy on Department of Veterans Affairs Mental 
Health Services, which urges Congress to annually appropriate 
funds to VA to ensure comprehensive mental health services are 
available to veterans. The American Legion believes funding 
must be appropriated to treat the invisible wounds of war.
    The American Legion has supported VA's strong commitment to 
medical and nursing school affiliations to recruit and retain 
high quality medical specialists; however, we do not have an 
official position on an affinity relationship between the 
training of VA psychologists through the U.S. Department of 
Health and Human Services (HHS).
    Mr. Chairman, thank you for allowing the American Legion to 
present--this opportunity to present its views on the 
aforementioned issues. We look forward to working with the 
Committee to help increase and improve access to quality care 
for our Nation's veterans.
    [The prepared statement of Mr. Wilson appears on p. 34.]
    Mr. Michaud. Thank you very much, Mr. Wilson. Mr. Brown?

                   STATEMENT OF JUSTIN BROWN

    Mr. Brown. Thank you Chairman. Mr. Chairman, Ranking Member 
Brown, and Members of this Subcommittee, on behalf of the 2.2 
million Members of the Veterans of Foreign Wars and our 
Auxiliaries, I would like to thank this Committee for the 
opportunity to testify. The issues under consideration today 
are of great importance to our Members and the entire veteran 
population.
    As the majority of the bills are dealing with homelessness, 
I am going to limit my remarks to the issue in general.
    As we speak, more than 131,000 homeless veterans are 
walking the streets of the country they fought so bravely to 
defend. A great number of these men and women are likely 
walking these streets due to their injuries, physical or 
mental, resulting from their service to their country.
    There is no one causative factor for homelessness, but 
there are many aggravators. Substance abuse, lack of familial 
ties, physical and mental health issues, lack of access to 
affordable housing, lack of employment, and other issues can 
all eventually lead a person to being either temporarily or 
chronically homeless. We must consider these factors and be 
proactive in consideration of homeless policy now and into the 
future.
    As Representative Nye represented in his testimony, there 
are only 9,000 fewer unemployed Post-9/11 veterans in the 
United States than there are servicemembers in Iraq and 
Afghanistan. That is 185,000 unemployed Post-9/11 veterans 
compared to 194,000 servicemembers in Iraq and Afghanistan. 
Unemployment, combined with high rates of mental health and 
physical injuries due to multiple deployments, is a recipe for 
disaster.
    If we are not proactive in our approach to solving 
homelessness, all of the aggravating factors will combine to 
leave many thousands of my era of veteran homeless. We must act 
immediately to alleviate the problem before it explodes.
    President Obama addressed the VFW at our national 
Convention last month. He stated, and I quote, ``I have 
directed Secretary Shinseki to focus on a top priority, 
reducing homelessness among veterans. After serving their 
country, no veteran should be sleeping on the streets. No 
veteran. We should have zero tolerance for that.''
    We have full faith that this administration and this 
Congress will fully address this issue today and not tomorrow, 
by eradicating homelessness for America's heroes of past, 
current, and future wars forever.
    As America's largest group representing combat veterans, we 
thank you for allowing the Veterans of Foreign Wars to present 
its views on the bills in question to which we have submitted 
testimony pertaining our views and opinions on them.
    Mr. Chairman, this concludes my testimony, and I will be 
pleased to respond to any questions you or the Members of this 
Subcommittee may have. Thank you.
    [The prepared statement of Mr. Brown appears on p. 37.]
    Mr. Michaud. Thank you very much, Mr. Brown for your 
testimony. Mr. Weidman?

                STATEMENT OF RICHARD F. WEIDMAN

    Mr. Weidman. Thank you, Mr. Chairman, for allowing Vietnam 
Veterans of America to present testimony here this morning. 
There are a diverse group of bills.
    First let me just say in regard to the Chairman's bill on 
chiropractic, it was clear, at least to some of us, the intent 
of the bill already passed, I believe it was 2 years ago, and 
there is no reason for VA not to have it available in every 
facility.
    Yes, very much on the tinnitus bill. It is a series 
problem. The Institute of Medicine did a study that they 
released 3 1/2 years ago that was excellent on this, and should 
have been already taken care of by action, by the Secretary, 
but it hasn't been, so I applaud you, Mr. Teague, for 
introducing that legislation.
    Auto-enrollment makes all the sense in the world that 
people should be automatically enrolled in the VA when they 
separate from military service, particularly those who are 
returning from a combat deployment, and that will help a great 
deal.
    Part of the problem also, is I would encourage that we also 
at the same time that we reach out to those who are deployed, 
we need to reopen this system and take the strictures of 
January 2003 off. The rate of enrollment of those who were 
denied during that 
5-, 6-year hiatus is not going well. I mean people are not 
flooding in the gates, because having been burned once they are 
not coming back, and we need to up the income levels and open 
it up to category eights much more quickly.
    In regard to physical therapy and the various scholarships, 
particularly for graduate work and getting clinical psychology 
degrees, VVA, in 1982, proposed on the Readjustment Advisory 
Committee of Vietnam Veterans, which is now the Readjustment 
Advisory Committee on Combat Veterans, that we establish a PTSD 
scholarship for returning combat veterans from Vietnam. Those 
who show a natural propensity let us train them and then have 
them give back on a year-by-year basis the same as you give 
back to military service, if in fact you have participated in 
ROTC or in one of the service academies. And it still makes 
sense today.
    It makes sense for physical therapists, it makes sense for 
clinical psychologists, it makes sense for physician 
assistants, particularly for returning core men and medics who 
have had more extensive experience on a battle field than 
residents and interns would ever have.
    And so I am suggesting that the Committee look at what are 
the needs of the future in establishing a broad authority for 
the Secretary to establish scholarships where people would give 
back year for year. Those who serve with families can't afford 
to go out on a GI Bill. It is not the question of paying for 
school, it is a question of being able to support their family 
at the same time, and hiring those people so that they are 
already working at least on a part-time basis and on breaks at 
the VA would make a great deal of sense.
    Increasing H.R. 2504, which would increase to $200 million, 
the Grant and Per Diem Program, is something that is much 
needed, and VVA strongly favors that, and strongly favors fully 
funding that authorization.
    The ``Help Our Homeless Vets Act'' is about the media 
campaign. No, the VA does not do a good job of reaching out to 
homeless veterans, but they don't do a good job of reaching out 
to anybody to inform them about their risks of health problems, 
et cetera. And so creating a line item for outreach in every 
single program frankly is something that we would encourage the 
Committee, both the Subcommittee and the full Committee to 
mandate that VA do such a thing. Because if you don't plan for 
it, you are not going to get it done. If it is an after 
thought, then it is never going to be done very well.
    The Comprehensive Service Programs. I think we all know 
that while we need decent housing and we need transitional 
housing that is decent and clean of drugs and alcohol, we also 
need support of services at those, and also transition section 
eight housing, low-cost housing after people have finished in 
the transition housing is needed as well, but supportive 
services once again must be available, and H.R. 2735 moves in 
that direction and we would encourage you to even increase that 
bill.
    H.R. 3073, which directs the Secretary to fund at $100 
million, a grant program to provide assistance to veterans at 
risk of becoming homeless. We would applaud that. There is much 
talk about the numbers here this morning, but there always is 
when we talk about homeless veterans. And we are curious about 
all the numbers supplied by VA. How did we go from 3 1/2 years 
ago of an estimate of 240-to 260,000 down to 173,000 who are 
homeless down to an estimate today that is much lower than 
that? So I would just warn the Committee, if I may, about 
taking those numbers too seriously. Any veteran who is 
homeless, and there are a lot, is too much. And so we shouldn't 
rely on just the raw numbers, however they are figured out, to 
gauge whether or not we are making progress.
    Mr. Chairman, I thank you for holding this hearing, and I 
see I am out of time so I will end there, sir.
    [The prepared statement of Mr. Weidman appears on p. 39.]
    Mr. Michaud. Thank you. Mr. Ortner?

                  STATEMENT OF BLAKE C. ORTNER

    Mr. Ortner. Mr. Chairman, Ranking Member Brown, and Members 
of the Subcommittee, on behalf of Paralyzed Veterans of America 
I would like to thank you for the opportunity to present PVA's 
position on the legislation pending before the Subcommittee. 
Due to limits on time, I will only address some of the bills in 
detail.
    PVA has always been a strong supporter of helping homeless 
veterans. VA estimates that hundreds of thousands of veterans 
are homeless on any given night or experience homelessness in a 
year. While exact numbers may vary, this is a tragedy that 
continues to plague our Nation.
    PVA strongly supports H.R. 2504, to provide for an increase 
in the annual amount authorized by the Secretary of VA to carry 
out homeless programs, and H.R. 2559, the ``Help Our Homeless 
Veterans Act,'' to increase outreach which is critical to 
reducing homelessness.
    We are particularly pleased that the legislation not only 
targets veterans who are homeless, but those that are at risk 
of becoming homeless, with a special emphasis on our women 
veterans who face so many additional challenges on the street.
    PVA supports H.R. 2735, a bill that will make improvements 
to the Comprehensive Programs for homeless veterans. However, 
we do have some concerns about the long-term effects of the 
legislation. Section two allows the Secretary of VA to increase 
the rates of payment to reflect anticipated changes in the cost 
of services and takes into account the cost of providing these 
services in particular geographic areas.
    While we welcome this consideration by adjusting the 
payments for geographic areas, which we believe is aimed at 
providing greater funding to high cost localities, this may 
actually reduce the total number of homeless veterans that can 
be served if future increases in program funding are 
insufficient. Funding levels provided for homeless programs are 
seldom sufficient to provide for all the veterans who may need 
to take advantage of these critical services.
    In conjunction with H.R. 2735 are the discussion drafts to 
improve per diem grant payments for organizations assisting 
homeless veterans and to eliminate the required reduction of 
per diem payments provided to entities furnishing services due 
to other sources of income.
    One bill would set the per diem rate at an amount equal to 
the greater of the daily cost of care or a fixed per diem rate 
of $60 and essentially set a floor. PVA supports this floor and 
has consistently opposed reductions of per diem due to other 
income sources. However, PVA is concerned about other aspects 
of the draft.
    The legislation proposes that the Secretary of VA ensure 25 
percent of funds for payments be available for recipients or 
entities which furnish services to homeless veterans of which 
less than 75 percent are veterans. This means an entity which 
provides services to the homeless, and only 1 percent, or for 
that matter zero percent, of those receiving services are 
veterans who are eligible for VA funding. At least this is how 
we understand the wording of the bill.
    While we understand some homeless providers may serve a 
minimal number of veterans, VA homeless veterans funding should 
be targeted toward veterans' providers who provide for homeless 
veterans.
    PVA also welcomes the discussion draft legislation to 
reform and expand VA Supportive Housing Program carried out by 
the U.S. Department of Housing and Urban Development (HUD), VA, 
which may return a homeless veteran to housing.
    PVA does have one concern. The draft calls for specific set 
aside for OEF and OIF veterans. Though we understand the desire 
of Congress to help our most recent veterans, the scourge of 
homelessness is so serious that to potentially limit resources 
for non-OEF/OIF veterans is a mistake. All our homeless 
veterans should have an equal chance at any help that may be 
available.
    PVA supports H.R. 3441, to provide for automatic enrollment 
of veterans returning from combat zones into the VA medical 
system. However, absent from the legislation is a clear 
consideration of our mobilized National Guard and Reservists as 
they are demobilized from wartime service. We would ask that 
the Subcommittee consider including specifics in the 
legislation.
    PVA supports provisions of H.R. 1017, the ``Chiropractic 
Care Available To All Veterans Act;'' H.R. 1036, the ``Veterans 
Physical Therapy Services Improvement Act of 2009;'' and H.R. 
3073 as introduced.
    However, PVA does not support the draft legislation as 
currently written to transfer funds from VA to the Secretary of 
HHS for a Graduate Education Program. PVA recognizes the value 
of HHS due to their established programs for graduate 
education, but the provision that when awarding grants the 
Secretary of HHS is only required to give a preference to 
health care facilities of the VA when these funds are coming 
from VA seems beyond comprehension.
    We would sincerely hope that only in the event VA did not 
apply for the grant would it be awarded to a non-VA program or 
facility.
    PVA appreciates the opportunity to comment on the bills 
being considered by the Subcommittee, and we would be happy to 
answer questions you may have. Thank you.
    [The prepared statement of Mr. Ortner appears on p. 42.]
    Mr. Michaud. Thank each of you for your testimony. I know 
they called for the votes, but there are still about 400 
members who have not voted yet. So are there any questions from 
the Committee? If not, we will be submitting questions, and 
hopefully you will respond, due to the votes being open.
    So once again, I want to thank all four of you for coming 
this morning to give your thoughts on the pending legislation 
we currently have before us. So thank you.
    I will now call and hopefully we can get through this last 
panel before we have to run off to votes, is Peter Dougherty, 
who is the Director of the Homeless Veterans Program. He is 
accompanied by Paul Smits from the Department of Veterans 
Affairs, as well as Jane Clare Joyner, who is also from the 
Department of Veterans Affairs.
    I want to thank you for coming, Mr. Dougherty, and we do 
have your written testimony, so if you could try to sum up your 
written testimony. Thank you.

 STATEMENT OF PETER H. DOUGHERTY, DIRECTOR, HOMELESS VETERANS 
PROGRAMS, OFFICE OF PUBLIC AND INTERGOVERNMENTAL AFFAIRS, U.S. 
 DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY PAUL E. SMITS, 
     ASSOCIATE CHIEF CONSULTANT, HOMELESS AND RESIDENTIAL 
    REHABILITATION AND TREATMENT PROGRAMS, VETERANS HEALTH 
 ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND JANE 
   CLARE JOYNER, DEPUTY ASSISTANT GENERAL COUNSEL, OFFICE OF 
      GENERAL COUNSEL, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Dougherty. Thank you, Mr. Chairman. Good morning to you 
and to the Members of the Subcommittee. Thank you for inviting 
me here today. We will address the four bills, specifically 
that deal with homeless veterans, and we will provide our views 
and cost estimates on the others as soon as they are available.
    H.R. 2504 would amend title 38, section 213, to raise the 
authorized amount to be appropriated for the Homeless Grant and 
Per Diem Program from $150 million to $200 million beginning in 
fiscal year 2010 and each fiscal year thereafter.
    VA supports H.R. 2504; however, we would also recommend 
that the Committee consider that there is an increased need for 
appropriations, and we would suggest that the amount of 
appropriations simply be allowed to be set by the needs as we 
see them in the Department as opposed to an appropriated dollar 
level.
    H.R. 2559 asks for a national media campaign targeted to 
veterans who are homeless and at risk, with special emphasis on 
women veterans. The VA supports outreach to homeless veterans. 
We have authority under Public Law 110-389, section 539 to 
promote awareness of veterans' benefits and services through 
the Secretary.
    We believe that we have a plan that will start in fiscal 
year 2010 that will do specific targeting and advertising, if 
you will, for veterans who are homeless, and we would welcome 
the opportunity to talk to the Committee and the Committee's 
staff about those issues at a later time.
    H.R. 2735 would make improvements to the ``Comprehensive 
Services Act.'' Section 1 of that bill would add a new 
subsection, specifically allowing service centers receiving 
grants from the Department to use those staffing grants to 
ensure services are provided and to change the basis from a 
daily rate of care to an annual cost of furnishing those 
services. VA supports section one of that bill.
    Section 2 would direct the Secretary to increase the rate 
of payment to reflect changes of cost of furnishing services 
and cost of services based upon geographic areas. It would 
remove the requirement that the Secretary consider other 
sources available, and would leave it to his or her discretion. 
And it would allow grant recipients to use VA grants to match 
other payments or grants from other providers.
    VA continues to evaluate section two and the implications 
of the shift from per diem to annual cost of furnishing 
services.
    VA generally supports the concept of the bill and this 
provision, but we are apprehensive that this legislation may 
have policy problems leading to higher costs and more detailed 
auditing and increased oversight by us.
    VA does not oppose removing the existing cap, but we are 
concerned that the language in the bill is restrictive in that 
it only authorizes the VA to increase the rate of payment from 
year to year. VA could be unable to respond to situations or 
developments that might lower the operating costs for grant 
recipients. As a result, VA can be forced to pay costs above 
rates to providers.
    We consequently recommend that the language be modified to 
say ``adjust,'' instead of ``increase.'' The bill would also no 
longer require the Secretary to consider the availability of 
other sources of income to grant recipients. VA suggests that 
the language be amended to prohibit duplication and allow for 
adjustment rather than solely increased funding.
    Again, we would welcome the opportunity to discuss these 
issues with you and the Committee staff, and we will be happy 
to provide additional details to the Committee as we further 
evaluate the impact of this proposal.
    Regarding H.R. 3073, this would create a new grant program 
that would require the Secretary to provide grants to public 
entities and private non-profit organizations to provide 
financial support to veterans at risk of or homelessness, 
specifically to those veterans in eminent danger of eviction or 
foreclosure who demonstrate a compromised ability to make 
rental or mortgage payments and who meet eligibility 
requirements established by the grant recipient. This would 
allow up to 3 months to be provided assistance.
    VA supports preventive measures for homeless veterans and 
those at risk, but we have some serious concerns about the 
bill.
    Let me briefly explain, Mr. Chairman. Section 604 of Public 
Law 110-187 provides VA with the authority to provide grants to 
organizations offering supportive services that are similar to 
this legislation for low-income veterans and their families 
that are living in permanent housing. VA is currently 
developing regulations to implement this legislation and we 
expect to do it this fiscal year.
    We also believe that the 3-month eligibility for services 
under this bill is too short, and we would think that that is 
an issue we need to address as well.
    Again, Mr. Chairman, we understand we are very quick here. 
We would welcome the opportunity to discuss this with you and 
answer any questions you or the Committee may have.
    [The prepared statement of Mr. Dougherty appears on p. 45.]
    Mr. Michaud. Thank you very much, Mr. Dougherty, and look 
forward to working with you on these pieces of legislation, and 
we definitely will have follow-up questions, but due to the 
fact that we have only got less than a minute to get over to 
vote, we will have to adjourn the hearing, but we will 
definitely followup with the questions both for the third and 
fourth panel.
    So once again thank you very much for testifying.
    Mr. Dougherty. Thank you, Mr. Chairman.
    Mr. Michaud. The hearing is now adjourned.
    [Whereupon, at 11:21 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

             Prepared Statement of Hon. Michael H. Michaud,
                    Chairman, Subcommittee on Health
    I would like to thank everyone for coming today.
    Today's legislative hearing is an opportunity for Members of 
Congress, veterans, the VA and other interested parties to provide 
their views on and discuss recently introduced legislation within the 
Subcommittee's jurisdiction in a clear and orderly process.
    I do not necessarily agree or disagree with the bills before us 
today, but I believe that this is an important part of the legislative 
process that will encourage frank discussions and new ideas.
    We have thirteen bills before us today. Of this, eight bills have 
been introduced and cover a wide range of issues including homeless 
veterans, chiropractic care, physical therapy, screening for hearing 
loss, and automatic enrollment of veterans in the VA medical system. 
The remaining five bills are drafts for discussion and would support 
the training of psychologists in the treatment of veterans with PTSD, 
TBI, and other combat-related disorders; create a pilot program using 
psychiatric service dogs; and build on the homeless bills which already 
have been introduced to provide additional assistance to homeless 
veterans.
    While today's hearing covers a wide range of issues, it focuses on 
homeless veterans with seven of the thirteen bills before us today 
addressing issues of homelessness. According to the VA, about one-third 
of the adult homeless population has served their country in the Armed 
Services. Current population estimates suggest that about 130,000 
veterans are homeless on any given night and twice as many experience 
homelessness at some point during the course of a year. Given these 
staggering statistics, it is clear that we must do better by our 
veterans and this legislative hearing is a step in the right direction 
as it provides an opportunity to hear different points of views and 
ideas on how best to serve our homeless veterans.
    I look forward to hearing the views of our witnesses on these bills 
before us.

                                 <F-dash>
            Prepared Statement of Hon. Henry E. Brown, Jr.,
           Ranking Republican Member, Subcommittee on Health
    Thank you, Mr. Chairman.
    I appreciate your holding this legislative hearing today to discuss 
a number of bills that seek to improve and enhance the quality of care 
and services we provide to our veterans, especially those veterans who 
are homeless and at-risk for homelessness.
    I also want to thank you for including on the agenda a bill that I 
intend to introduce, the Veterans Dog Training Therapy Act.
    This legislation would require VA to conduct a pilot program at 
three sites modeled after an innovative mental health initiative that 
is currently being piloted at the VA medical center in Palo Alto, CA.
    I know that Members and the witnesses have not had sufficient time 
to comment on this bill, so I would appreciate if you would take time 
to respond later on, for the record.
    The intent of the program is to help veterans with post deployment 
mental health and Post Traumatic Stress Disorder (PTSD) through a 
therapeutic medium of training service dogs. After training the dogs, 
the dogs are placed with veterans that have combat-related physical 
disabilities.
    Although this program has only been going on in the one site, 
veterans participating in the dog training program have seen some 
spectacular success in addressing symptoms associated with PTSD. 
Participating veterans are seeing improvements in sleep patterns, mood, 
patience, and sense of purpose. But because the program is only going 
on in the one location, we need to see some further evidence of these 
results.
    I'd like to read you what a veteran who has already gone through 
the Paws for Purple Hearts program had to say about it, because I think 
his testimony means the most

    ``To Whom It May Concern:

    I was introduced to the dog training program, veterans training 
service dogs for veterans with mobility disabilities, while I was a 
patient at the Men's Trauma Recovery Program at the Menlo Park VA 
facility. I am receiving treatment for Post Traumatic Stress Disorder. 
I understand I am part of the pilot program in working with these 
service dogs in training. For me, this opportunity has been a Godsend.
    The dog has provided me with the opportunity to work on patience as 
we work on training him to do new tasks. I've learned that dogs have 
personalities like humans and they go through times when they are 
stubborn or distracted and don't want to do what they're told. But when 
that happens I've learned to be assertive with the dog instead of 
aggressive, I give positive reinforcement and reward him for making 
progress rather than getting angry and yelling. When I am patient and 
assertive he always comes around ad gets rewarded for performing a 
commanded task. It feels good to see him succeed.
    My family has noticed a difference in the way I interact with them 
as a result of working with my service dog in training. I am patient 
with my children when they are around, I haven't yelled at them in 
several months and they aren't afraid of me when I'm around. I think 
that is a direct result of working with my dog.
    I have also benefited from the association with my service dog in 
training as we spend time on bonding every day. I feel loved by him and 
I feel comforted when he is around. It's been nearly 4 years since I 
have felt comforted. When the dog is with me people that I pass come up 
and talk to me and I have social interaction that I wouldn't have had 
without the dog. I'm grateful the VA here in Menlo Park started this 
program and I got to be part of it. I wish more veterans got the 
opportunity I've been given to work with these amazing animals.
    Please consider this program on a larger scale so more veterans can 
benefit from training or receiving a service dog.

    Thank You.

                                                              (SSG)
                                                    OIF 2003-2005''
    It is vitally important that we explore new and innovative ways to 
help the increasing number of our returning veterans who are 
experiencing post deployment and PTSD symptoms. I hope my colleagues 
will join me in supporting this legislation.
    With that, Chairman, I yield back the remainder of my time.

                                 <F-dash>
              Prepared House Statement of Hon. Phil Hare,
        a Representative in Congress from the State of Illinois
    Thank you Chairman Michaud, Ranking Member Brown, Members and staff 
of the House Veterans Affairs Committee Subcommittee on Health for 
inviting me here today. As a former Member of this Subcommittee, it's 
always a pleasure to be in this room among friends who are so dedicated 
to the welfare of our Nation's heroes.
    I come before you today to present testimony on legislation I 
introduced, H.R. 2559, the Help Our Homeless Veterans Act. This bill 
directs the Secretary of the Department of Veterans Affairs (VA) to 
carry out a national media campaign directed at homeless Veterans and 
Veterans who are at risk of becoming homeless to help end this growing 
problem.
    The number of homeless Veterans is rising and must be addressed. 
Veterans are overrepresented in our Nation's homeless population. In 
fact, they make up about one-third of our country's homeless. On any 
given night this year, 131,000 Veterans are sleeping on the streets. 
This year alone, 300,000 Veterans will experience homelessness.
    Vietnam Veterans represent the largest segment of the homeless 
Veteran population. Now, at a time with the highest unemployment rate 
in 26 years, with more and more servicemembers returning home from the 
conflicts in Iraq and Afghanistan, the number of Veterans who are 
unable to make ends meet and face the prospect of homelessness is 
growing. The VA estimates that it already provides services to 916 
Veterans from the conflicts in Iraq and Afghanistan. Additionally, the 
VA has identified over 2,986 Veterans that are at risk of becoming 
homeless.
    Additionally, there has been an alarming increase in the number of 
female homeless Veterans. The VA estimates that 10 percent of all 
homeless Veterans are now women. This means that about 740 female 
Veterans from the Iraq and Afghanistan conflicts are homeless, or have 
been identified as being at risk of becoming homeless. These numbers 
are simply unacceptable.
    Addressing the National Coalition for Homeless Veterans National 
Conference, Secretary Shinseki said, ``We have a moral duty to prevent 
and eliminate homelessness among Veterans.'' I could not agree more and 
I applaud the Secretary for his commitment to end Veterans homelessness 
in the next 5 years.
    In order to meet this goal, I strongly believe that the VA must 
immediately begin conducting media outreach to connect homeless 
Veterans to available programs, services and benefits.
    That is why I introduced the Help our Homeless Veterans Act. This 
bill will mandate that the Secretary dedicate funding to establish a 
national media outreach campaign on homelessness. This campaign will be 
designed to educate Veterans about where they can turn if they are 
homeless or at risk of becoming homeless.
    Mr. Chairman, since the VA's internal ban on paid public 
advertising has been lifted, the VA has carried out one media campaign 
about the availability of an emotional crisis hotline, which I 
understand has been remarkably successful in preventing suicide among 
Veterans. Thus, I believe that using the media to educate Veterans 
about available services has proven to be effective, and I believe we 
can use it as a tool to reach those who are at risk of becoming 
homeless, as well as those who have already found themselves on the 
streets.
    Ultimately, it is my hope that with increased awareness and 
information about VA homelessness prevention and homeless services 
among Veterans themselves, advocacy groups, families and the public, we 
can prevent Veterans from becoming homeless, and inform those who are 
homeless about services available to them.
    We owe a tremendous debt to those who have served our country in 
uniform, and it is time that we show these heroes the appropriate 
respect. With the enactment of the Help Our Homeless Veterans Act, I 
believe that we can make a strident effort in ending homelessness among 
our Veterans.
    Mr. Chairman and Ranking Member, I thank you again for this 
opportunity to testify and will be happy to answer any questions that 
you may have.

                                 <F-dash>
         Prepared Statement of Hon. Stephanie Herseth Sandlin,
      a Representative in Congress from the State of South Dakota
    Good morning, Chairman Michaud and Ranking Member Brown. Thank you 
for holding today's hearing. I appreciate having the opportunity to be 
here to discuss the ``Veterans Physical Therapy Services Improvement 
Act.''
    At the outset, I'd also like to thank the American Physical Therapy 
Association for their continued leadership on this issue and their 
support for this important legislation. And, I'd also like to thank the 
Iraq and Afghanistan Veterans Association for their endorsement of this 
bill.
    The ``Veterans Physical Therapy Services Improvement Act,'' which I 
introduced on February 12, 2009, along with the original cosponsor 
support of Health Subcommittee Chairman Michaud, and full Veterans' 
Affairs Committee Chairman Filner, will take important steps to expand 
and improve Department of Veterans' Affairs health care services by 
improving the ability of veterans to access physical therapy services 
throughout the VA.
    As your Subcommittee knows, the VA is presented today with a unique 
and challenging patient population. There are large numbers of aging 
veterans as well as men and women returning from Iraq and Afghanistan 
with complex impairments. Both of these groups require a full range of 
physical therapy services that can keep pace with modern advancements 
and techniques in the field.
    I would like to share just a few statistics with you that highlight 
the need for enhancing physical therapy services and administration at 
the VA.
    Currently, over 1,000 physical therapists are employed by the 
Veterans Health Administration providing care to our Nation's veterans. 
These physical therapists practice across the continuum of care from 
primary care settings and wellness programs to disease prevention and 
post-trauma rehabilitation, and play critical roles in a veteran's care 
team.
    Approximately 9.2 million veterans are age 65 or older (38 percent 
of veterans) and, by 2033, older veterans will represent 45 percent of 
the total veterans population. For these older veterans, physical 
therapists are integral in fall prevention and type 2 diabetes 
prevention strategies.
    Over 33,000 servicemembers have been wounded in Operations Enduring 
Freedom and Iraqi Freedom. Many of these brave veterans have multiple 
serious injuries such as amputations and traumatic brain injury (TBI) 
that require complex rehabilitation provided by physical therapists.
    Competition is high for physical therapy graduates. The Department 
of Labor (DOL) recognizes two health care occupations--nurses and 
physical therapists--that are experiencing a significant shortage under 
its labor shortage determination authority. The DOL also projects an 
increasing need for physical therapists and physical therapist job 
growth of more than 25 percent over the next decade.
    Given the shortage of physical therapists and the increased demand 
for these services, it is clear that the VA needs to be competitive in 
the current marketplace to recruit and retain an adequate number of 
physical therapists to provide services for our Nation's brave 
veterans.
    This legislation works to solve this challenge through a number of 
initiatives.
    First, the legislation creates the position of Director of Physical 
Therapy Services at the Veterans Health Administration. This position 
would report directly to the Undersecretary for Health. Currently, 
physical therapists at the VA do not have a seat at the Director-level 
table. Having a voice at this level will help ensure that, as the 
profession of physical therapy advances, the VA keeps its requirements 
up to date with regard to educational requirements, qualifications, 
clinical privileges and scope of practice.
    The legislation also creates the Department of Veterans Affairs 
Geriatric, Amputee, Polytrauma and Rehabilitation Research Fellowships 
Program to assist in the recruitment and retention of qualified 
physical therapists. With strong competition in the marketplace for the 
services of experienced and qualified physical therapists, the VA needs 
to be aggressive in recruiting and retaining physical therapists. This 
fellowship will allow the VA to be more competitive in recruiting and 
retaining physical therapists that specialize in crucial areas of need 
such as amputee rehabilitation and polytrauma care.
    This legislation also includes requirements that the VA update its 
degree and license requirements for the appointment of individuals to 
the physical therapist position. I'm pleased that the VA already has 
taken some steps to improve its physical therapy policies. The VA has 
recently approved new regulations that allow VA facilities to use 
special salary rates, recruitment bonuses, retention allowances and 
other pay flexibilities to enhance recruitment and retention of 
physical therapists based on the local labor market. My legislation 
would help codify these standards.
    In closing, Mr. Chairman, this legislation will help ensure 
veterans have access to the full range of physical therapy services 
they need and deserve.
    Thank you again, Mr. Chairman, for inviting me to testify. I look 
forward to answering any questions the Committee may have.

                                 <F-dash>
             Prepared Statement of Hon. Michael A. Arcuri,
        a Representative in Congress from the State of New York
    Good morning Chairman Michaud, Ranking Member Brown, and all 
Members of the VA Subcommittee on Health. I first wish to thank you for 
scheduling this legislative hearing today and inviting me to speak on 
my bill, H.R. 3441. This legislation would automatically enroll 
veterans who are already eligible for free VA health care into the VA 
system, while providing a chance to opt-out of the system both at the 
time of separation from the Armed Services and 6 months following.
    My bill references the statutes passed in FY08 National Defense 
Authorization Act. As you know, this law extends the eligibility period 
for free VA medical care from 2 to 5 years for veterans who served in a 
combat theater of operations after November 11, 1998. It applies to 
active duty, National Guard, and Reserve servicemembers returning from 
Operation Enduring Freedom and Operation Iraqi Freedom (or OEF/OIF) for 
conditions that may be related to their combat service. Following this 
initial 5-year period, these veterans may continue their enrollment in 
the VA health care system, but they may be subject to applicable 
copayments for nonservice-connected conditions.
    My legislation takes this same group eligible for free health care 
under the FY08 Act and instructs the Department of Defense, in 
conjunction with the VA, to automatically enroll these veterans in VA 
health care, should these veterans so choose. This bill does not create 
new classes of veterans eligible for free VA health care, but simply 
changes the process by which these veterans would become part of the 
system upon separation from the DoD.
    Importantly, this bill includes an opt-out provision at the time of 
separation and again at 6 months after separation to preserve the 
veteran's right to choose his or her own health care.
    My bill would also issue a standard VA veterans' identification 
card to an auto-enrolled veteran, and provide a listing of VA medical 
facilities within 100 miles of the veteran. It would also require the 
VA to attach a description of Federal veterans benefits and programs, 
such as educational benefits, job training, and placement programs, for 
which the veteran may be eligible.
    The reason we are proposing this legislation is to make sure that 
acceptance into the VA is as simple and effortless as possible for the 
tens of thousands who will likely seek access in the coming months. 
Most of us here recognize the VA's efforts to track down veterans weeks 
and even months after their return. Yet unfortunately, we still have a 
system that doesn't sufficiently reach all soldiers. It also places 
responsibility fully on a soldier who has just returned from war and 
must step back into his or her ``normal'' life. Dealing with this 
single experience is difficult enough. We shouldn't place another 
burden on our veterans by requiring them to actively pursue the care 
they may want or need.
    The opportunity to improve our present VA enrollment system is 
reflected by the sheer demand of returning servicemembers who are 
accessing the system at record rates. The VHA Office of Public Health 
reported this January that between FY02 and the last quarter of FY08, 
42% of the roughly 950,000 separated OEF/OIF veterans have sought VA 
health care. The report also predicts that the percentage of OEF/OIF 
veterans receiving health care from the VA--as well as the percentage 
given any type of diagnosis--will tend to increase over time as these 
veterans continue to enroll in VA health care and develop new health 
problems.
    In its April 2009 report, the VA Office of Policy and Planning 
further broke down the exceptional VA usage patterns of OEF/OIF 
veterans. An overwhelming 53% of these veterans used VA health care in 
FY08. Additionally, when compared to all other veterans, OEF/OIF 
veterans also more frequently turned to the VA to access multiple 
programs. 44%--or roughly 221,000 returning servicemembers--sought some 
combination of education, pension, insurance, health, or loan guaranty 
services from the VA.
    Clearly, the demand for VA care will only continue to grow in the 
coming years. Unfortunately, these higher enrollment numbers also 
indicate a trend toward more cases of joint and back disorders, mental 
disorders, and what the VA characterizes as ``Symptoms, Signs, and Ill-
Defined Conditions.'' These three categories are what the VA has 
determined the most common health problems of war veterans, and 
represent our collective responsibility to improve our delivery of 
good, efficient care to all those who risked everything for this 
country.
    While these figures represent the specific experiences of OEF/OIF 
veterans, I believe that we must re-evaluate entry into the VA for all 
returning servicemembers.
    Let me first say that I acknowledge the outreach efforts that the 
VA has performed during this time. An extensive outreach effort has 
been developed to inform veterans of their benefits, including the 
mailing of a personal letter from the VA Secretary to war veterans 
identified by DoD when they separate from active duty and become 
eligible for VA benefits. These efforts have undoubtedly contributed to 
higher VA enrollment rates.
    Yet while the VA attempts to reach out to returning soldiers and 
educate them about available resources, it is still presently incumbent 
upon the veteran to initiate and complete the application and 
registration process with the VA. In many cases, a soldier's primary 
focus during his or her last few weeks of deployment is simply getting 
back home - not spending more time away from loved ones by studying the 
VA application process, filling out paperwork, or undergoing 
evaluation. These servicemembers often forego necessary screening or 
care, leading to critical situations weeks or months later when 
symptoms begin to manifest or intensify. Frankly, despite all of our 
efforts, some are still falling through the cracks.
    I commend the VA for its committed efforts to reach each veteran. 
However, I see a chance to change the system so that veteran care no 
longer centrally involves tracking down those we've missed, and no 
longer leaves many veterans finding themselves months or even years 
later without proper treatment options and unaware of how to navigate 
the VA system.
    By implementing auto-enrollment and accepting returning soldiers at 
the outset, this bill would allow the VA to shift time and resources 
away from tracking and follow-up and instead focus on delivering health 
care right away. The bill would also inform every servicemember of the 
many VA resources available to him or her as an enrolled veteran with 
the resource card. This legislation is critical toward realizing the 
``seamless transition,'' a common goal of the administration's, various 
veterans' service organizations, and veterans themselves for years.
    Thank you again for holding this hearing on my legislation to 
provide auto-enrollment for veterans returning from combat zones. This 
bill is endorsed by American Legion and the Iraq and Afghanistan 
Veterans of America. I look forward to working together to honor and 
protect our veterans, and I would be happy to answer any questions you 
may have on this bill.

                                 <F-dash>
            Prepared Statement of Hon. Bob Filner Chairman,
 Committee on Veterans' Affairs, and a Representative in Congress from 
                        the State of California
    Musculoskeletal conditions are the number one reason that returning 
veterans from OEF/OIF seek care at the Department of Veterans' Affairs.
    However, the current statute is such that each Veteran Integrated 
Service Network director is only responsible for ensuring that a 
minimum of one VA medical center provides on-station chiropractic care. 
We all know that an individual VISN often encompasses multiple states 
and so, it is fair to say that on-site chiropractic care is not readily 
accessible for our veterans.
    This is why I introduced H.R. 1470 and H.R. 1471 in the last 
Congress. These bills would have expanded on-site chiropractic care and 
services to veterans at VA medical centers.
    In addition, it would have included chiropractic services and 
counseling, as well as periodic and preventive chiropractic exams and 
services among the medical, rehabilitative, and preventive health 
services available for veterans.
    H.R. 1470 passed the House on May 23, 2007, but H.R. 1471 did not 
see further action after it was referred to the Subcommittee on Health.
    In this Congress, I introduced H.R. 1017, the Chiropractic Care 
Available to All Veterans Act. This act merges the provisions in H.R. 
1470 and H.R. 1471 from the last Congress.
    H.R. 1017 simply updates the time frame for expansion of on-site 
chiropractic care to all VA medical centers. H.R. 1017 also removes a 
provision from H.R. 1471 of the 110th Congress, which would have 
established chiropractic practitioners on the same level as VA medical 
doctors in the direct provision of primary care services. This decision 
was based on the helpful feedback I received from our VSO community and 
the American Chiropractic Association.
    I hope that you will support H.R. 1017 so that we can better 
provide chiropractic care to our veterans.

                                 <F-dash>
             Prepared Statement of Hon. Ciro D. Rodriguez,
          a Representative in Congress from the State of Texas
    Thank you Mr. Chairman for allowing me to speak today on my bill, 
H.R. 2735, which will improve our Homeless Veteran Grant and Per Diem 
program.
    The purpose of the Grant and Per Diem program is to encourage 
community agencies to develop and provide supportive housing and/or 
supportive services to homeless veterans.
    The program is administered by the Veterans Administration Health 
Care for Homeless Veterans Program which funds community agencies to 
provide transitional housing, health services, personal counseling, and 
other supportive services to homeless veterans.
    Eligible grantees are those who operate programs with supportive 
housing for up to 24 months, or veteran service centers offering 
services such as case management, education, crisis intervention, 
counseling, and services targeted toward specialized populations 
including homeless women veterans.
    This bill would improve the Grant and Per Diem program in the 
following ways:

    <bullet>  First, it would create a separate grant fund for grantee 
service center personnel. The per-diem component of the Grant and Per 
Diem program funds operational costs, including the salaries of service 
center personnel who provide supportive services to homeless veterans. 
However, the current per-diem amount, which is $34.40 for organizations 
with service centers and supportive housing, is not sufficient to fund 
an adequate number of staff. A separate grant fund for personnel would 
end the competition between staff salaries versus supportive services.
    <bullet>  Second, it would change the rate of payment from a per 
diem daily cost of care to an annual cost of furnishing services. This 
would allow grantees to draw down funds in anticipation of allowable 
and contractual expenses. It would also address the cash shortfall 
problem faced by grantees where the organization must incur debt and 
then apply for reimbursements from the VA which often makes delayed 
payments. This would allow for proper business planning and forecasting 
in order to provide the best and most cost-effective services possible 
to our homeless veterans.
    <bullet>  Next, this bill would allow the VA to increase the rate 
of payment to reflect anticipated changes in the cost of providing 
services, which take into account geographic differences. Because the 
per-diem rate is far less than the actual daily cost of care for 
homeless veterans, organizations in high cost service areas typically 
decide not to apply for Grant and Per Diem program funding. Allowing 
the VA to increase the payment rate to account for the changes in 
service costs and geographic differences makes this program more 
attractive for potential grantees.
    <bullet>  Finally, it would allow providers to use Per Diem funds 
to match other Federal funding sources. Under current law providers are 
unable to use Per Diem funds to match other Federal funding sources. 
The current system penalizes Grant and Per Diem program providers that 
are successful in securing other sources of income for services to 
homeless veterans by reducing their per diem payment rate. 
Consequently, providers are discouraged from developing partnerships 
with other Federal, state, local and non-profit agencies and other 
private funding sources. The proposed fix would encourage leveraging of 
VA funds to secure additional financial resources from other entities. 
This would maximize the potential benefits and resources available to 
these providers and increase the ability of the provider to provide 
high quality care to more homeless veterans.
    I'm proud to say that this bill is endorsed by the National 
Coalition for Homeless Veterans and the Veterans of Foreign Wars. I 
certainly appreciate their endorsement.
    Mr. Chairman, fellow Members of the Health Subcommittee--this is 
the right thing to do. Many homeless veterans have benefited from the 
Grant and Per Diem program through veteran support organizations, but 
it is still a cumbersome system that needs these improvements. We must 
make it less difficult for these organizations to lend a hand.
    I appreciate your consideration of this bill and ask for your 
support as we try to help our homeless veterans.
    Thank you.

                                 <F-dash>
                 Prepared Statement of Hon. Glenn Nye,
        a Representative in Congress from the State of Virginia
    I am honored to testify in support of my legislation, H.R. 3073, 
which I have had the privilege of working on during my first term in 
Congress.
    I am especially grateful to Chairman Michaud, the Members of this 
Committee, the veterans' service organizations, and veterans themselves 
for their hard work and support in helping me bring this critical 
legislation to the forefront.
    Just this past August the Bureau of Labor Statistics released 
unemployment data showing a dramatic increase in the number of 
unemployed veterans of OIF and OEF. In fact, the number is at an all 
time high of 185,000 unemployed, or 11.3 percent. To put this into 
perspective, there are only 9,000 more servicemembers currently serving 
in both Iraq and Afghanistan then there are unemployed Iraq and 
Afghanistan veterans in the United States.
    This recession is impacting every corner of this nation, yet 
nowhere is it more demoralizing than in our veteran population. The men 
and women who have served their country in uniform sacrificed life and 
limb to protect the freedoms we enjoy, yet when they return, some 
veterans are just a paycheck or two away from losing their homes.
    This is why I have introduced H.R. 3073, a common sense measure 
that will provide temporary financial support to veterans who are 
unable to make rental or mortgage payments, and are in imminent danger 
of eviction or foreclosure. Instead of waiting for them to lose their 
homes before giving them a hand up, I want to prevent veterans from 
becoming homeless in the first place and keep them on their feet.
    The bill authorizes a new program in the Department of Veterans 
Affairs that will provide short-term assistance to veterans in danger 
of losing their homes. Veterans who demonstrate that they are on the 
verge of losing their homes because they are unable to make mortgage or 
rental payments, will be eligible to apply for support. Payments will 
be made on behalf of the veteran to the landlord, mortgage company, or 
utility company for up to 3 months. Veterans will also be provided with 
support services to prevent future homelessness, including job 
training, mental health, and substance abuse treatment.
    We can never fully repay a veteran for the sacrifices they made for 
this country, but the least we can do is provide them a sense of 
stability when they are having troubles searching for a job. This 
bipartisan bill will help bridge the gap for veterans who are 
struggling and give them the chance to get back on their feet.
    Again, I thank the Chairman for allowing me to testify on behalf of 
this critical legislation, and I am confident that we can take this 
positive step forward to help our veterans in need. I urge my 
colleagues to support this legislation.

                                 <F-dash>
                Prepared Statement of Hon. Harry Teague,
       a Representative in Congress from the State of New Mexico
    Mister Chairman and Ranking Member and fellow Subcommittee Members. 
I would like to take this opportunity and use my opening statement to 
speak on behalf of two bills that are before the Committee today, H.R. 
2504 and H.R. 2506.
    H.R. 2504 addresses one of our greatest national travesties.
    On any given night in our beloved country, there are roughly 70, 
000 to 130,000 veterans that are homeless. They have no shelter from 
the elements; they sleep on the streets of the very cities that they 
fought to defend. After they have served our country faithfully, they 
are mostly forgotten and left behind.
    The fact that this is allowed to happen is shameful.
    Luckily, these veterans are not completely abandoned. The 
Department of Veterans Affairs and numerous state, local and non-
governmental entities have stepped-up to the plate and created numerous 
programs to combat the problem of homeless veterans across the country.
    These groups conduct operations that are aimed not only at getting 
veterans off the streets and into a shelter, but at finding ways to 
help veterans find employment, secure their own housing and stay in 
that housing. Veterans transitional facilities do more than offer a 
short-term solution to a homeless veteran; they hold true to the old 
proverb: ``Give a man a fish and you feed him for a day. Teach a man to 
fish and you feed him for a lifetime.''
    My bill, H.R. 2504, amends section 2013 of title 38 and increases 
the funding for these programs by $50 million dollars in the next 
fiscal year. It only makes sense that the programs that do the most 
good to give our veterans a home should receive more resources so that 
we can work toward what should be our goal: eradicating homelessness 
among our veterans.
    I am honored to say that this bill is also supported by the 
National Coalition for Homeless Veterans.
    I believe that is a noble effort, and I hope that my colleagues in 
the Subcommittee and the Congress agree and I hope that they will 
support this legislation.
    The second bill that I have before the Committee is H.R. 2506, the 
``Veterans Hearing and Assessment Act.'' This bill address an new 
health factor that is facing our troops--tinnitus.
    Until recently, tinnitus--better known as `ringing in the ears'--
was little understood and even less addressed by the medical community. 
People suffering with tinnitus were often thought to have anxiety 
disorders, or, in some cases, to be delusional.
    Fortunately, those misperceptions have changed, and tinnitus is now 
recognized as a serious clinical syndrome that impacts 12 million 
individuals on a chronic basis, 2 million of who are virtually 
incapacitated by the disorder. Tinnitus is generally becoming more 
common among our Nation's soldiers and veterans, particularly those who 
have been exposed to blast injuries in Iraq and Afghanistan.
    In addition to the personal impact of tinnitus on our veterans' 
lives and well-being, the cost of tinnitus and its continuing rise in 
incidence is extremely alarming. Since 2001, service-connected 
disability payments for tinnitus has increased by 18 percent per year, 
and tinnitus is currently ranked by the Department of Veterans Affairs 
(VA) as the #1 service connected disability for returning soldiers. If 
current trends continue, tinnitus compensation for veterans will exceed 
$1 billion by the year 2011.
    My bill, H.R. 2506, takes some important, common sense steps to 
address this problem. It requires that each member of the Armed Forces 
receives a hearing evaluation that includes screening for tinnitus 
before and after deployment. Why is this important?
    Certain forms of sensory impairment are clearly visible to casual 
observation. However, hearing impairment, including tinnitus, may often 
go undetected or be misdiagnosed. Yet, along with vision, a soldier 
relies most on his or her hearing in order to remain safe when in a 
combat situation.
    Impaired hearing, including tinnitus, impacts a soldier's ability 
to respond appropriately in combat situations, jeopardizing not only 
the soldier's life but those around him or her, and compromising the 
safety of the mission itself. We need to ensure that pre--and post--
deployment screening includes an assessment of tinnitus, to help ensure 
a soldier's safety while in the field and to assess the extent to which 
a soldier may have tinnitus as a result of their exposure to blast or 
other high noise levels.
    Mr. Chairman, my legislation also would ensure that tinnitus will 
be recognized as a mandatory condition for research and treatment by 
the Department of Veterans Affairs Auditory Research Centers of 
Excellence. Recent studies strongly suggest a direct link between 
tinnitus and both Post Traumatic Stress Disorder (PTSD) and Traumatic 
Brain Injury (TBI). For this reason, improved understanding of the 
neurological mechanisms that trigger tinnitus and research into its 
treatment may also directly advance other ongoing research efforts to 
address the equally serious challenges of PTSD and TBI treatment.
    We now know that tinnitus is a condition of the auditory system, 
not a `disease' of the ear. Existing therapies may help mitigate the 
effects of tinnitus for some patients, but the extent of relief 
afforded to patients with tinnitus varies greatly. In short, they do 
not work for all individuals, and they do not cure tinnitus.
    Scientific research into tinnitus has made some dramatic advances 
over the last decade, but we still have a long way to go to improve 
prevention and treatment for tinnitus, in order to help the millions of 
American veterans who experience tinnitus as a chronic, ongoing 
condition and hopefully, to find a cure for this debilitating 
condition. I thank the Committee for its time and consideration.
    I would like to take this time to thank the staff Members of the 
Health Subcommittee who lent their expertise during the drafting of 
these bills, and I thank Chairman Michaud and Ranking Member Brown for 
the opportunity to advance this two important pieces of legislation. 
This concludes my testimony.

                                 <F-dash>
        Prepared Statement of Joseph L. Wilson, Deputy Director,
    Veterans Affairs and Rehabilitation Commission, American Legion
    Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity for The American Legion to present 
its views on the broad list of veterans' legislation being considered 
by this Committee. The American Legion commends this Committee for 
holding a hearing to discuss these very important and timely issues.
       H.R. 1017, Chiropractic Care Available to All Veterans Act
    The purpose of this bill is to direct the Secretary of Veterans 
Affairs to require the provision of chiropractic care and services to 
veterans at all Department of Veterans Affairs (VA) Medical Centers and 
to expand access to such care and services.
    The American Legion supports this bill as it is an enhancement of 
an existing benefit provided to veterans.
 H.R. 1036, Veterans Physical Therapy Services Improvement Act of 2009
    The purpose of this bill is to establish a Director of Physical 
Therapy Services within VA to ensure these programs have effective 
oversight and management.
    Previously, The American Legion expressed a position supporting the 
establishment of a Director of Physician Assistant within VA to ensure 
efficient utilization of the programs and initiatives relating to this 
field.
    The American Legion continues to support the intent of this bill.
    H.R. 2504, Increase in Amount Authorized to be Appropriated for 
          Comprehensive Service Programs for Homeless Veterans
    Community Homelessness Assessment, Local Education and Networking 
Groups (CHALENG) sites continue to report increases in the number of 
homeless veterans with families (i.e. dependent children) being served 
by their programs. CHALENG reports that 118 sites (85 percent of all 
sites) have seen a total of 1,282 homeless veteran families. This was a 
24-percent increase over last year's 1,038 homeless veteran families. 
Homeless veteran service providers recognize that they will have to 
accommodate the needs of the changing homeless veteran population, 
which include the increasing numbers of women veterans and veterans 
with dependents. This bill would increase the funding going to homeless 
veterans programs that are desperately needed. These programs will 
assist the homeless veteran community with their rehabilitation, 
recovery, health, and community integration.
    The American Legion fully supports this bill.
               H.R. 2559, Help Our Homeless Veterans Act
    This bill would direct the Secretary of Veteran Affairs to carry 
out a national media campaign directed at homeless veterans and 
veterans at risk of becoming homeless.
    This bill would provide outreach to our homeless veterans and those 
who are at high risk of becoming homeless. This bill would also place a 
special emphasis on a special subgroup of veterans: women veterans. The 
number of homeless women veterans has doubled in the past decade, up 
from 3 percent to 5 percent according to the VA. This increase of women 
veterans is due to their exposure to combat related situations. With 
the continuance of the wars in Iraq and Afghanistan, it is widely known 
that psychological illnesses, such as Post Traumatic Stress Disorder 
(PTSD), Traumatic Brain Injury (TBI) and other mental illnesses play a 
significant role in pushing a certain population of veterans into 
homelessness. With the enactment of H.R. 2559, these veterans will be 
targeted and given the proper information that will help them either 
avoid homelessness or assist them in readjusting from chronic 
homelessness.
    The American Legion supports this bill.
H.R. 2735, Availability of Grant Funds to Service Centers for Personnel
    This bill seeks to provide a Service Center for homeless veterans 
that could be used to provide funding for staffing in order to meet the 
service availability. This Service Center is essential in providing 
outreach to the community and will play an integral part in serving the 
many needs of homeless veterans. This bill seeks to amend section 2012 
of title 38, United States Code (U.S.C.) by allowing a Grant and Per 
Diem award to be considered as matching funds for other grants for 
which organizations that provide assistance to homeless veterans, may 
be eligible for. This award will match, in combination with other 
payments for which they are eligible. Last, this bill will provide the 
maximum amount of financing to organizations that are on the frontlines 
of assisting our most vulnerable veterans.
    The American Legion supports this important piece of legislation.
 H.R. 3073, Grant Program to Provide Assistance to Veterans at Risk of 
                           Becoming Homeless
    This bill seeks to establish a grant program to provide assistance 
to veterans who are at risk of becoming homeless. This grant program 
would fill a tremendous need for veterans who are looking for 
assistance before their situations worsen. Approximately 3,000 homeless 
veterans from Iraq and Afghanistan have been treated at VA Medical 
Centers. This bill could help veterans and their families to avoid the 
extraordinary stresses and damages that occur when they become 
homeless. It could take several years for a veteran to get back on his/
her feet and properly reintegrate back into the community. However, 
this legislation could assist veterans with funds to fill a temporary 
financial need. With VA and other homeless care service providers 
continuing to focus on the various needs (i.e., health issues, economic 
issues, lack of safe, affordable housing, and lack of family and social 
support networks) of homeless veterans, and the enactment of this 
legislation, The American Legion believes that homelessness rates will 
continue to drop among the veteran community. It is vital that homeless 
veterans receive the care and treatment they so deserve.
    The American Legion fully supports this bill.
H.R. 3441, Automatic Enrollment of Veterans Returning from Combat Zones 
                       into the VA Medical System
    The purpose of this bill is to amend title 38, U.S.C., relating to 
the automatic enrollment of honorably discharged combat veterans. This 
bill proposes to do so by enrolling veterans automatically with the VA 
and providing them with an ID card and full access to the VA medical 
facilities within their respective geographical areas.
    The American Legion recently passed Resolution No. 29, 
``Improvements to Implement a Seamless Transition,'' which recognized 
the gaps in services and has consistently advocated improvements be 
made to the transition process. H.R. 3441 will assist in assuring 
veterans are provided with the immediate use of VA facilities, creating 
a seamless transition from Department of Defense (DoD) to the VA 
system. The American Legion has noted servicemembers and their families 
are easily overwhelmed when dealing with the bureaucracy of multiple 
departments, but with the passage of H.R. 3441, servicemembers and 
veterans will be provided with timely, accessible care within VA.
    H.R. 3441 also provides the servicemember an option to not seek VA 
enrollment at the time of discharge and The American Legion is 
concerned that servicemembers may reject enrollment and perhaps slip 
through the cracks during and after their transition from DoD to the VA 
system.
    The American Legion fully supports H.R. 3441 and its efforts to 
improve coordination between DoD and VA during the seamless transition 
process of wounded servicemembers and veterans.

            Draft Discussions on Homelessness Among Veterans

    This bill seeks to amend title 38, U.S.C., to improve per diem 
grants payments for organizations assisting homeless veterans.
    This bill would increase the current rate of $33 per bed to $60 per 
bed to assist in the care and treatment of homeless veterans. The 
homeless veteran needs counseling, health care, job training, and 
affordable housing in order to properly reintegrate into the community. 
This increase in funding will allow the homeless care providers to 
better serve these homeless so they can become physically, emotionally, 
and financially capable of sustaining themselves.
    The American Legion supports this bill.
Draft Discussions on Graduate Psychology Education Transfer of Funds to 
    Secretary of Health and Human Services for Graduate Psychology 
                           Education Program
    The purpose of this bill is to transfer $5 million from accounts of 
the Veterans Health Administration (VHA) to the Secretary of the 
Department of Health and Human Services for graduate psychology 
education program. This bill supports the training of psychologists in 
the treatment of veterans with PTSD, TBI and other combat-related 
disorders and gives preference to VA health care facilities and 
graduate programs affiliated with the VA.
    The American Legion approved Resolution No. 150, ``The American 
Legion Policy on Department of Veterans Affairs Mental Health 
Services,'' which urges Congress to annually appropriate sufficient 
funds to VA to ensure comprehensive mental health services are 
available to veterans. The American Legion believes funding must be 
appropriated to treat the invisible wounds of war.
    The American Legion has supported VA's strong commitment to Medical 
and Nursing School Affiliations to recruit and retain high quality 
medical specialists. However, we do not have an official position on an 
affinity relationship between the training of VA psychologists through 
the Department of Health and Human Services.
                       GPD Surplus Fix Draft Bill
    This draft bill would amend title 38, U.S.C., to direct the 
Secretary of Veteran Affairs to eliminate the required reduction in the 
amount of per diem payments provided to entities furnishing services to 
homeless veterans to account for other sources of income.
    This bill would allow homeless care providers who may end up with 
some surplus at the end of the fiscal year, due to receiving other 
sources of income, the authorization to keep this surplus. This would 
allow these homeless care providers to use these leftover moneys for 
continued services for their homeless veteran population in the 
upcoming fiscal year.
    The American Legion supports this bill.
                          HUD-VASH Draft Bill
    This draft bill seeks to reform and expand the Veteran Affairs 
Supportive Housing Program carried out by the Department of Housing and 
Urban Development and the Department of Veteran Affairs.
    Homeless veteran service providers recognized that they will have 
to accommodate the needs of the changing homeless veteran population, 
including increasing numbers of women and veterans with dependents. 
Access to family housing through the distribution of the thousands of 
new section eight vouchers that have been made available through the 
Housing and Urban Development--Veterans Affairs Supported Housing (HUD-
VASH) program, which offers an important new resource allowing VA staff 
to assist the veteran and their family. HUD-VASH program was 
established in 1992, where HUD and housing and VA provided case 
management to homeless veterans. VA's services are designed to improve 
the veteran's physical and mental health, and enhance the veteran's 
ability to live in safe and affordable permanent housing in the 
community of his/her choosing. Less than 1,000 units were available in 
2006. Public Law 110-161, enacted December 26, 2007, provided funding 
for 10,000 new vouchers for homeless veterans and their families. In 
March 2009, Congress funded an additional 10,000 vouchers. This 
legislation would help ensure that more homeless veterans receive 
permanent housing through the supportive housing program and provide 
more training for HUD and VA personnel to improve the effectiveness of 
the program. In addition, this bill instructs VA to outreach to 
landlords to encourage and facilitate participation in this program. 
With the reform and expansion of HUD-VASH, homeless veterans will be 
able to continue on their path to health, fulfillment and reintegration 
back into mainstream society.
    The American Legion fully supports this legislation.
    Thank you again, Mr. Chairman for allowing The American Legion this 
opportunity to present its views on the aforementioned issues. We look 
forward to working with the Committee to help increase and improve 
access to quality care for our Nation's veterans.

                                 <F-dash>
                  Prepared Statement of Justin Brown,
          Legislative Associate, National Legislative Service,
             Veterans of Foreign Wars of the United States
    Mr. Chairman and Members of this Subcommittee:
    On behalf of the 2.2 million members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, I would like to thank 
this Committee for the opportunity to testify. The issues under 
consideration today are of great importance to our members and the 
entire veteran population.
    As we speak, more than 131,000 homeless veterans are walking the 
streets of the country they fought so bravely to defend. A great number 
of these men and women are likely walking these streets due to 
injuries, physical or mental, resulting from their service to their 
country.
    There is no one causative factor for homelessness but there are 
many aggravators. Substance abuse, lack of familial ties, physical and 
mental health issues, lack of access to affordable housing, lack of 
employment and other issues can all eventually lead a person to being 
either temporarily or chronically homeless. We must consider these 
factors and be proactive in consideration of homeless policy now and 
into the future.
    The most recent monthly survey from the Bureau of Labor Statistics 
highlighted the dire situation facing America's newest veterans. There 
are only 9,000 fewer unemployed post-9/11 servicemembers in the United 
States than there are servicemembers in Iraq and Afghanistan (185,000 
unemployed compared to 194,000 in OEF & OIF). Unemployment combined 
with high rates of mental health and physical injuries due to multiple 
deployments is a recipe for disaster. If we are not proactive in our 
approach to solving homelessness, all of the aggravating factors will 
combine to leave many thousands of my era of veteran homeless. We must 
act immediately to alleviate the problem before it explodes.
    President Obama addressed us at our national Convention last month. 
He stated ``I've directed Secretary Shinseki to focus on a top 
priority--reducing homelessness among veterans. After serving their 
country, no veteran should be sleeping on the streets. No veteran. We 
should have zero tolerance for that.''
    We have full faith that this administration, and this Congress, 
will fully address this issue, today and not tomorrow, by eradicating 
homelessness for America's heroes of past, current, and future wars--
forever.
    H.R. 1017, to amend the Department of Veterans Affairs Health Care 
Programs Enhancement Act of 2001 and Title 38, United States Code, to 
require the provision of chiropractic care and services to veterans at 
all Department of Veterans Affairs medical centers and to expand access 
to such care and services.
    The VFW supports this legislation that would provide veterans with 
direct access to chiropractic health care. Currently, chiropractic care 
is rarely, if ever, offered to veterans with injuries that would likely 
receive such referrals from private medical facilities. In many 
instances, veterans are paying for chiropractic care from service-
related injuries out of their own pocket.
    This important legislation would require 75 VA medical centers to 
provide such services no later than December 31, 2010, and at all VA 
medical centers by no later than December 31, 2012. We believe this 
legislation to be of great importance in consideration of the various 
injuries veterans have received and the known benefits for chiropractic 
care.
    H.R. 1036, to amend title 38, United States Code, to establish the 
position of Director of Physical Therapy Service within the Veterans 
Health Administration and to establish a fellowship program for 
physical therapists in the areas of geriatrics, amputee rehabilitation, 
polytrauma care, and rehabilitation research.
    The VFW strongly supports H.R. 1036. This important legislation 
would create a Director of Physical Therapy Service within the VHA. 
Also, of great importance, this legislation would create a fellowship 
program for physical therapists in the areas of geriatrics, amputee 
rehabilitation, polytrauma, and rehabilitation research. Increasing the 
physical therapy programs at the VA will enhance the health care for 
all generations of injured veterans. Injured servicemembers returning 
from Iraq and Afghanistan often rely on the special and unique services 
provided by physical therapists to rehabilitate from minor or 
catastrophic injuries. Physical therapists also help the aging 
population of veterans with new or enhanced disabilities that result 
with age. Therefore, the VFW sees the value in the VA enhancing these 
services to better serve their customers.
    H.R. 2504, to amend title 38, United States Code, to provide for an 
increase in the annual amount authorized to be appropriated to the 
Secretary of Veterans Affairs to carry out comprehensive service 
programs for homeless veterans.
    The VFW is in strong support of H.R. 2504. This important 
legislation would increase VA funding to carry out crucial service 
programs for homeless veterans. H.R. 2504 would expand funding to 
services such as case management, education opportunities, crisis 
intervention, counseling, job training, etc. This important bill would 
assist our homeless veterans in returning to the job force and would 
restore order and hope to their lives.
    H.R. 2559, to direct the Secretary of Veterans Affairs to carry out 
a national media campaign directed at homeless veterans and veterans at 
risk for becoming homeless.
    The VFW strongly supports H.R. 2559. This important proactive 
legislation would work to advise homeless veterans, and veterans at 
risk of homelessness, of available benefits and services. The VFW 
believes that no veteran should be homeless in the streets of the 
country they fought so valiantly for. However, in too many instances 
veterans are unaware of benefits and services available to them. This 
legislation would create an outreach campaign aimed at addressing these 
very veterans.
    H.R. 2735, to amend title 38, United States Code, to make certain 
improvements to the comprehensive service programs for homeless 
veterans.
    The VFW strongly supports H.R. 2735. This important legislation 
would change the Grant and Per Diem Program from a daily care cost 
payment system to one based on the annual cost of the services provided 
to homeless veterans. These annual costs would be distributed by the VA 
Secretary based on predicted changes in the cost of care and the cost 
of care by geographic regions. When distributing this funding, the VA 
Secretary would also take into account other sources of income to these 
centers such as payments from other departments or agencies of the 
United States, payments from State or local governments, or payments 
from private entities or organizations. H.R. 2735 would also make grant 
funds available to pay for the personnel and staff of homeless veteran 
service centers. Such grant funds would make it easier for service 
centers to meet the service availability requirements and help these 
centers provide the help and care that our homeless veterans 
desperately need.
    H.R. 3073, to amend title 38, United States Code, to direct the 
Secretary of Veterans Affairs to establish a grant program to provide 
assistance to veterans who are at risk of becoming homeless.
    The VFW is in strong support of this important legislation, which 
would provide funding to public entities and to non-profit 
organizations to help veterans who are in imminent danger of becoming 
homeless. These organizations would be able to make utility, rent and 
mortgage payments as well as security deposits on behalf of the 
eligible veterans for up to 3 months. H.R. 3073 would also ensure that 
the eligible veteran is receiving further services such as job training 
and counseling to prevent homelessness.
    H.R. 3441, to provide for automatic enrollment of veterans 
returning from combat zones into the VA medical system, and for other 
purposes.
    The VFW currently has no formal position on this legislation.
    H.R. ____, to direct the Secretary of Veterans Affairs to transfer 
funds to the Secretary of Health and Human Services for a graduate 
psychology education program.
    The VFW strongly supports this important legislation that would 
increase funding for the Graduate Psychology Education program under 
the purview of Health and Human Services. The need for mental health 
services continues to grow as the wars in Iraq and Afghanistan 
continue. Recent reports issued by GAO, the DoD Mental Health Task 
Force, the Institute of Medicine, and others, have identified shortages 
of trained mental health providers. This important legislation would 
begin to address this shortfall by increasing the numbers of trained 
mental health counselors.
    H.R. ____, to amend title 38, United States Code, to improve per 
diem grant payments for organizations assisting homeless veterans.
    The VFW supports this important legislation that establishes an 
increased rate at which crucial per diem payments are made to 
organizations that assist homeless veterans. Such rates would equal the 
daily cost as estimated by the grant recipient or $60 per bed. This 
legislation also provides an organized and detailed priority list for 
those organizations assisting our Nation's homeless veteran population. 
This new priority list allows smaller non-profit organizations to 
receive 25% of the supportive services for homeless veterans funding. 
Currently, these organizations are deemed ineligible and receive no 
funding yet they still provide crucial care to our homeless veterans. 
This legislation would provide funding to these organizations so that 
they can continue to provide America's homeless servicemembers the help 
they need. The 25% funding to these smaller non-profit organizations 
would be distributed by the Secretary and priority would be given to 
the organizations meeting the most supportive services requirements of 
the current law.
    H.R. ____, to amend title 38, United States Code, to direct the 
Secretary of Veterans Affairs to eliminate the required reduction in 
the amount of per diem payments provided to entities furnishing 
services to homeless veterans to account for other sources of income, 
and for other purposes.
    The VFW currently has no formal position on this legislation.
    H.R. ____, to reform and expand the Veterans Affairs Supportive 
Housing Program carried out by the Department of Housing and Urban 
Development and the Department of Veterans Affairs.
    The VFW currently has no formal position on this legislation.
    As America's largest group representing combat veterans, we thank 
you for allowing the Veterans of Foreign Wars to present its views on 
these bills.
    Mr. Chairman, this concludes my testimony and I will be pleased to 
respond to any questions you or the Members of this Subcommittee may 
have. Thank you.

                                 <F-dash>
               Prepared Statement of Richard F. Weidman,
         Executive Director for Policy and Government Affairs,
                      Vietnam Veterans of America
    Good morning, Congressman Michaud, Congressman Miller, and other 
Members of this distinguished Subcommittee. Vietnam Veterans of America 
appreciates this opportunity to offer our comments about several very 
significant pieces of legislation up for consideration by this 
Subcommittee today. Let me give our assessment of them in order.
    H.R. 1017, the Chiropractic Care Available to All Veterans Act. 
This bill would require the provision of chiropractic care and services 
to veterans at no fewer than 75 VA medical centers and would expand 
access to such care and services.
    While VVA supports the enactment of this bill, we would suggest 
that this body consider looking into other alternative health care 
options that have shown varying degrees of effectiveness. These might 
include acupuncture, yoga, and ancient healing arts (such as ayurveda) 
and meditation/ relaxation techniques (such as qu gong) from India and 
China. These might include as well such modern relaxation techniques as 
biofeedback, which has proven successful in treating fibromyalgia, 
hypertension and certain heart conditions, and even traumatic brain 
injuries (TBI).
    H.R. 1036, the Veterans Physical Therapy Services Improvement Act. 
This bill would establish the position of Director of Physical Therapy 
Service, as well as degree and license requirements for appointments to 
a physical therapist position. Additionally, this bill would establish 
VA Geriatric, Amputee, Polytrauma, and Rehabilitation Research 
Fellowships Program to assist in the recruitment of qualified physical 
therapists specializing in these areas.
    VVA enthusiastically endorses this bill. VVA has long advocated 
that the Department of Veterans Affairs must offer ``veteran-centric'' 
health care that takes cognizance of the special health issues that 
afflict veterans far more than the civilian populace. We believe that, 
if enacted and properly staffed, it will add expertise in critical 
areas of health care treatment that are veteran-centric.
    H.R. 3441 would provide for automatic enrollment into the VA 
medical system for veterans returning from combat zones.
    For years, we have been hearing about the ``seamless transition'' 
of veterans from their branch of service to the VA, and specifically 
concerning their medical/health records. In reality, the transition has 
been anything but seamless, although there is a light at the end of the 
tunnel. Enactment of H.R. 3441 might bring us closer to the end of the 
tunnel.
    However, the provision in this bill permitting a veteran to 
``disenroll'' can potentially impact that veteran if, at some point in 
the future, s/he develops a health condition that derives from their 
time in service, e.g., from exposure to a toxic substance, for 
instance; or if that veteran, because of economic circumstances, needs 
to enroll in the VA health care system. We would suggest that counsel 
insert provisions into this bill to ensure that such a scenario could 
not happen should H.R. 3441 become the law of the land.
    Draft legislation that would direct the Secretary of Veterans 
Affairs to transfer funds to the Secretary of Health and Human Services 
for a graduate psychology education program.
    On the surface, VVA would have no objections to such legislation. 
VVA first proposed ``PTSD Scholarships'' for Vietnam combat veterans in 
1982. It was a good idea then, and it is a good idea for the young 
people returning from OIF/OEF today. However, we would suggest that it 
add provisions that would ensure that any student who benefits from 
such a program ``owe'' the VA a set number of years of service, much 
like the program(s) in the military in which a branch of service will 
pay for the training of a nurse or a lawyer in return for 4 or 5 years 
of service.
    The next several bills address the persistent problem of 
homelessness among veterans.
    H.R. 2504 would provide for an increase in the authorization from 
$150 million to $200 million to be appropriated for comprehensive 
service programs (Grant and Per Diem Program) for homeless veterans.
    In testimony in April 2008, VVA recommended that Congress go above 
the authorizing level for the Homeless Grant and Per Diem program and 
fund the program at $200 million and not the $150 million authorized. 
This bill, if enacted, would fulfill that recommendation and would, we 
believe, help provide services to our veterans who are without homes.
    H.R. 2559, the Help Our Homeless Veterans Act. This bill would 
direct the Secretary of Veterans Affairs to carry out a national media 
campaign aimed at homeless veterans and veterans at risk of becoming 
homeless, with special emphasis on women veterans.
    The VA has both a legal responsibility and an ethical obligation to 
reach out to all veterans and their families to inform them of the 
benefits to which they are entitled. While providing VA medical centers 
with booklets and pamphlets is fine, these do little good if they do 
not get into the hands of the very poor who do not use the system, the 
``middle class'' who use private physicians and who may be living from 
paycheck to paycheck, and some who, for so many reasons, either choose 
to or are forced to dissociate from society.
    To reach these folks, the VA has had no real strategic plan. In 
fact, VA outreach to those who do not use VA facilities is negligible, 
and has been for a long, long time.
    So, a strategic plan, aided perhaps by the Ad Council with input 
from the veterans' service organizations, needs first to be well 
thought out, and then implemented. How much such an outreach effort 
will cost will be dependant on the media (TV and radio, billboards, 
electronic media) that are used. Part of such an outreach effort ought 
to include a ``help line'' modeled after the VA's suicide hot line.
    We would offer, too, that a plan that targets the homeless, or 
those at risk of incipient homelessness, ought to be part of a larger, 
more inclusive VA outreach strategy that informs veterans of the 
benefits they have earned by virtue of their military service, and that 
informs veterans of any health conditions that might derive from their 
time, and place, in service.
    We maintain as well that there needs to be a separate line for 
``outreach'' in the VA budget, including separate lines for outreach in 
the budgets of the various entities of the VA.
    H.R. 2735 would make certain improvements to the comprehensive 
service programs for homeless veterans, to include: Creating a separate 
grant fund for service center personnel; changing the rate of payment 
from a per diem daily cost of care to an annual cost of providing 
services, allowing the VA to increase the rate of payment to reflect 
the cost of providing services; and allowing providers to use per diem 
funds to match other funding sources.
    One of the frontline outreach programs funded by the VA is Day 
Service Centers, sometimes referred to as Drop In Centers. These 
centers reach deep into the homeless veteran population that are still 
on the streets and in the shelters of our cities and towns. These 
centers receive rates based on an hourly calculation per diem ($4.30) 
for the time that a homeless veteran is actually on site in the center. 
While this amount may cover the cost of the coffee and food, it does 
not come close to covering the cost of the professional staff that must 
provide the assistance the veterans need long after they leave the 
facility.
    Why should there be separate facilities to service veterans who are 
homeless? The reality is that most city and municipality social 
services simply do not have the knowledge or capacity to provide 
appropriate supportive services that directly involve the treatment, 
care, and entitlements of veterans. Hence, homeless veterans' service 
centers are vital in any effort to get homeless veterans off the 
streets and into programs that they need to conquer homelessness and 
give them a fighting chance of integrating back into society.
    Why not create ``Service Center Staffing/Operational'' grants, much 
like the VA ``Special Needs'' grants already in existence? VVA supports 
establishing Supportive Services Assistance Grants for VA Homeless 
Grant and Per Diem Service Center Grant awardees, which we would hope 
enactment of H.R. 2735 might accomplish.
    H.R. 3073 would direct the Secretary of Veterans Affairs to 
establish and fund at $100 million for each of fiscal years 2011, 2012, 
and 2013 a grant program to provide assistance to veterans at risk of 
becoming homeless. The program would provide funding to public entities 
and private non-profit organizations to make payments for up to 3 
months to an eligible veteran's landlord, mortgage company, or utility 
company for amounts of rent, mortgage, or utility bills that are in 
arrears, as well as security deposits for rental properties. The 
programs also would provide supportive services, including job training 
and mental health and substance abuse treatment, to prevent these 
veterans from becoming homeless.
    Such a program is no long-term solution. If enacted into law and 
properly translated from concept to reality, it could help stanch the 
descent of hundreds if not thousands of low-income veterans who, in 
this uncertain economy, are in fact in imminent danger of eviction or 
foreclosure and at risk of becoming homeless.
    Draft Legislation to improve per diem payments for organizations 
assisting homeless veterans.
    VVA has long contended that VA Homeless Grant and Per Diem funding 
must be considered a payment rather than a reimbursement for expenses, 
an important distinction that will enable the community-based 
organizations that deliver the majority of these services to operate 
more effectively.
    We have wondered why this funding has not been considered a ``fee-
for-service'' instead of a reimbursement. Such a change would pay 
existing and future grant awardees in a per diem program as 
contractors, much like that of the past programs. However now there 
would be a process for defined oversight in regard to annual 
inspections, services offered, and goals attained.
    The amount of work and the staff time required to accommodate the 
current system for grant and per diem programs is a drain not only on 
staff time but, in many instances, on the fiscal solvency of an agency 
receiving such funding.
    A key element in this bill notes that 25 percent of funds available 
for per diem grant payments would go to entities that must do more than 
just provide ``three hots and a cot.'' They must offer ``transitional 
and supportive services'' as prescribed by the Secretary of Veterans 
Affairs. VVA would suggest that far more than 25 percent of available 
funds ought to go to agencies that provide such services. The danger is 
that cities and towns and counties that provide shelters for their 
homeless populations will wind up competing with agencies that are 
actively working to bring 
services and assistance to veterans with the goal of successful communit
y reintegration.
    VVA would also add that an important per diem funding issue be 
added to this bill that addresses funding to an existing program for 
the expansion of its original program. In the past, some successful VA 
residential programs for homeless veterans identified a need for 
increased bed space based on the number of veterans requesting 
admission. These programs requested additional beds under a ``per diem 
only,'' or PDO, grant process and were awarded funds to increase their 
overall program beds.
    However, because the original grant and the PDO grant were awarded 
at different times they have separate ``project numbers,'' even though 
both grants were for the same program with the same expenses. Hence, 
they are required to divide out by percentage the number of beds, and 
the per diem rates, under each project number in the required reporting 
to the VA. And everything related to the program has to be divided by 
percentages and every veteran who changes bedrooms has to be tracked by 
project number in applying for every month's per diem reimbursement 
request. This is a bookkeeping nightmare. It can be alleviated, and 
some trees can be saved in the process, if the system insists on a 
single project number rather than the two it now requires.
    Draft Bill, The End Veteran Homelessness Act. This bill would 
reform and expand the VA's Supportive Housing Program carried out in 
concert with the Department of Housing and Urban Development (HUD).
    VVA applauds the Senate Appropriations Committee for having funded 
$75,000,000 for the HUD-VASH Program in Public Law 110-161. There is, 
however, a gap in HUD-VASH and the veterans eligible to receive the 
vouchers. This gap is hurting homeless veterans who need the most 
intensive intervention to help deal with the conditions that have 
rendered them homeless. Though HUD-VASH and the case management 
provided by the VA are significant, in far too many instances they are 
not intensive enough for those homeless veterans with severe mental 
health illnesses. Many of these veterans do not meet the criteria for 
Mental Health Intensive Case Management (MHICM) through the VA because 
they have not had multiple admissions to mental health facilities; they 
do not meet the criteria of HUD-VASH because they need such intensive 
case management. Hence, they are left with few, if any, chances or 
opportunities for independent living.
    VVA certainly supports continued, and increased, funding for the 
existing HUD/VASH voucher program. This program is critical if we as a 
nation are to significantly reduce, if not necessarily eliminating, 
homelessness among our Nation's veterans. Oversight of the HUD/VASH 
program will prove to be an invaluable tool in the continuance and 
expansion of this program.
    Oversight is necessary to ensure that these vouchers, and any 
additional vouchers, will be administered, distributed, and utilized to 
the fullest extent possible. By tracking the outcomes of the current 
HUD/VASH voucher program, a full annual evaluation of their 
effectiveness will, we believe, illustrate the effectiveness of the 
program, and the need for additional vouchers.
    This concludes my testimony Mr. Chairman. I will be pleased to 
answer any questions you may have at this time.

                                 <F-dash>
  Prepared Statement of Blake C. Ortner, Senior Associate Legislative
                Director, Paralyzed Veterans of America
    Chairman Michaud and Members of the Subcommittee, on behalf of 
Paralyzed Veterans of America (PVA), I would like to thank you for the 
opportunity to present PVA's position on the legislation pending before 
the Subcommittee, as well as four draft bills you are preparing.
    PVA has always been a strong supporter of helping homeless 
veterans. As has been stated many times, the VA estimates that nearly 
200,000 veterans are homeless on any given night, and that 
approximately 400,000 veterans experience homelessness in a year. While 
these numbers are lower than they have been reported in the past, this 
is clearly a massive problem that the VA, veterans service 
organizations, homeless providers, and similarly interested parties, 
have all tried to help overcome. This is a tragedy that continues to 
plague our Nation. PVA believes that the legislation discussed here 
today may help to continue to reduce these unfortunate numbers.
                               H.R. 2504
    PVA strongly supports H.R. 2504, to provide for an increase in the 
annual amount authorized the Secretary of Veterans Affairs to carry out 
homeless veterans programs from $150 million to $200 million. With 
large numbers of veterans still on the streets at night, and the 
troubled economy increasing the risk for more people becoming homeless, 
not just veterans, this increase will provide much needed funds to 
continue the reduction of homelessness. But we ask that the members 
work with the appropriators to ensure this funding is made available or 
it simply becomes an empty gesture.
           H.R. 2559, the ``Help Our Homeless Veterans Act''
    PVA strongly supports H.R. 2559, the ``Help Our Homeless Veterans 
Act.'' Outreach is critical to reducing homelessness. We are 
particularly pleased that the legislation not only targets veterans who 
are homeless, but those who are at risk of becoming homeless with a 
special emphasis on our women veterans who face so many additional 
dangers on the street. To be effective, this program should use a wide 
variety of techniques including billboards and outdoor advertising in 
locations that the homeless may frequent. It should also include use of 
the Internet. While the homeless and those at risk may not have access 
to the Internet, friends and family may. Providing this information 
will inform them of programs that they may be able to use to steer 
their friends and loved ones toward getting the help they need.
                               H.R. 2735
    PVA supports H.R. 2735, a bill that will make improvements to the 
comprehensive programs for homeless veterans. However, we do have some 
concerns about the long-term effects of the legislation. PVA has always 
supported the idea of comprehensive care for homeless veterans. Seldom 
is there one issue that leads veterans to become homeless. 
Additionally, often homeless veterans reside in urban areas where the 
cost of living is very high and there are limited opportunities for 
help. Section two of H.R. 2735 allows the Secretary of Veterans Affairs 
to increase the rates of payment to reflect anticipated changes in the 
cost of services and takes into account the cost of providing these 
services in particular geographic areas.
    While we welcome this consideration, PVA is concerned about the 
long-term effects of this legislation on VA homeless program funding. 
By adjusting the payments for geographic areas, which we believe is 
aimed at providing greater funding to high cost localities, this may 
actually reduce the total number of homeless veterans that can be 
served if future increases in overall program funding are insufficient. 
While the argument could be made that ``reductions'' in funding for low 
cost areas may offset increases to high cost areas, the funding levels 
provided for homeless programs are seldom sufficient to provide for all 
the veterans who may need to take advantage of these critical services.
Discussion Draft of legislation to improve per diem grant payments for 
               organizations assisting homeless veterans
   Discussion Draft of legislation to direct the Secretary of VA to 
  eliminate the required reduction of per diem payments due to other 
                           sources of income
    In conjunction with H.R. 2735 are the discussion drafts of 
legislation to improve per diem grant payments for organizations 
assisting homeless veterans and to eliminate the required reduction of 
per diem payments provided to entities furnishing services due to other 
sources of income. The first bill would set the per diem rate at an 
amount equal to the greater of the daily cost of care or a fixed per 
diem rate of $60. This legislation would have the advantage of setting 
a ``floor'' and allow for planning by homeless veteran providers. PVA 
supports this idea, however, is concerned about other aspects of the 
draft.
    The legislation proposes that the Secretary of VA ensure that 25 
percent of funds available for payments shall be made available for 
grant recipients or eligible entities which ``furnish services to 
homeless individuals, of which less than 75 percent are veterans.'' PVA 
understands this to mean that an entity which provides services to the 
homeless, and only 1 percent, or for that matter 0 percent, of those 
receiving services are veterans, will get funding from the VA. While we 
understand that there are homeless providers that may serve a minimal 
number of veterans, VA funding should be targeted toward veterans' 
providers who provide for veterans.
    The second bill would eliminate the reduction in the amount of per 
diem payments to entities furnishing services to homeless veterans to 
account for other sources of income. PVA has consistently opposed these 
reductions and supports this legislation. In June 2007, PVA testified 
in favor of H.R. 2699 which also would have done away with the offset 
of per diem payments against other sources of income for homeless 
veterans' service providers. It makes no sense to take away resources 
from an entity that devotes its time and resources to overcoming a 
significant problem among the veterans population. Homeless service 
providers need to be able to take advantage of every resource available 
to them in order to successfully assist at risk veterans.
                               H.R. 3073
    PVA welcomes H.R. 3073, which directs the Secretary of Veterans 
Affairs to establish a grant program to assist veterans at risk of 
becoming homeless. With few exceptions, veterans do not suddenly become 
homeless. It is often a long path that leads to the tragedy of 
homelessness. H.R. 3073 may go a long way toward interceding in this 
cycle and we sincerely thank Mr. Nye for introducing this forward 
thinking legislation. We are particularly pleased that as part of the 
legislation, one of the requirements to receive the grant includes 
ensuring that at the onset of providing assistance, the veteran is 
receiving the supportive services that may prevent homelessness. Of 
particular note is that this includes job training and substance abuse 
treatment. It is much easier to prevent a veteran from becoming 
homeless than it is to return them to normalcy after they are on the 
streets.
  Discussion Draft of legislation to reform and expand VA Supportive 
                   Housing Program carried out by HUD
    PVA also welcomes the discussion draft legislation to reform and 
expand the VA Supportive Housing Program carried out by the Department 
of Housing and Urban Development and VA. As with H.R. 3073, programs 
that can help keep or return a homeless veteran to housing set the 
stage for providing the other programs to support the homeless veteran. 
Providing housing voucher assistance to the chronically homeless 
veteran can be the first step to recovery.
    Often one of the greatest challenges the homeless have is a stable 
address at which they can be contacted for benefits, follow-up or even 
to place on a job application or bank account. This legislation may 
provide that important first step for a veteran to end their cycle of 
homelessness. This legislation, just as with H.R. 3073, requires the 
veteran receiving the voucher to agree to continued treatment for the 
conditions that may have led to their homelessness. This may start them 
on the path to employment, permanent residency and a significantly 
increased quality of life.
    PVA also is glad to see a program of training and technical 
assistance included in the legislation. Educating medical center case 
management workers on inspections and lease processes can both make 
these caseworkers more effective and build the critical partnerships 
between those who provide homeless services.
    PVA does have one concern. The draft calls for a specific set-aside 
for Operation Enduring Freedom/Operation Iraqi Freedom (OEF/OIF) 
veterans. Though we understand the serious desire of Congress to help 
our most recent veterans, the scourge of homelessness is so serious 
that to potentially limit resources for non OEF/OIF veterans is a 
mistake. All our homeless veterans should have an equal chance at any 
help that may be available.
   H.R. 1017, the ``Chiropractic Care Available to All Veterans Act''
    PVA supports the provisions of H.R. 1017, the ``Chiropractic Care 
Available to All Veterans Act.'' Chiropractic care has become a widely 
accepted and used medical treatment. It is a treatment covered by 
TRICARE and it is only appropriate that it should be provided at VA 
facilities. But it is also important for the Subcommittee to recognize 
that by providing this treatment benefit to veterans, it will entail a 
new type of care which is currently not considered in funding. When new 
treatments are authorized at VA facilities, they must be considered 
when determining VA appropriations to prevent those becoming unfunded 
mandates.
H.R. 1036, the ``Veterans Physical Therapy Services Improvement Act of 
                                 2009''
    PVA strongly supports H.R. 1036, the ``Veterans Physical Therapy 
Services Improvement Act of 2009'' and we thank Ms. Herseth Sandlin for 
introducing this legislation. As the wars in Afghanistan and Iraq 
continue, more and more veterans of the War on Terrorism are in need of 
physical therapy. As the language of the legislation indicates, the 
aging veteran population is also increasing the need for these 
services. Creating a Director of Physical Therapy Service position will 
provide the Secretary with someone to oversee and guide this 
increasingly important program. In addition, dictating the 
qualifications for appointment of physical therapists will help ensure 
the quality of the physical therapists hired by VA.
    PVA is also supportive of creating a fellowship program for 
physical therapists in the areas of geriatrics, amputee rehabilitation, 
particularly for our returning Afghanistan and Iraq war veterans, and 
polytrauma and rehabilitation research. With the coming potential 
critical shortage of these care professionals, efforts must be made now 
to recruit and retain these needed specialists.
                               H.R. 3441
    PVA supports H.R. 3441, to provide for automatic enrollment of 
veterans returning from combat zones into the VA medical system. During 
the hectic activities of discharge, many military members leaving 
active duty may not consider the importance of enrolling in the VA. 
They may not think it is important if they have already identified 
employment that will provide health care benefits. Automatic 
enrollment, with the option not to enroll, is a benefit that should be 
afforded to these heroes as they leave service to this nation.
    Absent from the legislation is a clear consideration for our 
mobilized National Guard and Reservists as they are demobilized from 
wartime service. The period when a member of the Reserves demobilizes 
is an extremely hectic time when the main thought of the servicemember 
is to get back home to their family. They are no less deserving of 
automatic enrollment and it may be even more important as they do not 
have the long period of preparation often afforded to those being 
discharged from active service. We would ask that the Subcommittee 
consider including this in the legislation.
  Draft of legislation to transfer funds from VA to the Secretary of 
       Health and Human Services for a graduate education program
    PVA does not support the draft legislation from Chairman Michaud to 
transfer funds from VA to the Secretary of Health and Human Services 
(HHS) for a graduate education program as it is currently written. PVA 
recognizes the value of transferring funds to HHS due to their 
established programs for graduate education, but we do not believe in 
this time of tight budget allocations that VA should be transferring 
funds to another agency without a better guaranteed benefit for VA. The 
provision that when awarding grants the Secretary of HHS is only 
required to give a ``preference'' to health care facilities of the VA, 
when these funds are coming from VA, seems beyond comprehension. We 
would sincerely hope that only in the event VA did not apply for the 
grant would it be awarded to a non-VA program or facility.
    PVA appreciates the opportunity to comment on the bills being 
considered by the Subcommittee. We look forward to working with you to 
further improve the health care services available to veterans, in 
particular homeless veterans and those at risk of becoming homeless. I 
would be happy to answer any questions that you might have. Thank you.

                                 <F-dash>
           Prepared Statement of Peter H. Dougherty Director,
  Homeless Veterans Programs, Office of Public and Intergovernmental 
              Affairs, U.S. Department of Veterans Affairs
    Good morning, Mr. Chairman, and Members of the Subcommittee.
    Thank you for inviting me here today to present views on several 
bills that would affect Department of Veterans Affairs (VA) programs of 
benefits and services. Joining me today are Jane Clare Joyner, Deputy 
Assistant General Counsel, and Paul E. Smits, Associate Chief 
Consultant, Homeless and Residential Rehabilitation and Treatment 
Programs, veterans Health Administration. We appreciate the opportunity 
to address four bills that would affect the Department's programs for 
homeless veterans. Unfortunately, we did not receive H.R. 1017, H.R. 
1036, H.R. 3441, or two draft bills in time to provide our views and 
costs. We will forward these as soon as they are available.
 H.R. 2504--``To Increase the Amount Authorized to Be Appropriated for 
         Comprehensive Service Programs for Homeless Veterans''
    H.R. 2504 would amend 38 U.S.C. 2013 to raise the authorized amount 
to be appropriated from $150,000,000 to $200,000,000 beginning in FY 
2010 and each fiscal year thereafter.
    VA supports H.R. 2504 in principle but has concerns about the 
proposed annual authorization level. 38 U.S.C. 2013 currently 
authorizes an appropriation up to $150,000,000 for the Grant-and-Per-
Diem (GPD) program. The Administration and the Department have a goal 
of ending homelessness among our Nation's veterans within 5 years. To 
achieve this goal, VA will assist every eligible homeless veteran 
willing to accept services. We will help them acquire safe housing and 
obtain needed treatment, services, and benefits assistance, while also 
providing opportunities to return to employment. VA's plan includes 
education, job training, substance abuse and mental health care, and an 
assortment of other benefits. It will require close partnership with 
Federal and State agencies, local, non-profit and private groups; 
outreach and education to veterans, people and organizations providing 
services to veterans, and the general public; universal and targeted 
prevention; treatment focused on recovery and tailored to individual 
veterans' needs; housing and supportive services; and income, 
employment and benefits assistance. For example, we will continue our 
collaborative efforts with the Department of Labor to provide 
employment services. We will leave no opportunity unexplored, and we 
will continue this pursuit until every veteran has safe housing 
available and access to needed treatment services. We are eager to work 
with Congress to provide these services to veterans.
    VA estimates that the proposed maximum annual authorization level 
of $200 million would be inadequate for the amounts of VA projects 
delivering comprehensive services through this important program. We 
recommend that a specific authorization funding level be dropped from 
the statute. This is a well established program in VA and need not be 
constrained.
    If the specific authorization ceiling in H.R. 2504 is enacted, VA's 
resources to execute this program would be limited to $146.3 million in 
FY 2010, $189.2 million in FY 2011, $935.5 million over 5 years, and 
$1.9 billion over 10 years.
             H.R. 2559--``Help Our Homeless Veterans Act''
    H.R. 2559 would require VA to carry out a national media campaign 
targeting veterans who are homeless or who are at risk of becoming 
homeless, with special emphasis on women veterans. The Secretary would 
be required to inform veterans of their rights and benefits under the 
laws administered by the Secretary and would advise them where to turn 
for help if they are already homeless or at risk of becoming so.
    VA supports outreach to homeless veterans but H.R. 2559 duplicates 
existing statutory authority. We would welcome the opportunity to work 
with Committee staff in order to address this concern.
    Congress already provided this authority last year in Public Law 
110-389, which created section 532 of title 38. That authorized the 
Secretary to purchase advertising in national media outlets to promote 
awareness of benefits administered by the Secretary, including programs 
to assist homeless veterans. This extant authority is preferable to 
H.R. 2559 as it does not require VA to target only veterans. Targeting 
veterans alone will not be sufficient to achieve the goal of ending 
veteran homelessness, while a coordinated national campaign reaching 
veterans, those who provide benefits and services, as well as the 
general public can help achieve this goal. If new legislation 
nevertheless goes forward, it should support advertising and media 
outreach directly to public and private, State, tribal and community 
agencies that serve the homeless population to enhance referrals to VA.
    We estimate that a national media program targeting veterans, those 
who provide benefits and services to the homeless, as well as the 
general public would cost $600,000 in FY 2010, $618,000 in FY 2011, 
$3.2 million over 5 years, and $6.9 million over 10 years.
H.R. 2735--``To Make Certain Improvements to the Comprehensive Service 
                    Programs for Homeless Veterans''
    Section 1 of H.R. 2735 would add a new subsection to 38 U.S.C. 3011 
to specifically allow service centers receiving grants from VA to use 
these funds for staffing to ensure services are provided during 
specified hours, as well as on an as-needed, unscheduled basis. Section 
2 would eliminate all references to ``per diem'' in 38 U.S.C. 2012 and 
change the basis of grants from the ``daily cost of care'' to the 
``annual cost of furnishing services.'' It would also remove the 
prohibition on VA providing a rate in excess of the rate authorized for 
State domiciliaries and grant the Secretary the discretion to set a 
maximum amount payable to grant recipients. Section 2 would also direct 
the secretary to increase the rate of payment to reflect anticipated 
changes in the cost of furnishing services and take into account the 
cost of services in different geographic areas. It would remove the 
requirement that the secretary consider other available sources of 
funding and would leave it to his or her discretion. Finally, it would 
allow grant recipients to use VA grants to match other payments or 
grants from other providers. In sum, this bill would dramatically 
change VA's grant-and-per-diem (GPD) program, which has been a key 
factor in reducing veteran homelessness from 195,000 to 131,000 over 
the last 3 years. GPD is designed to support transitional housing for 
veterans; however, in the last several years the program has expanded 
its range of services toward permanent housing to provide veterans 
stable and continuous care. VA generally supports this bill, but is 
apprehensive that this legislation will result in policy problems and 
lead to significantly higher costs.
    VA supports section 1. GPD has 35 operational service centers (18 
in rural areas, 17 in urban areas), and billing among these service 
centers varies significantly. Although service centers are currently 
not the most robust intermediaries for delivering services, these 
partners have played a vital role in VA's success in combating veteran 
homelessness over the last several years and will continue offering 
essential services as we work toward the goal of ending veteran 
homelessness. We believe that this legislation may make these entities 
more fiscally solvent as the additional funding would offset the needed 
staffing costs. VA's Advisory Committee on Homeless veterans has 
recommended for several years that this authority be given to grant 
recipients.
    VA estimates the cost of section 1 of H.R. 2735 would be $5.2 
million in FY 2010, $6.1 million in FY 2011, $35.6 million over 5 years 
and $101.6 million over 10 years.
    Concerning section 2, VA is currently evaluating the impact of 
section 2, which shifts from the ``per diem'' or ``daily cost of care'' 
approach to an ``annual cost of furnishing services.'' Though this 
change may offer VA's partners needed capital and funds at the 
beginning of the fiscal year to support their work, it would require 
significantly more detailed auditing as well as increased direct 
oversight by VA. We would welcome the opportunity to discuss these 
issues with Committee staff, and ask the Committee to defer on this 
provision until we have fully evaluated the impact of this proposal.
    VA does not oppose removing the existing rate cap. Currently, the 
statute limits VA's GPD payments to the rate for state domiciliary 
care, and the difference between what VA pays and the actual cost of 
expenditures is absorbed by the provider. Allowing the Secretary to 
establish the basis and the formula for payment based on cost and 
geographic location would increase the sustainability of community-
based providers and promote increased and more comprehensive services 
for veterans. However, the language of the bill is restrictive in that 
it only authorizes VA to increase the rate of payment from year to 
year; VA would be unable to respond to any situation or development 
that might lower the operating costs for grant recipients. As a result, 
VA could be forced to pay above-cost rates to providers. We 
consequently recommend the language be modified to say ``adjust'' 
instead of ``increase.''
    The bill would also no longer require the Secretary to consider the 
availability of other sources of income for grant recipients. The 
difference between ``may,'' as the bill specifies, and ``shall,'' as 
the statute currently provides, is in this instance insignificant as 
the Secretary would in all likelihood consider the availability of 
other funds in any event. H.R. 2735 would allow providers to use VA 
funds to secure matching amounts from other agencies or organizations. 
VA believes that multiple agencies should not contribute funding for 
the same objective or project, and that overlapping funds can introduce 
waste and inefficiency. VA has no objection to this provision; however, 
it suggests that the language be amended to prohibit duplication and 
allow for adjusted rather than solely increased funding.
    VA estimates the cost of enacting section 2 of H.R. 2735 would be 
$455.9 million in FY 2010, $542.2 million in FY 2011, $3.2 billion over 
5 years and $8.1 billion over 10 years.
  H.R. 3073--``To Establish a Grant Program to Provide Assistance to 
            Veterans Who Are At Risk of Becoming Homeless''
    H.R. 3073 would create a new grant program that would require the 
Secretary to provide grants to public entities and private non-profit 
organizations to provide financial support for veterans at risk of 
homelessness. The bill defines these veterans as those in ``imminent 
danger of eviction or foreclosure,'' who demonstrate a ``compromised 
ability'' to make rental or mortgage payments, and who meet eligibility 
requirements established by grant recipients. Specifically, the bill 
would require grant recipients to make payments for up to 3 months on 
behalf of veterans for mortgage, rental or utility payments and to 
ensure these veterans receive supportive services such as job training, 
mental health and substance abuse treatment, and other services 
including support from the Department of Labor and the Department of 
Housing and Urban Development. Grant recipients would apply for these 
funds as per diem providers currently do. The bill would allow recovery 
of unused funds at the end of a 3-year period and would authorize up to 
$100,000,000 for FY 2011, 2012 and 2013.
    VA supports preventive measures for at-risk veterans in principle 
but does not support H.R. 3073 because certain portions of this bill 
duplicate existing statutory authority and others would not make the 
best use of Department resources. We would welcome the opportunity to 
discuss these issues with Committee staff in order to develop language 
that addresses these concerns.
    Section 604 of Public Law 110-387, codified at 38 U.S.C. 2044, 
provides VA with authority to offer grants to organizations offering 
supportive services of the kind described in H.R. 3073 for low-income 
veterans and their families. VA is currently developing regulations to 
implement this legislation. We also note the 3-month eligibility for 
the services offered under H.R. 3073 is too short to effectively remove 
the risk of homelessness for many veterans and their families. For 
veteran homeowners with non-VA mortgages, temporary relief for 3 months 
would likely prove insufficient to resolve the underlying conditions 
contributing to their potential homelessness if the terms of the 
mortgage have changed, as they would under an adjustable-rate mortgage, 
rather than as a result of changes in their personal situations. The 
Administration has pursued a number of initiatives to keep such 
homeowners, including veterans, in their residences. H.R. 3073 may 
duplicate those efforts as well.
    In addition, the Veterans Benefits Administration offers assistance 
to veterans who encounter problems making their mortgage payments. When 
a VA-guaranteed home loan becomes delinquent, the loan servicer has the 
primary responsibility of servicing the loan to help cure the default. 
VA provides financial incentives for servicers who arrange reasonable 
repayment plans or pursue other home retention options for veterans. In 
some cases loan modification may help make payments more affordable, 
and VA made extensive rule changes in early 2008 to make loan 
modifications easier for servicers to arrange. However, in cases where 
the servicer is unable to help the veteran borrower retain the home or 
find a suitable alternative to foreclosure, VA's Loan Guaranty Service 
has Loan Technicians in nine Regional Loan Centers and the Hawaii 
Regional Office who review all cases prior to foreclosure to evaluate 
the adequacy of the loan servicing. Loan Technicians may initiate 
supplemental servicing by contacting the veteran to determine whether 
any further assistance is possible, and veterans may also call a 
nationwide toll-free contact number at any time during the process to 
receive loan counseling from VA. In some cases, VA will purchase a loan 
from the holder and modify the terms so that a veteran can retain his 
or her home. The Regional Loan Centers can also provide advice and 
guidance to veterans with non-VA guaranteed home loans, but VA does not 
have the legal authority or standing to intervene on the borrower's 
behalf in these situations. Under the Veterans' Benefits Improvement 
Act of 2008 (Public Law 110-389), veterans with non-VA guaranteed home 
loans have new options for refinancing to a VA guaranteed loan. 
Veterans who wish to refinance their subprime or conventional mortgage 
may do so for up to 100 percent of the value of the property, generally 
up to a maximum of $417,000. High-cost counties have even higher 
maximum guaranty amounts, which can result in higher maximum loan 
limits. These changes allow more qualified veterans to refinance 
through VA, allowing for savings on interest costs and avoiding 
foreclosure. Additionally, some veteran borrowers may be able to 
request relief pursuant to the Servicemembers Civil Relief Act (SCRA). 
In order to qualify for certain protections available under the Act, 
the veteran's obligation must have originated prior to the current 
period of active military service. SCRA may provide a lower interest 
rate or forbearance, or prevent foreclosure or eviction, even after the 
borrower's period of military service ends.
    VA estimates there would be no costs associated with H.R. 3073 in 
FY 2010, with $100 million in costs for FY 2011 through FY 2014, for a 
5 and 10 year total of $300 million.
    This concludes my prepared statement. I would be pleased to answer 
any questions you or any of the Members of the Subcommittee may have.

                                 <F-dash>
                                  American Chiropractic Association
                                                     Arlington, VA.
                                                    October 8, 2009

Hon. Michael H. Michaud, Chairman
House Committee on Veterans' Affairs
Subcommittee on Health
338 Cannon House Office Building
Washington, DC 20515
                                          Hon. Henry E. Brown Jr.,
                                          Ranking Member
                                          House Committee on Veterans' 
    Affairs
                                          Subcommittee on Health
                                          338 Cannon House Office 
    Building
                                          Washington, DC 20515

RE: Statement of the American Chiropractic Association in Support of 
H.R. 1017, the Chiropractic Care Available to All Veterans Act

Dear Chairman Michaud and Ranking Member Brown:

    On behalf of the American Chiropractic Association (ACA), we thank 
you for providing an opportunity to submit a statement for the official 
subcommittee record on H.R. 1017, the Chiropractic Care Available to 
All Veterans Act.
    ACA provides professional and educational opportunities for doctors 
of chiropractic (DCs), supports research regarding chiropractic and 
health issues, and offers leadership for the advancement of the 
profession. With approximately 15,000 members, ACA promotes the highest 
standards of ethics and patient care, contributing to the health and 
well-being of millions of chiropractic patients.
    ACA wholeheartedly supports H.R. 1017 and believes it will assist 
millions of veterans in receiving quality care, especially for the 
treatment of musculoskeletal injuries and conditions. Painful and 
disabling joint and back disorders are the top health problems of 
veterans returning from Iraq and Afghanistan, according to Department 
of Veterans Affairs (VA) statistics from earlier this year (``Analysis 
of VA Health Care Utilization Among U.S. Global War on Terrorism 
Veterans, Jan. 2009'').
    In recent years, after decades of inaction and neglect, the VA 
finally began the long-overdue process of providing veterans access to 
chiropractic care by placing doctors of chiropractic on staff at VA 
hospitals. The process of integrating chiropractic care in the VA 
system was initiated after Congress enacted a series of statutes (P.L. 
108-170 and P.L. 107-135) including specific directives to hire doctors 
of chiropractic and place them at VA health care facilities.
    Although a chiropractic benefit has theoretically been available 
within the VA system for many years, Congress took action when it 
became apparent that VA had failed to take any reasonable steps to 
provide veterans with chiropractic care. As a result of the 
congressional directives cited earlier, as well as recommendations 
issued by a congressionally mandated advisory committee, the VA 
currently provides chiropractic care (via hired or contracted staff) at 
32 major VA treatment facilities within the United States.
    In VA facilities where they are available, chiropractic services 
have become an integrated and appreciated part of patient treatment. 
Doctors of chiropractic in the VA are treated as peers and colleagues, 
and are regarded as a valuable source of information in the care of VA 
patients.
    By all accounts, the treatment provided by DCs in the VA is 
regarded as a highly effective, cost-efficient course of treatment with 
positive outcomes and a high level of patient satisfaction. 
Additionally, doctors of chiropractic in the VA bring new ideas and 
viewpoints to patient-centered care, clinical research and education. 
These new perspectives help strengthen the VA by fostering innovative 
approaches and strategies.
    Numerous veterans' service organizations agree that chiropractic 
care is an essential component of the VA health care system. Among 
those that support the inclusion of chiropractic in the VA are the 
Vietnam Veterans of America, the American Legion, the Paralyzed 
Veterans of America and the Veterans of Foreign Wars, which stated, 
``We believe this legislation to be of great importance in 
consideration of the various injuries veterans have received and the 
known benefits for chiropractic care.''
    Despite this progress, the overwhelming majority of America's 
eligible veterans continue to be denied access to chiropractic care 
because the VA has failed to take steps to provide chiropractic care at 
approximately 120 additional VA treatment facilities--comprising the 
major sites where VA care is offered. Detroit, Denver, and Chicago are 
just a few examples of major metropolitan areas still lacking a doctor 
of chiropractic at the local VA medical facility.
    Shockingly, this disparity continues despite important data 
demonstrating a critical need within the VA for the specific and 
specialized type of health care services that doctors of chiropractic 
provide. ACA believes that integrating chiropractic treatment into the 
VA health care system would not only be cost-effective, it would also 
speed the recovery of many of the veterans returning from current 
operations in Iraq and Afghanistan.
    As mentioned earlier, a January 2009 VA report indicates that more 
than 49 percent of veterans returning from the Middle East and 
Southwest Asia who have sought VA health care were treated for symptoms 
associated with musculoskeletal ailments--the top complaint of those 
tracked for the report.
    These patients commonly suffer musculoskeletal injuries from combat 
due to heavy gear and body armor, motor vehicle accidents, and of 
course blast injuries or polytrauma. Clearly, the need for expanded 
access to services delivered by doctors of chiropractic has never been 
more crucial.
    To correct this disparity, Congressman Bob Filner, Chairman of the 
House Committee on Veterans Affairs, introduced H.R. 1017, the 
Chiropractic Care Available to All Veterans Act, which aims to expand 
the number of chiropractic physicians at major VA medical centers. 
Without a congressional directive, further expansion to VA facilities 
will happen on a case-by-case basis and more than likely will be 
excruciatingly slow.
    H.R. 1017 will codify chiropractic as a covered service throughout 
the VA health care system, requiring the VA to have a doctor of 
chiropractic on staff at all VA medical facilities by 2012. It also 
amends the current statute, the Department of Veterans Affairs Health 
Care Programs Enhancement Act of 2001, ensuring that chiropractic 
benefits cannot be denied.
    Veterans want, need and deserve access to chiropractic care, and 
our goal should be to ensure that chiropractic is available and 
accessible at every major VA health care facility. The chiropractic 
profession welcomes the opportunity to serve our Nation's veterans. It 
is an honor to give back to those who have given so much for us.
    Passage of the Chiropractic Care Available to All Veterans Act will 
ensure that our veterans receive the highest level of care possible in 
some of the world's finest medical settings. The American Chiropractic 
Association urges Congress to pass this legislation immediately.

    Sincerely,

                                              Rick A. McMichael, DC
                                                          President

                                 <F-dash>
           Statement of American Physical Therapy Association
    On behalf of the more than 72,000 members of the American Physical 
Therapy Association (APTA), we appreciate this opportunity to provide 
our statement in support of H.R. 1036, the Veterans Physical Therapy 
Services Improvement Act of 2009. This bill would amend title 38, 
United States Code, to establish the position of Director of Physical 
Therapy Service within the Veterans Health Administration and to 
establish a fellowship program for physical therapists in the areas of 
geriatrics, amputee rehabilitation, polytrauma care, and rehabilitation 
research. APTA would like to thank Representative Stephanie Herseth-
Sandlin for her leadership in introducing this important legislation. 
APTA would also like to thank Chairman Filner, Chairman Michaud, 
Representatives Sestak, Brown, Hare, Carnahan, Griffith, and 
Kirkpatrick for cosponsoring H.R. 1036.
    APTA is a professional organization representing the interests of 
physical therapists (PTs), physical therapist assistants, and students 
of physical therapy with a mission to advance physical therapy 
research, practice and education. Physical therapists are licensed 
health care professionals who diagnose and treat individuals of all 
ages, from newborns to the elderly, with medical problems or health 
related conditions that limit their ability to move and perform 
functional activities in their daily lives. PTs examine each individual 
and develop a plan of care using treatment techniques to promote the 
ability to move, reduce pain, restore function and prevent disability. 
Physical therapists practice in a variety of settings, including 
hospitals, home health, private practices, and a number of Federal 
agencies, such as the Veterans Administration (VA). Physical 
therapists, at a minimum, receive a master's degree from an accredited 
physical therapist education program before taking a national 
examination that permits them to practice under state licensure laws. A 
vast majority of physical therapists now graduate with a clinical 
doctorate in physical therapy.
    The primary challenge to meeting the rehabilitation needs of 
veterans is the recruitment and retention of physical therapists. This 
challenge is compounded by two trends that increase the need for 
physical therapy services: chronic conditions associated with an aging 
veteran population and the complex impairments associated with 
returning veterans from Operation Enduring Freedom (OEF) in Afghanistan 
and Operation Iraqi Freedom (OIF) in Iraq.
    There is an increased need for physical therapists in the VA 
system. The current challenges with recruitment and retention of PTs 
within a changing environment only increases the need for 
rehabilitation lead by these professionals. The three specific 
recommendations APTA would make are outlined in H.R. 1036; the 
establishment of a Director of Physical Therapy Service within the VA, 
updating and codifying qualification standards for physical therapists, 
and the establishment of a fellowship program to encourage the 
recruitment and retention of specialized physical therapists within the 
VA system.
Physical Therapists in the VA: An Increasing Need for Rehabilitation Ser
        vices
    With more than 1,000 \1\ physical therapists on staff, the VA is 
one of the largest employers of physical therapists nationwide. 
Physical therapists have a long history of providing care to our active 
duty military and to our Nation's veterans. In fact, our professional 
roots started by rehabilitating soldiers as they began returning from 
World War I. Back then, physical therapists were known as 
``reconstruction aides.'' Today, physical therapists in the VA render 
evidence-based, culturally sensitive care and many have been recognized 
leaders in clinical research and education. Physical therapists in the 
VA practice across the continuum of care, from primary care and 
wellness programs to disease prevention and post-trauma rehabilitation. 
Clinical care practice settings that incorporate physical therapists 
include inpatient acute care, primary care, comprehensive inpatient and 
outpatient rehabilitation programs, spinal cord injury centers and 
geriatric/extended care.
---------------------------------------------------------------------------
    \1\ At the end of fiscal year 2006, 1024 physical therapists were 
employed by the VA. Department of Veterans Affairs.
---------------------------------------------------------------------------
    The need for high quality rehabilitation provided by physical 
therapists has never been greater with the dual challenges of caring 
for the chronic diseases faced by aging veterans and the multifaceted 
profile of many of today's wounded warriors. According to the VA, 9.2 
million veterans are age 65 or older, representing 38 percent of the 
total veteran population. By 2033, the proportion of older veterans 
will increase to 45 percent of the total population.\2\
---------------------------------------------------------------------------
    \2\ Department of Veterans' Affairs Web site ``VA Health Care Atlas 
FY2000'', Accessed September 29, 2009 http://www.rorc.research.va.gov/
atlas/Chapter_1_Veteran_Population.pdf.
---------------------------------------------------------------------------
    The second trend that highlights the need to recruit and retain 
physical therapists in the VA is the changing profile of injuries and 
impairments of our returning service personnel. Enhancements in 
battlefield medicine have helped a larger portion of soldiers survive 
their injuries, compared to previous wars our Nation has fought.\3\ 
Many of our Nation's recent veterans are facing unique injuries that 
require complex rehabilitation including spinal cord injury, amputee 
rehabilitation and traumatic brain injury. Physical therapists are a 
key part of the VA's Polytrauma Rehabilitation Centers (PRC) caring for 
TBI patients in Tampa, Palo Alto, Richmond and in Minneapolis. PRCs 
have clinical expertise and include an interdisciplinary team to 
provide care for complex patterns of injuries, including TBI, traumatic 
or partial limb amputation, nerve damage, burns, wounds, fractures, 
vision and hearing loss, pain, mental health and readjustment problems. 
Physical therapists are also part of the specialized amputee 
rehabilitation center at the Brooke Army Medical Center at Fort Sam 
Houston, Texas.
---------------------------------------------------------------------------
    \3\ Atul Gawande, ``Casualties of War-Military Care for the Wounded 
from Iraq and Afghanistan,'' The New England Journal of Medicine, 
vol.351, issue 24 (December 2004) p. 2471.
---------------------------------------------------------------------------
    Physical therapists at these facilities have been at the forefront 
in developing programs to care for our wounded warriors prior to the 
creation of the PRC designation. Minneapolis, for example, has had a 
TBI program with dedicated staff in TBI rehabilitation for over 10 
years including physical therapists who have received the American 
Board of Physical Therapy Specialties (ABPTS) specialist certification 
in neurological, clinic specialists in geriatric and orthopedic 
physical therapy. Jeffrey Newman, a PT who testified in front of this 
Committee in 2007, has a clinical background in amputation 
rehabilitation. He has cared for a generation of veterans and has seen 
the growing need for physical therapist services through the years.
Current Recruitment and Retention Challenges for Physical Therapists in 
        the VA
    Given the increasing number of aging veterans and the number of 
OEF/OIF veterans needing physical therapy services, recruitment and 
retention of qualified physical therapists is vital to ensuring our 
veterans have access to the physical therapist services they need in a 
timely fashion. The number one obstacle to both the recruitment and 
retention of physical therapists serving in the VA was the severely 
outdated qualification standards that governed the salary and 
advancement opportunities for physical therapists employed by the VA.
    The physical therapy profession has evolved as the need for our 
services has expanded. The current minimal requirement to become a 
physical therapist is to graduate with a master's degree (approximately 
95 percent of programs now are graduating at the doctoral level \4\) 
and pass a licensure test. The VA qualification standards that existed 
only required a physical therapist to obtain a bachelor's degree and do 
not recognize the doctorate of physical therapy, or DPT, degree. Not 
only was this severely out of date with current minimal education 
requirements but it was not competitive with clinical settings outside 
of the VA system.
---------------------------------------------------------------------------
    \4\ ``Doctor of Physical Therapy (DPT) Degree Frequently Asked 
Questions'' American Physical Therapy Association. April 2008, Date 
Accessed: September 29, 2009. http://www.apta.org/AM/
Template.cfm?Section=Professional_PT&TEMPLATE=/CM/
ContentDisplay.cfm&CONTENTID=16984
---------------------------------------------------------------------------
    APTA began working with the VA to update the qualification 
standards over 8 years ago and supports the following changes to 
establish consistency between the VA and the current professional 
practice of physical therapy as defined by the Guide to Physical 
Therapist Practice:

    <bullet>  Recognition of Educational and Clinical Training of the 
Physical Therapist
    <bullet>  Clarification of a career ladder in the Department of 
Veterans Affairs for Physical Therapists
    <bullet>  Recognition of the Doctoral Degree in Physical Therapy, 
and
    <bullet>  Expanded opportunities for career advancement for 
physical therapists.

    APTA received feedback from the VA that changes needed to be made 
to update the qualification standards. These standards were updated in 
February by General Shinseki. We commend the Secretary for implementing 
these updated qualification standards and urge the Committee to make 
them law. The establishment of appropriate and up to date qualification 
standards will make it easier to both recruit and retain physical 
therapists to serve our Nation's veterans.
    The need for permanent codification of these revised standards is 
due to several factors. First, with the demand for physical therapist 
services on the rise, the outdated qualification standards made it 
difficult to recruit physical therapists to the VA system. Second, the 
increased need for services provided by qualified physical therapists 
in the VA due to our aging veterans and meeting the complex 
rehabilitation needs of our returning soldiers. Third, the outdated 
qualification standards also limited the ability of a physical 
therapist to advance within the VA system once they joined. The 
standards did not recognize physical therapists that achieve specialty 
certification such as those needed in the polytrauma centers. Fourth, 
it had been approximately 8 years since the VA first recognized that 
the standards needed to be updated.
    In addition to the immediate approval and implementation across the 
board--not just in select facilities--of the revised qualification 
standards, APTA recommends enhancements to the current VA fellowship 
and scholarship programs for physical therapists to help in both 
recruitment and retention. Many new graduates are concerned with a high 
amount of student loan debt when leaving school, scholarship and loan 
repayment programs are an important tool in recruiting additional 
physical therapists to meet the VA's need.
    In the early 1990's, Mr. Jeffrey Newman, PT had the opportunity to 
serve on the Committee to review scholarship program applicants when 
the VA had a scholarship incentive program to attract new graduates. 
Over the course of that particular program, his facility in Minneapolis 
had five recipients. Of those original recipients, one was still in the 
facility in late 2007 and two of the others stayed for several years; 
only two left directly after their required service was complete. Mr. 
Newman argued that the previous scholarship program provided an 
incentive to serve right out of school whereas the new incentive 
program, including the debt reduction program, is poorly advertised and 
cumbersome for the potential applicants. In 2007, only 19 physical 
therapists have participated in the Education Debt Reduction Program 
and only 14 physical therapists have participated in the Employee 
Incentive Scholarship Program.\5\
---------------------------------------------------------------------------
    \5\ According to information on physical therapists from the HRRO 
Education Database provided to APTA by the Department of Veterans' 
Affairs on October 15, 2007.
---------------------------------------------------------------------------
    With this in mind, APTA supports the establishment of fellowships 
for physical therapists in the areas of geriatrics, amputee 
rehabilitation, polytrauma care, and rehabilitation research. These 
four areas, three clinical and one research, will attract specialized 
physical therapists to the VA. As is stated above, this will not only 
help recruit physical therapists to the VA to assist with debt burden, 
but with training the PT receives under existing professionals they 
will be able to provide the care veterans require upon their return 
from conflicts overseas.
    APTA also supports the creation of a new position, Director of 
Physical Therapy Services. This new position would report to the 
undersecretary of health of the Veterans Health Administration. It 
would ensure that as the PT profession advances, the agency would keep 
current with issues related to the physical therapy profession's 
education, qualifications, clinical privileges, and scope of practice. 
Given the high number of physical therapists practicing within the VA 
system, the Director position can ensure that all PTs have the best and 
most up to date tools to give our Nation's veterans the best care 
possible.
    APTA recommends the codification of the qualification standards for 
physical therapists in the VA, the creation of new programs and the 
enhancement of current programs offering fellowships, scholarships, 
loan support and debt retirement for physical therapists choosing to 
serve in the VA, and the establishment of a Director of Physical 
Therapy Service. These will assist in both the recruitment and 
retention of qualified physical therapists to meet the needs of our 
veterans today and tomorrow.
    Physical therapists are a vital part of the health care network 
that provides services to our Nation's veterans. Ensuring that the 
qualification standards that govern the salary and advancement 
opportunities for physical therapists in the VA are up to date and 
reflective of the current professional practice of physical therapy as 
well as enhancing current scholarship opportunities will help recruit 
and retain more physical therapists to the VA system.
    APTA would like to thank the Chairman, Ranking Member, the 
Committee and Representative Herseth-Sandlin for the opportunity to 
submit testimony in support of H.R. 1036, the Veterans Physical Therapy 
Services Improvement Act of 2009. APTA is eager to work with the House 
Committee on Veterans Affairs Subcommittee on Health to improve the 
quality of, and the access to care for our Veterans.

                                 <F-dash>
               Statement of American Tinnitus Association
    The American Tinnitus Association (ATA), the largest member-based 
tinnitus research funding organization in the United States, which 
exists to cure tinnitus through the development of resources that 
advance tinnitus research, strongly supports Representative Harry 
Teague's efforts on behalf of America's veterans to properly assess, 
treat and conduct research toward a cure for tinnitus, as outlined in 
H.R. 2506.
    Noise is the leading cause of tinnitus, commonly referred to as 
``ringing in the ears.'' Head and Neck trauma are the second known 
cause of tinnitus. Operations Enduring and Iraqi Freedom (OEF/OIF) are 
some the noisiest battlegrounds yet. Roadside bombs--the signature 
weapon of the insurgency--regularly hit patrols, and can cause hearing 
loss and tinnitus instantaneously. In addition, Traumatic Brain Injury 
(TBI), one of the signature wounds of these conflicts, is producing a 
whole new generation of soldiers with both mild and severe head 
injuries that are often accompanied by tinnitus.
    For millions of Americans, tinnitus becomes more than an annoyance. 
Chronic tinnitus can leave an individual feeling isolated and impaired 
in their ability to communicate with others. This isolation can cause 
anxiety, depression, and feelings of despair. Tinnitus affects an 
estimated 50 million, or more, people in the United States to some 
degree. Ten million to 12 million are chronically affected and one to 
two million are incapacitated by their tinnitus.
    Tinnitus disproportionately impacts veterans from all periods of 
service. According to the Department of Veterans Affairs own 
statistics, the number of veterans who are receiving service-connected 
disability compensation for tinnitus has risen steadily over the past 
10 years and spiked sharply in the past five. Since 2001, service-
connected disability for tinnitus has increased alarmingly by 18 
percent per year. In 2006, the cost to compensate veterans for tinnitus 
was $539 million. Based on that 5-year trend, the total cost of 
veterans receiving service-connected disability compensation for 
tinnitus alone will top $1 billion by the year 2011. Veterans with 
tinnitus may be awarded up to a 10 percent disability, which currently 
equals about $120 a month.
    Servicemembers are exposed to extreme noise conditions on a daily 
basis during both war and peacetime. During present-day combat, a 
single exposure to the impulse noise of an Improvised Explosive Device 
(IED) can cause tinnitus and hearing damage immediately. An impulse 
noise is a short burst of acoustic energy, which can be either a single 
burst or multiple bursts of energy. Most impulse noises, such as the 
acoustic energy emitted from an IED, occur within 1 second. However, 
successive rounds of automatic weapon fire are also considered impulse 
noise. According to the NationalInstitute for Occupational Safety and 
Health prolonged exposure from sounds at 85+ decibel levels (dBA) can 
be damaging, depending on the length of exposure. For every 3-decibel 
increase, the time an individual needs to be exposed decreases by half, 
and the chance of noise-induced hearing loss and tinnitus increases 
exponentially. A single exposure at from and IED at 140+ dBA may cause 
tinnitus and damage hearing immediately. Experiencing tinnitus on the 
battlefield also compromises situational awareness, which ``in 
theater'' can very literally mean the difference between life and 
death.
                      The Role of Medical Research
    Research has increased our knowledge about tinnitus, particularly 
within the past 10 years. The scientific community now understands that 
tinnitus is a condition of the auditory system, with its origins in the 
brain, and believes that a cure is possible. Over the past 10 years, 
the discoveries by the medical research community on tinnitus and its 
neurological origins have increased dramatically. The use of imaging 
technologies like Positron Emission Tomography (PET) scans, functional 
Magnetic Resonance Imaging (fMRI), Magnetic Resonance Spectroscopy 
(MRS) have allowed researchers to ``see'' tinnitus when it is present 
or active in a patient. Because of these discoveries we also now know 
that tinnitus a condition of the auditory system, not a disease of the 
ear, with many contributing factors to its onset, persistence and 
recurrence. Researchers now are developing ways to treat the origins of 
tinnitus, instead of treating the symptoms of tinnitus as they had done 
for many years before they knew about the brain's involvement.
    In the U.S. in 2008, there was only $3 million available between 
all public and private funding for tinnitus research. Compared with the 
staggering cost of simply compensating our veterans for tinnitus, this 
amount of research funding is woefully inadequate. We know that the 
existing therapies for tinnitus do not cure tinnitus. At best, they can 
help mitigate tinnitus. However these therapies do not work for every 
person afflicted with tinnitus. By continually increasing the 
opportunity for tinnitus research, better treatments for our veterans 
with tinnitus will be discovered on the road to a cure.
    With so many of our brave men and women in uniform returning from 
combat with tinnitus, this will only continue to be an unresolved 
problem if we don't work together on solutions for tinnitus. H.R. 2506 
will not only provide proper assessment of tinnitus for America's 
veterans but commit to researching this condition to help further the 
knowledge toward a cure. We offer our full support and expertise to any 
member of this panel who might like to know more about tinnitus.
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                                             Subcommittee on Health
                                                    Washington, DC.
                                                    October 1, 2009

Mr. Joseph L. Wilson
Deputy Director, Veterans Affairs and Rehabilitation Commission
The American Legion
1608 K Street, NW
Washington, D.C. 20006

Dear Mr. Wilson:

    Thank you for your testimony at the U.S. House of Representatives 
Committee on Veterans' Affairs Subcommittee on Health legislative 
hearing on H.R. 1017, H.R. 1036, H.R. 2504, H.R. 2559, H.R. 2735, H.R. 
3073, H.R. 3441, H.R. 2506, and Draft Discussions on Homelessness, 
Graduate Psychology Education, and Psychiatric Service Dogs that took 
place on October 1, 2009.
    Please provide answers to the following questions by 6:00 P.M. on 
Wednesday, October 7, 2009, to Jeff Burdette, Legislative Assistant to 
the Subcommittee on Health,

    1.  The majority of the bills at this legislative hearing focused 
on homeless legislation. Are there other legislative ideas to help 
homeless veterans that you would like to recommend?
    2.  Please give me your organization's views on the effectiveness 
of VA's outreach efforts to the Homeless community. Do you believe that 
enough is being done to target the homeless veteran population? Also, 
if you could, please comment on the current program VA has for 
preventing at-risk veterans from becoming homeless.
    3.  You expressed your support for H.R. 2735 and the draft 
discussion bill to improve per diem grant payments.

    H.R. 2735 would provide for an increase in per diem payments to 
reflect anticipated changes in the cost of furnishing services and to 
take into account the cost of providing services in a particular 
geographic area. It would also make these payments based on annual 
costs instead of daily costs.
    The draft discussion bill to improve per diem grants takes a 
different approach. It would maintain the payments based on daily 
costs, but would increase the reimbursement rates to the higher of the 
cost of daily cost of care as estimated by the grantee or $60 per bed, 
per day.
    Which of the two approaches to increasing per diem funding do you 
support and why?
    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers by October 7, 2009.

            Sincerely,

                                                 MICHAEL H. MICHAUD
                                                           Chairman

                               __________

The American Legion's answers to questions from October 1, 2009 Hearing
    Question 1: The majority of the bills at this legislative hearing 
focused on homeless legislation. Are there other legislative ideas to 
help homeless veterans that you would like to recommend?

    Response: The American Legion supports legislation that would 
authorize the Department of Housing and Urban Development (HUD) to 
provide housing assistance to private nonprofit organizations and 
consumer cooperatives to expand the supply of permanent affordable 
housing for homeless veterans and their families along with:

    <bullet>  Expanding the highly successful HUD-VA Supportive Housing 
(HUD-VASH) Program, by authorizing 20,000 vouchers annually and making 
the program permanent;
    <bullet>  Establishing a grant program that would provide 
assistance to veterans who are at-risk of being homeless; and,
    <bullet>  Requiring HUD to submit a comprehensive annual report to 
Congress on the housing needs of homeless veterans.

    The American Legion has no other recommendations at this time.

    Question 2: Please give me your organization's views on the 
effectiveness of VA's outreach efforts to the Homeless community. Do 
you believe that enough is being done to target the homeless veteran 
population? Also, if you could, please comment on the current program 
VA has for preventing at-risk veterans from becoming homeless.

    Response: In recent years, VA has done a respectable job in 
responding to the needs of homeless veterans. In addition, there has 
been a significant drop in the homeless veterans' numbers over the last 
couple of years due to VA's homeless programs and their outreach to 
homeless care service providers. Please note that adequate funding and 
staffing are still obstacles to VA better serving our homeless veteran 
community.
    VA has to do a better job at assisting homeless women veterans and 
those individuals with families. Homeless veterans' service providers' 
clients have historically been almost exclusively male. That is 
changing as more women veterans, especially those with young children, 
have sought help. Additionally, the approximately 200,000 female Iraq 
veterans are isolated during and after deployment making it difficult 
to find gender-specific peer-based support. Reports show that one of 
every ten homeless veterans under the age of 45 is now a woman. Access 
to gender appropriate care of these veterans is essential. These 
homeless women and families have unique challenges and needs in getting 
reintegrated back into mainstream society that should be addressed by 
VA.
    Another group of veterans in need of VA assistance is those who are 
at-risk of becoming homeless. VA has been working on implementing 
programs to assist at-risk veterans, to prevent them from losing their 
homes; however, these programs have yet to come to fruition.

    Question 3: You expressed your support for H.R. 2735 and the draft 
discussion bill to improve per diem grant payments.
    H.R. 2735 would provide for an increase in per diem payments to 
reflect anticipated changes in the cost of furnishing services and to 
take into account the cost of providing services in a particular 
geographic area. It would also make these payments based on annual 
costs instead of daily costs.
    The draft discussion bill to improve per diem grants takes a 
different approach. It would maintain the payments based on daily 
costs, but would increase the reimbursement rates to the higher of the 
cost of daily cost of care as estimated by the grantee or $60 per bed, 
per day.
    Which of the two approaches to increasing per diem funding do you 
support and why?

    Response: The American Legion supports rate increases which will 
enable homeless care service providers to provide more supportive 
services to homeless veterans. We recognize the benefits of both H.R. 
2735 and the draft discussion bill. The passage of either one of these 
pieces of legislation would increase the funds available to assist 
homeless veterans; however, The American Legion does not believe the 
homeless care service provider should be locked into the $60 per bed in 
the drafted legislation due to the volatile economy.
    Please feel free to contact me @ 202-861-2700 ext. 2998 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d2b8a5bbbea1bdbc92beb7b5bbbdbcfcbda0b5">[email&#160;protected]</a> if you have questions.

    Thank you,

                                                   Joseph L. Wilson
    Deputy Director, Veterans Affairs and Rehabilitation Commission

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                             Subcommittee on Health
                                                    Washington, DC.
                                                    October 1, 2009
Mr. Justin Brown
Legislative Associate, National Legislative Service
Veterans of Foreign Wars of the United States
200 Maryland Avenue, SE
Washington, D.C. 20006

Dear Mr. Brown:

    Thank you for your testimony at the U.S. House of Representatives 
Committee on Veterans' Affairs Subcommittee on Health legislative 
hearing on H.R. 1017, H.R. 1036, H.R. 2504, H.R. 2559, H.R. 2735, H.R. 
3073, H.R. 3441, H.R. 2506, and Draft Discussions on Homelessness, 
Graduate Psychology Education, and Psychiatric Service Dogs that took 
place on October 1, 2009.
    Please provide answers to the following questions by 6:00 P.M. on 
Wednesday, October 7, 2009, to Jeff Burdette, Legislative Assistant to 
the Subcommittee on Health.

    1.  The majority of the bills at this legislative hearing focused 
on homeless legislation. Are there other legislative ideas to help 
homeless veterans that you would like to recommend?
    2.  Please give me your organization's views on the effectiveness 
of VA's outreach efforts to the Homeless community. Do you believe that 
enough is being done to target the homeless veteran population? Also, 
if you could, please comment on the current program VA has for 
preventing at-risk veterans from becoming homeless.
    3.  You expressed your support for H.R. 2735 and the draft 
discussion bill to improve per diem grant payments.

    H.R. 2735 would provide for an increase in per diem payments to 
reflect anticipated changes in the cost of furnishing services and to 
take into account the cost of providing services in a particular 
geographic area. It would also make these payments based on annual 
costs instead of daily costs.
    The draft discussion bill to improve per diem grants takes a 
different approach. It would maintain the payments based on daily 
costs, but would increase the reimbursement rates to the higher of the 
cost of daily cost of care as estimated by the grantee or $60 per bed, 
per day
    Which of the two approaches to increasing per diem funding do you 
support and why?
    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers by October 7, 2009.

            Sincerely,

                                                 MICHAEL H. MICHAUD
                                                           Chairman

                               __________

       Prepared Statement of Justin Brown, Legislative Associate,
     National Legislative Service, Veterans of Foreign Wars of the
  United States, Response to Questions Submitted by Chairman Michaud,
  Committee on Veterans' Affairs, Subcommittee on Health United States
     House of Representatives with Respect to H.R. 1017, H.R. 1036,
       H.R. 2504, H.R. 2559, H.R. 2735, H.R. 3073, and H.R. 3441
                       Submitted October 08, 2009
    Question 1: The majority of the bills at this legislative hearing 
focused on homeless legislation. Are there other legislative ideas to 
help homeless veterans that you would like to recommend?

    Response: The Veterans of Foreign Wars is fully supportive of the 
zero-tolerance stance President Obama has taken on veterans' 
homelessness. There are a number of legislative fixes being proposed. 
However, the VFW believes that none of these pieces of legislation 
adequately address the issue of veterans' homelessness in its totality. 
For these reasons, the VFW suggests the administration introduce its 
plan, and the requisite requirements necessary, to end and prevent 
homelessness for America's veterans. A complete and thorough approach 
to eradicating homelessness is the new direction in which we should be 
progressing. A piece by piece approach will not solve the larger 
problem at hand--prevention and eradication of veterans' homelessness.
    One particular concern of the VFW's in regards to preventing 
veterans' homelessness is the need to revamp VA's VR&E program for 
disabled veterans. We have attached five primary recommendations for 
doing so below. We believe that if these recommendations were adopted, 
the VR&E program would have better results, prevent at-risk disabled 
veterans from becoming homeless, and provide increased investment for 
veterans and our government.

    1.  The Delimiting Date for VR&E Needs to be Removed
    2.  VR & E's Educational Stipend Needs Parity in Comparison to 
Chapter 33
    3.  For Many Disabled Veterans with Dependents VR&E Education 
Tracks are Insufficient
    4.  VR&E Performance Metrics Need to be Revised to Emphasize Long-
term Success
    5.  VR&E Needs to Reduce Time from Enrollment to Start of Services

    Question 2: Please give me your organization's views on the 
effectiveness of VA's outreach efforts to the Homeless community. Do 
you believe that enough is being done to target the homeless veteran 
population? Also, if you could, please comment on the current program 
VA has for preventing at-risk veterans from becoming homeless.

    Response: The VFW has no substantiated data to suggest VA's 
outreach efforts are effective. While VA's data suggests the numbers of 
homeless veterans has fallen in recent years, the VFW remains concerned 
that due to the current economic situation these numbers will rise. 
Nearly one million veterans are currently unemployed and the need for 
increased services for at risk and homeless veterans has never been 
greater.

    Question 3: You expressed your support for H.R. 2735 and the draft 
discussion bill to improve per diem grant payments.

    Response: H.R. 2735 would provide for an increase in per diem 
payments to reflect anticipated changes in the cost of furnishing 
services and to take into account the cost of providing services in a 
particular geographic area. It would also make these payments based on 
annual costs instead of daily costs.
    The draft discussion bill to improve per diem grants takes a 
different approach. It would maintain the payments based on daily 
costs, but would increase the reimbursement rates to the higher of the 
cost of daily cost of care as estimated by the grantee or $60 per bed, 
per day.
    Which of the two approaches to increasing per diem funding do you 
support and why?
    The VFW supports both pieces of legislation because they both 
substantially increase funding to provide relief for homeless veterans. 
However, the VFW believes this question would be better answered by 
those who receive Federal assistance for providing assistance to our 
Nation's homeless veterans.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                             Subcommittee on Health
                                                    Washington, DC.
                                                    October 1, 2009
Mr. Richard F. Weidman
Executive Director for Policy and Government Affairs
Vietnam Veterans of America
8605 Cameron Street, Suite 400
Silver Spring, MD 20910

Dear Mr. Weidman:

    Thank you for your testimony at the U.S. House of Representatives 
Committee on Veterans' Affairs Subcommittee on Health legislative 
hearing on H.R. 1017, H.R. 1036, H.R. 2504, H.R. 2559, H.R. 2735, H.R. 
3073, H.R. 3441, H.R. 2506, and Draft Discussions on Homelessness, 
Graduate Psychology Education, and Psychiatric Service Dogs that took 
place on October 1, 2009.
    Please provide answers to the following questions by 6:00 P.M. on 
Wednesday, October 7, 2009, to Jeff Burdette, Legislative Assistant to 
the Subcommittee on Health.

    1.  The majority of the bills at this legislative hearing focused 
on homeless legislation. Are there other legislative ideas to help 
homeless veterans that you would like to recommend?
    2.  Please give me your organization's views on the effectiveness 
of VA's outreach efforts to the Homeless community. Do you believe that 
enough is being done to target the homeless veteran population? Also, 
if you could, please comment on the current program VA has for 
preventing at-risk veterans from becoming homeless.
    3.  You expressed your support for H.R. 2735 and the draft 
discussion bill to improve per diem grant payments.

    H.R. 2735 would provide for an increase in per diem payments to 
reflect anticipated changes in the cost of furnishing services and to 
take into account the cost of providing services in a particular 
geographic area. It would also make these payments based on annual 
costs instead of daily costs.
    The draft discussion bill to improve per diem grants takes a 
different approach. It would maintain the payments based on daily 
costs, but would increase the reimbursement rates to the higher of the 
cost of daily cost of care as estimated by the grantee or $60 per bed, 
per day.
    Which of the two approaches to increasing per diem funding do you 
support and why?

    4.  In your testimony, you recommended creating a ``service center 
staffing/operational'' grant.

    Wouldn't H.R. 2735 accomplish this, as there is language creating a 
separate grant fund for service center personnel? Please provide 
clarification.

    5.  In your testimony, you question whether the grant and per diem 
funding should be considered ``fee for service'' instead of a 
``reimbursement''.

          a. Is distinction between the two a matter of when the GPD 
        grantee would get paid? In other words, the grantee would get 
        paid before delivering the services based on an estimated cost 
        under the ``fee-for-service'' model, whereas the grantee gets 
        paid after delivering the services under the ``reimbursement'' 
        model?

          b. If the above understanding is accurate, how would you 
        respond to potential concerns about the VA's diminished ability 
        to oversee the program under the ``fee-for-service'' model?

    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers by October 7, 2009.

            Sincerely,

                                                 MICHAEL H. MICHAUD
                                                           Chairman

                               __________

              Responses to questions from October 1, 2009
                     U.S. House of Representatives
                     Committee on Veterans' Affairs
                         Subcommittee on Health

    1.  The majority of the bills at this legislative hearing focused 
on homeless legislation. Are there other legislative ideas to help 
homeless veterans that you would like to recommend?

    Comments to this question are included in many of the comments 
found below.

    2.  Please give me your organization's views on the effectiveness 
of VA's outreach efforts to the Homeless Community. Do you believe that 
enough is being done to target the homeless veteran population? Also, 
if you could, please comment on the current program VA has for 
preventing at-risk veterans from becoming homeless.

    The VA needs to develop a strategic plan focusing on outreach to 
homeless veterans. There needs to be a separate line in the VA budget 
for outreach to homeless and at-risk veterans, in addition to a 
separate line item for outreach and education of all veterans and their 
families.
    Attention to ensuring the continuance of Day Service Centers and 
the creation of new service center for homeless veterans are a vital 
component to outreach. Veterans spread the word. If there is the 
legislative creation of staff/operational grants for Service Centers, 
care must be taken to include the operational and administrative 
dollars required to provide full service.
    The VA could encourage cities and municipalities to carve our 
specific shelters or beds in one specific shelter to accommodate 
homeless veterans in an effort to consolidate VA outreach and manpower, 
making this effort more efficient and effective.
    VVA would strongly support added verbiage to this legislation that 
would establish a ``hot line'' for homeless or at-risk veterans. This 
hotline could be modeled after the VA's Suicide Hotline. Additionally, 
it could be ``manned'' by homeless or formerly homeless veterans 
through the utilization of the Compensated Work Therapy program 
participants. We ask, who better to assist someone who is homeless or 
at-risk than someone who has actually been there seeking the same 
assistance.
    There needs to be a grassroots media ``blitz'' by the VA focusing 
on the city and municipality shelter systems throughout the country. 
Many homeless veterans in the shelter systems don't know there is help 
out there for them from the VA.

    3.  You expressed your support for H.R. 2735 and the draft 
discussion bill to improve per diem grant payments.

    H.R. 2735 would provide for an increase in per diem payments to 
reflect anticipated changes in the cost of furnishing services and to 
take into account the cost of providing services in a particular 
geographic area. It would also make these payments based on annual 
costs instead of daily costs.

    The draft discussion bill to improve per diem grants takes a 
different approach. It would maintain the payments based on daily 
costs, but would increase the reimbursement rates to the higher of the 
cost of daily care as estimated by the grantee or $60 per bed, per day.
    Which of the two approaches to increasing per diem funding do you 
support and why?
    VVA would support any increase in per diem payments, so long as the 
per diem is based on actual anticipated budgetary expenses, not based 
on past year expenses. Non-profits cannot enhance services or hire 
additional staff before they are able to access the dollars of 
increased per diem. It sets in place a vicious cycle of need. The 
agencies have a set per diem; they require more staff; they haven't 
shown it as an expense on the approved per diem they are receiving; 
they can't afford to hire staff. To do so would place them at high risk 
and this action could be suicidal for a small non-profit. It places 
them at risk with creditors or the agency has to pay interest on the 
use of its line of credit until they can be approved for higher per 
diem. This interest is then an added expense to the program--a cost 
they cannot recoup.

    4.  In your testimony, you recommended creating a ``service center 
staffing/operational'' grant. Wouldn't H.R. 2735 accomplish this, as 
there is language creating a separate grant fund for service center 
personnel? Please provide clarification.

    Absolutely. VVA has long supported and advocated for the creation 
of ``service center staffing/operational'' grants. Just as GPD 
residential programs can cover some operational costs with its limited 
per diem, these service centers need the enhanced staffing/operational 
grants in order to provide quality and comprehensive services. This 
will ultimately increase the successful outcomes of the programs and 
the veterans. It can easily be funded in the exact way as the 
previously created Special Needs Grants.

    5.  In your testimony, you question whether the grant and per diem 
funding should be considered ``fee-for-service'' instead of a 
``reimbursement''.

          a. Is distinction between the two a matter of when the GPD 
        grantee would get paid? In other words, the grantee would get 
        paid before delivering the services based on an estimated cost 
        under the ``fee-for-service'' model, whereas the grantee gets 
        paid after delivering the services under the ``reimbursement'' 
        model?

    There are several sides to this question.
    Yes, it is a matter of when the GPD grantee would get paid. Under 
the current per diem systems, many GPD grantees wait for months to 
receive their ``reimbursement''.
    However there also exist other hurdles. Presently per diem is based 
on previous year expenses, not anticipated expenses, which causes the 
program to fall short in the agencies operating year. This leaves the 
agencies without the funds to increase the services or staffing because 
they do not have the money to do any advanced or ``real time'' 
enhancements to the program.
    In actuality, GPD is ``fee for service''. The only drawback is that 
it is not set up as a contract agreement as utilized in the past by the 
VA where agencies were paid as contractors. Today's methodology works 
on the approach that grantees are paid based on past accounted and 
audited expenses, not anticipated expenses.
    Another thought is to review the process that HUD uses for its 
grantees. One solution to consider would be to set up GPD disbursements 
in a ``draw down'' account similar to the system utilized by the U.S. 
Department of Housing and Urban Development, whereby agencies submit 
their projected budgets, are allocated the funds, and draw down on the 
allocated funds throughout the year. At the end of year reconciliations 
and adjustments as made.
    VVA suggests the Committee also review the process utilized by 
state veterans' homes in providing them per diem.

          b. If the above understanding is accurate, how would you 
        respond to potential concerns about the VA's diminished ability 
        to oversee the program under the ``fee-for-service'' model?

    With the requirement for intensive annual inspections by the VA on 
all GPD programs, VVA does not see any potential diminished ability by 
the VA in the oversight of the programs. The method by which funds are 
paid has no effect on the VA's ability to provide oversight.

    Additional Comments:

    With regard to the draft discussion bill to eliminate the required 
reduction in the amount of per diem payments provided to entities 
furnishing services to homeless veterans to account for other sources 
of income, VVA strongly supports this legislation. It is our contention 
that many small non-profit agencies must find outside funding to assist 
in providing and enhancing services to homeless veterans. In fact, non-
profits are encouraged to seek additional funding and are very creative 
in acquiring additional funding.
    Presently, those agencies that charge a ``residential fee'' to the 
veterans in transitional housing must include those nominal fees as 
``income'' even though those funds are turned back into the program to 
enhance or improve services. These dollars are also needed by the 
agency to cover expenses in other related veteran programs that were 
created under grant awards from other Federal agencies but do not have 
operational or appropriate administrative funding. These other programs 
ultimately are available and utilized by the homeless veterans in the 
agencies GPD programs.
    The inclusion of these ``fees'' as income to the GPD program often 
times reduces the amount of per diem a grantee will receive because it 
decreases the overall cost of the program thereby reducing the per diem 
for which the agency is eligible. This does not help in creating an 
atmosphere of creativity. VVA believes that these ``fees'' should not 
be included as income
    Under the draft discussion legislation to improve per diem payments 
for organizations assisting homeless veterans, VVA strongly supports 
the inclusion of verbiage that would address funding to an existing 
program for the expansion of its original program. In the past, some 
very successful GPD programs identified a need for increased bed space 
based on the number of veterans requesting admission. Requesting 
program expansions was done because in the original grant the agency 
could not know or anticipate with true accuracy the reality of the need 
for bed space. They were forced to make educated guesses. (If you build 
it they will come) These programs requested additional beds under a 
``per diem only'' (PDO) grant process and were awarded funds to 
increase their overall program beds.
    However, because the original grant and the PDO grant were awarded 
at different times they have separate ``project numbers,'' even though 
both grants were for the same program with the same expenses. Hence, 
they are required to divide out, by percentage, the number of beds, and 
the per diem rates, under each project number in the required reporting 
to the VA. This calculation of percentage for each project number also 
is a hindrance in calculating the per diem rate for each project. 
Everything related to the program must be divided by percentage and 
every veteran who changes bedrooms has to be tracked by project number 
in applying for every month's per diem reimbursement request. It causes 
one whole program to be calculated for per diem in two separate and 
unequal parts which results in one program have two different per diem 
rates. This is an accounting, bookkeeping, and records keeping 
nightmare.
    VVA strongly supports the consolidation of PDO grants into the 
capital grant under which it was awarded, combining them into one 
Project Number.
    Regarding the draft bill, The End Veteran Homelessness Act, VVA 
strongly urges that language addressing those veterans who do not meet 
the criteria for Mental Health Intensive Case Management (MHICM) be 
included in this legislation. Many of these veterans do not meet the 
criteria for HUD-VASH because they require intensive case management. 
They also do not meet the criteria for MHICM. They are, in essence, too 
sick for one, but not sick enough for the other.
    These compromised veterans are left without recourse to fend for 
themselves in the community. They are targets; easy prey for the 
ruthless. They will return to homelessness. Or they may not live to do 
even that. VVA strongly urges inclusion in this bill that would have 
provided the necessary case management for those individuals who would 
otherwise be eligible for HUD-VASH.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                             Subcommittee on Health
                                                    Washington, DC.
                                                    October 1, 2009
Mr. Blake Ortner
Senior Associate Legislative Director
Paralyzed Veterans of America
801 18th Street, NW
Washington, D.C. 20006

Dear Mr. Ortner:

    Thank you for your testimony at the U.S. House of Representatives 
Committee on Veterans' Affairs Subcommittee on Health legislative 
hearing on H.R. 1017, H.R. 1036, H.R. 2504, H.R. 2559, H.R. 2735, H.R. 
3073, H.R. 3441, H.R. 2506, and Draft Discussions on Homelessness, 
Graduate Psychology Education, and Psychiatric Service Dogs that took 
place on October 1, 2009.
    Please provide answers to the following questions by 6:00 P.M. on 
Wednesday, October 7, 2009, to Jeff Burdette, Legislative Assistant to 
the Subcommittee on Health.

    1.  The majority of the bills at this legislative hearing focused 
on homeless legislation. Are there other legislative ideas to help 
homeless veterans that you would like to recommend?
    2.  Please give me your organization's views on the effectiveness 
of VA's outreach efforts to the Homeless community. Do you believe that 
enough is being done to target the homeless veteran population? Also, 
if you could, please comment on the current program VA has for 
preventing at-risk veterans from becoming homeless.
    3.  You expressed your support for H.R. 2735 and the draft 
discussion bill to improve per diem grant payments.

    H.R. 2735 would provide for an increase in per diem payments to 
reflect anticipated changes in the cost of furnishing services and to 
take into account the cost of providing services in a particular 
geographic area. It would also make these payments based on annual 
costs instead of daily costs.
    The draft discussion bill to improve per diem grants takes a 
different approach. It would maintain the payments based on daily 
costs, but would increase the reimbursement rates to the higher of the 
cost of daily cost of care as estimated by the grantee or $60 per bed, 
per day.
    Which of the two approaches to increasing per diem funding do you 
support and why?

    4.  You expressed PVA's concerns with the draft discussion bill to 
provide 25 percent of the per diem funding for organizations that do 
not meet the VA's current per diem requirements. The intent of this 
bill was to target smaller non-profits with less capacity than the 
bigger organizations. This would also have the effect of the money 
following the veteran so that the veteran has more choice and is not 
limited to help from the current list of organizations receiving per 
diem funding. Do you have suggestions on how we can help the smaller 
non-profits who help, let's say 70 percent instead of the required 75 
percent of homeless veterans without opening the door to non-profits 
that do not serve any or just 1 percent of homeless veterans?

    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers by October 7, 2009.

            Sincerely,

                                                 MICHAEL H. MICHAUD
                                                           Chairman

                               __________

                                      Paralyzed Veterans of America
                                                    Washington, DC.
                                                    October 6, 2009
Honorable Michael Michaud
Chairman
House Committee on Veterans' Affairs
Subcommittee on Health
338 Cannon House Office Building
Washington, D.C. 20515

Dear Chairman Michaud:

    On behalf of Paralyzed Veterans of America (PVA), I would like to 
thank you for the opportunity to present our views on the various 
pieces of legislation considered by the Subcommittee at the hearing on 
October 1, 2009. We are particularly pleased that the Subcommittee 
continues to focus a great deal of interest on assisting homeless 
veterans overcome their situations in order to become productive 
members of society again.
    Due to the short suspense for this reply, PVA has only been able to 
conduct a limited analysis of the questions to prepare our response. We 
would ask that as the Subcommittee staff continues the refinement of 
this valuable legislation, they continue to permit PVA to provide input 
to assist in overcoming the tragic problem facing many of our veterans.
    We have included with our letter a response to each of the 
questions that you presented following the hearing on October 1, 2009. 
Thank you very much.

            Sincerely,

                                                         Carl Blake
                                      National Legislative Director

                                 ______
                                 

    Question 1: The majority of the bills at this legislative hearing 
focused on homeless legislation. Are there other legislative ideas to 
help homeless veterans that you would like to recommend?

    Response: PVA has been a long time supporter of homeless veterans 
and legislation to reduce the number of veterans living on the street. 
The legislation addressed during the hearing dealt with many issues PVA 
is interested in. At this time, there are no additional issues that PVA 
would like to recommend; however, we look forward to working with the 
Subcommittee staff on future legislation that we may determine would be 
a benefit to homeless veterans.

    Question 2: Please give me your organization's views on the 
effectiveness of VA's outreach efforts to the Homeless community. Do 
you believe that enough is being done to target the homeless veterans' 
population? Also, if you could, please comment on the current program 
VA has for preventing at-risk veterans from becoming homeless.

    Response: VA's outreach programs have had limited effectiveness, 
though PVA believes this may have more to do with limited funding 
rather than bad programs. This was part of the reason for PVA's support 
of H.R. 2559, the ``Help Our Homeless Veterans Act.'' While VA argues 
that they already have this authority and resist the idea of a program 
targeting only veterans as prescribed in the legislation, in particular 
women veterans, PVA believes that a program narrowly focused at 
veterans is appropriate. Veterans are a unique population with unique 
perspectives. A program that specifically addresses the characteristics 
of veterans, for example the idea that ``veterans do not leave their 
comrades behind'' or that veterans ``take care of their own,'' may 
appeal to veterans resistant to coming in off the street. They may see 
it as a more understanding or welcoming environment. While these are 
only two examples, PVA believes that a targeted program may be more 
effective than one aimed generally at homelessness.
    In addition, outreach that uses non-standard media outlets may 
better reach those who are at risk of becoming homeless, or as 
explained in our testimony, approaches aimed at family or friends of 
those at risk of homelessness. These may be the people who can best 
encourage an at-risk veteran to seek assistance or benefits they may be 
entitled to.

    Question 3: You expressed your support for H.R. 2735 and the draft 
discussion bill to improve per diem grant payments.
    H.R. 2735 would provide for an increase in per diem payments to 
reflect anticipated changes in the cost of furnishing services and to 
take into account the cost of providing services in a particular 
geographic area. It would also make these payments based on annual 
costs instead of daily costs.
    The draft discussion bill to improve per diem grants takes a 
different approach. It would maintain the payments based on daily 
costs, but would increase the reimbursement rates to the higher of the 
cost of daily cost of care as estimated by the grantee or $60 per bed, 
per day.
    Which of the two approaches to increasing per diem funding do you 
support and why?

    Response: PVA does not have a preference for either bill. Both are 
approaches that may increase the number of veterans served and the 
quality of services for homeless veterans. VA's homeless veterans' 
programs have historically been underfunded and increases are needed.
    PVA's greatest concern with H.R. 2735 was with the possible impact 
on the total number of veterans served if increased funds are provided 
to geographic areas with no additional funds available to offset the 
reduced funds for other localities.
    PVA recommends an analysis be conducted to determine the impact on 
total number of veterans served by these changes in funding methods. 
The Subcommittee should then recommend an increase in funding to 
maintain the level of services for homeless veterans to offset any 
reduction in total services due to increased payments to high cost 
geographic areas or by the establishment of the $60 guarantee per bed 
per day.

    Question 4: You expressed PVA's concerns with the draft discussion 
bill to provide 25 percent of the per diem funding for organizations 
that do not meet the VA's current per diem requirements. The intent of 
this bill was to target smaller non-profits with less capacity that the 
bigger organizations. This would also have the effect of the money 
following the veterans so that the veteran has more choice and is not 
limited to help from the current list of organizations receiving per 
diem funding. Do you have suggestions on how we can help the smaller 
on-profits who help, let's say 70 percent instead of the required 75 
percent of homeless veterans without opening the door to non-profits 
that do not serve any or just 1 percent of homeless veterans?

    Response: While PVA understands the interest in providing homeless 
services to a wider range of homeless veterans including those served 
by the smaller non-profits, requiring that the Secretary ``shall ensure 
that 25 percent of funds available'' to these providers will force the 
Secretary to provide 25 percent of the already limited VA homeless 
funds in a less efficient manner. As a minimum, the legislation should 
be changed from ``shall ensure that'' to ``may provide for.'' This 
would give the Secretary the flexibility to possibly fund these smaller 
homeless veteran providers if it will provide greater benefits to 
veterans. However, PVA firmly believes that some minimum floor for 
services to homeless veterans should be established. For example, if 
the homeless services provider must ``furnish services to homeless 
individuals, of which not less than 25 percent are veterans,'' this may 
encourage the provider to conduct additional outreach to locate greater 
numbers of homeless veterans. For smaller providers, with limited 
numbers of beds, these numbers should not prove overly burdensome.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                             Subcommittee on Health
                                                    Washington, DC.
                                                    October 1, 2009
Honorable Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, D.C. 20240

Dear Secretary Shinseki:

    Thank you for the testimony of Peter H. Dougherty, Director of 
Homeless Veterans Programs in the Office of Public and 
Intergovernmental Affairs at the U.S. House of Representatives 
Committee on Veterans' Affairs Subcommittee on Health legislative 
hearing on H.R. 1017, H.R. 1036, H.R. 2504, H.R. 2559, H.R. 2735, 
H.R. 3073, H.R. 3441, H.R. 2506, and Draft Discussions on Homelessness, 
Graduate Psychology Education, and Psychiatric Service Dogs that took 
place on October 1, 2009.
    Please provide answers to the following questions by November 12, 
2009, to Jeff Burdette, Legislative Assistant to the Subcommittee on 
Health.

    1.  Mr. Dougherty's testimony noted that the increase in 
authorization level for the GPD program provided in H.R. 2504 is 
insufficient to meet the goal of ending homelessness among our veterans 
within 5 years. What is your estimate of the funding needed for the GPD 
program to help meet the goal of ending veteran homelessness?
    2.  With regard to H.R. 2559, we recognize the broad statutory 
authority that the VA has for outreach. In addition to section 532, the 
VA has an entire chapter dedicated to outreach. The problem is that 
despite this broad outreach authority, we still have not seen much 
outreach materials from the VA in the way of a media campaign. This is 
why H.R. 2559 specifically directs the VA to target the issue of 
homelessness. Can you tell us whether the VA already has plans in place 
for a national media campaign addressing homelessness among veterans?
    3.  In Mr. Dougherty's testimony on H.R. 2735 he stated that ``GPD 
is designed to support transitional housing for Veterans; however, in 
the last several years the program has expanded its range of services 
toward permanent housing to provide veterans stable and continuous 
care. VA generally supports this bill, but is apprehensive that this 
legislation will result in policy problems and lead to significantly 
higher costs.'' My question is two fold:

          What are the policy problems you are speaking of and please 
        explain how it would lead to significantly higher costs.

    4.  The intent of H.R. 3073 was to help veterans who are in 
imminent danger of being homeless by providing payments for rent, 
mortgage, and/or utilities arrears for 3 months. Mr. Dougherty noted in 
his testimony that 3 months is too short of a time frame to remove the 
risk of homelessness. What is your recommended time frame for providing 
short-term assistance? Are you confident that the VA's existing efforts 
and authorities are sufficient to target and help veterans who are just 
one rent payment away from being homeless? Please explain what the VA's 
current preventive measures are for at-risk veterans.
    5.  I understand that the VA did not have sufficient time to 
comment on 
H.R. 3441, which would result in veterans automatically enrolling for 
VA health care. Earlier this year, Secretary Shinseki talked about 
wanting to create a database which would make it easier for the veteran 
to enroll and apply for VA services. Please provide a status update and 
explain whether the VA has made progress on this.
    6.  Please comment on VVA's idea of having only one project number 
in the case where residential programs wish to expand on original 
program. It seems that there is an added burden placed on the 
organizations because of the separate project numbers. Is there some 
barrier that exists that would preclude VA from streamlining this 
process so it is not so burdensome to those that wish to help homeless 
veterans?
    7.  You expressed your support for section ome of H.R. 2735.

    H.R. 2735 would provide for an increase in per diem payments to 
reflect anticipated changes in the cost of furnishing services and to 
take into account the cost of providing services in a particular 
geographic area. It would also make these payments based on annual 
costs instead of daily costs.
    The draft discussion bill to improve per diem grants takes a 
different approach. It would maintain the payments based on daily 
costs, but would increase the reimbursement rates to the higher of the 
cost of daily cost of care as estimated by the grantee or $60 per bed, 
per day.
    Which of the two approaches to increasing per diem funding do you 
support and why?
    Additionally, please answer the following question for Congressman 
Donnelly:
        What specifically is the VA doing to assess and meet the 
        psychiatric needs of our wounded warriors? Please identify any 
        shortcomings in the current training of psychologists. Is there 
        a shortage in trained personnel? The HHS has a proven graduate 
        program for psychologists--can VA work with them and if not, 
        why?
    Thank you again for taking the time to answer these questions. The 
Committee looks forward to receiving your answers by November 12, 2009.

            Sincerely,

                                                 MICHAEL H. MICHAUD
                                                           Chairman

                                 <F-dash>

                        Questions for the Record
                       Hon. Bob Filner, Chairman
                         Subcommittee on Health
                   House Committee Veterans' Affairs
   Legislative Hearing on H.R. 1017, H.R. 1036, H.R. 2559, H.R. 2735,
   Homelessness, H.R. 3073 H.R. 3441, H.R. 2506 and Draft Discussions
     on Graduate Psychology Education, and Psychiatric Service Dogs
                            October 1, 2009
    Question 1: Mr. Dougherty's testimony noted that the increase in 
authorization level for the GPD program provided in H.R. 2504 is 
insufficient to meet the goal of ending homelessness among our veterans 
within 5 years. What is your estimate of the funding needed for the GPD 
program to help meet the goal of ending veteran homelessness?

    Response: At the hearing, VA testimony stated: ``VA estimates that 
the proposed maximum annual authorization level of $200 million would 
be inadequate for the amounts of VA projects delivering comprehensive 
services through this important program. We recommend that a specific 
authorization funding level be dropped from the statute. This is a well 
established VA program and need not be constrained.''
    The Homeless Providers Grant and Per Diem Program (GPD) has 
assisted tens of thousands of Veterans reconnect with employment and 
families, while serving as a bridge to community independent living. VA 
has found that there are numerous communities and many Veterans that 
benefit from this program and we find, particularly in small and rural 
communities, that this program has served to bring together a multitude 
of service providers as it has aided these homeless Veterans. We hope 
to add additional transitional housing for Veterans in our attempt to 
end homelessness among Veterans as part of a comprehensive plan for the 
next 5 years. An increased authorization of appropriations would allow 
the GPD Program to continue to be one of the cornerstone programs of 
VA's efforts.
    Under current law, per diem payments under this program are tied to 
the domiciliary care rate under the State Home Program. As VA attempts 
to ensure that the level of services in the existing program remains 
high and expands the availability to women Veterans, Veterans living on 
tribal lands and in rural areas, we will need additional funding to 
support the more than 600 existing community organizations that provide 
transitional housing services to Veterans.

    Question 2: With regard to H.R. 2559, we recognize the broad 
statutory authority that the VA has for outreach. In addition to 
section 532, the VA has an entire chapter dedicated to outreach. The 
problem is that despite this broad outreach authority, we still have 
not seen much outreach materials from the VA in the way of a media 
campaign. This is why H.R. 2559 specifically directs the VA to target 
the issue of homelessness. Can you tell us whether the VA already has 
plans in place for a national media campaign addressing homelessness 
among veterans?

    Response: Congress has already provided the needed authority under 
Public Law 110-389, which created section 532 of title 38. This section 
authorized the Secretary to purchase advertising in national media 
outlets to promote awareness of benefits administered by the Secretary, 
including programs to assist homeless Veterans. VA believes this 
authority is preferable to H.R. 2559 as it does not require VA to 
target only Veterans. Targeting Veterans alone will not be sufficient 
to achieve the goal of ending Veteran homelessness, while a coordinated 
national campaign reaching Veterans, those who provide benefits and 
services, as well as the general public can help achieve this goal.
    The effort to reach homeless Veterans has multiple factors 
including having personal contact not only by VA staff but in 
coordination with national, state and local partners. VA actively 
coordinates with our partners to engage and serve Veterans who are 
homeless.
    To enhance current outreach efforts, a call center is being 
developed, which will provide homeless/at risk Veterans with timely and 
coordinated access to VA services and disseminate information to 
concerned family members and non-VA providers about all the programs 
and services available to serve these Veterans. Information and 
promotion for the call center will be disseminated through a national 
media campaign that will reach both community service providers and 
Veterans. This campaign will be comprised of an outreach and awareness 
public service effort, focused on increasing the public's awareness of 
services provided through VA, and the VA's efforts to end homelessness 
among Veterans.

    Question 3: In Mr. Dougherty's testimony on H.R. 2735 he stated 
that ``GPD is designed to support transitional housing for Veterans; 
however, in the last several years the program has expanded its range 
of services toward permanent housing to provide veterans stable and 
continuous care. VA generally supports this bill, but is apprehensive 
that this legislation will result in policy problems and lead to 
significantly higher costs.'' My question is two fold: What are the 
policy problems you are speaking of and please explain how it would 
lead to significantly higher costs.

    Response: VA is supportive of H.R. 2735, however, as we expressed 
at the hearing, we support section one to allow service centers 
receiving grants from VA to use these funds for staffing to ensure 
services are provided during specified hours, as well as on an as-
needed, unscheduled basis; however, we continue to have concerns 
regarding section two, which shifts from the ``per diem'' or ``daily 
cost of care'' approach to an ``annual cost of furnishing services.'' 
Though this change may offer VA's partners needed capital and funds at 
the beginning of the fiscal year to support their work, it would 
require significantly more detailed auditing as well as increased 
direct oversight by VA.
    As we testified, VA does not oppose removing the existing rate cap. 
Current law limits VA's GPD payments to the rate for state domiciliary 
care, and the difference between what VA pays and the actual cost is 
absorbed by the provider. Allowing the Secretary to establish the basis 
and the formula for payment based on cost and geographic location would 
increase the sustainability of community-based providers and promote 
increased and more comprehensive services for Veterans. We remain 
concerned the language of the bill is restrictive in that it only 
authorizes VA to increase the rate of payment from year to year; VA 
would be unable to respond to any situation or development that might 
lower the operating costs for grant recipients. As a result, VA could 
be forced to pay above-cost rates to providers. We continue to 
recommend the language be modified to say, ``adjust,'' instead of 
``increase.''
    In addition, the bill would no longer require the Secretary to 
consider the availability of other sources of income for grant 
recipients potentially providing more funding than needed.
    We would welcome the opportunity to discuss these issues with 
Committee staff so we can assist the Committee to fully evaluate the 
impact of this proposal.

    Question 4: The intent of H.R. 3073 was to help veterans who are in 
imminent danger of being homeless by providing payments for rent, 
mortgage, and/or utilities arrears for 3 months. Mr. Dougherty noted in 
his testimony, ``that 3 months is too short of a time frame to remove 
the risk of homelessness.'' What is your recommended time frame for 
providing short-term assistance? Are you confident that the VA's 
existing efforts and authorities are sufficient to target and help 
veterans who are just one rent payment away from being homeless? Please 
explain what the VA's current preventive measures are for at-risk 
veterans

    Response: VA continues to support preventive measures for at-risk 
Veterans in principle, but does not support H.R. 3073 due to certain 
portions being duplicative of existing statutory authority and because 
we think it would not make the best use of Department resources. We 
continue to welcome the opportunity to assist the Committee staff to 
develop language that addresses these concerns.
    The VA's Northeast Program Evaluation Center (NEPEC) states that in 
each of the past 2 years approximately 27,000 new users entered VA's 
specialized homeless services. Prevention efforts designed to reduce 
this influx will be important to VA's ability to meet its goal of 
ending homelessness among Veterans. Prevention focused programs 
include:

    1.  Veterans Justice Outreach (VJO): The purpose of the VJO 
initiative is to avoid the unnecessary criminalization of mental 
illness and extended incarceration among Veterans by ensuring that 
eligible justice-involved Veterans have timely access to VHA mental 
health and substance abuse services when clinically indicated, and 
other VA services and benefits as appropriate.
    2.  Health Care for Re-Entry Veterans (HCRV): HCRV's goals are to 
prevent homelessness, reduce the impact of medical, psychiatric, and 
substance abuse problems upon community re-adjustment, and decrease the 
likelihood of re-incarceration for those leaving prison. HCRV provides 
outreach and pre-release assessments services for Veterans in prison; 
referrals and linkages to medical, psychiatric, and social services, 
including employment services upon release; short term case management 
assistance upon release.
    3.  Veterans Homeless Prevention Demonstration Program (VHPD): In 
the current fiscal year VA expects to issue a $10 million NOFA for 
VHPD. VHPD will provide short term housing assistance, first and last 
month's rent rental assistance, rent and utility arrearages and case 
management to coordinate these and other community base supportive 
serves appropriate for veterans and their families including but not 
limited to, child care, and family services.
    4.  Supportive Services for Veteran Families (SSVF): Next year VA 
expects to issue a Notice of Funding Availability for SSVF. Grantees 
will provide eligible Veteran families with outreach, case management, 
and assistance in obtaining VA and other benefits, which may include a 
wide range of services that promote housing stability. In addition, 
grantees may also provide time-limited payments to third parties (e.g., 
landlords, utility companies, moving companies, and licensed child care 
providers) if these payments help Veterans' families stay in or acquire 
permanent housing on a sustainable basis. In addition, VA is developing 
links with the Office of Child Support Enforcement in the Department of 
Health and Human Services (HHS).

    In addition to the VA programs specifically designed to address 
prevention efforts, many VA services have integrated important 
prevention components. VA understands that many of the homeless it 
serves have significant mental health needs. In FY 2009, the VA's 
specialized homeless services worked with 92,625 Veterans. Of the 
55,711 who completed formal intakes, half had a serious psychiatric 
illness and 62 percent were dependent on drugs and/or alcohol problem 
(NEPEC, 2010). Mental health and substance use disorders play a 
significant role, particularly in chronic homelessness.
    VA has also sought to codify and implement best practices at mental 
health programs throughout the country, thereby strengthening efforts 
to successful treat the chronically homeless who are more likely to 
struggle with serious mental illness. National policies on suicide 
prevention and medication management have improved safety while the new 
Uniform Mental Health Services Handbook and the Mental Health 
Residential Rehabilitation Treatment Programs (MHRRTP) Handbook have 
expanded access by aiming ``to ensure that all Veterans, wherever they 
obtain care in VHA, have access to needed mental health [and 
specialized mental health homeless] services''. Drawn from best 
practices, these Handbooks give detailed guidance on how services 
should be structured.
    These preventative measures will be part of the VA's Plan to work 
toward ending homelessness among Veterans within 5 years. We continue 
to remain concerned that the 3-month eligibility for the services 
offered under H.R. 3073 is too short to effectively remove the risk of 
homelessness for many Veterans and their families. For many Veteran 
homeowners with non-VA mortgages, temporary relief for 3 months would 
likely prove insufficient to resolve the underlying conditions 
contributing to their potential homelessness if the terms of the 
mortgage have changed, as they would under an adjustable-rate mortgage, 
rather than as a result of changes in their personal situations. It is 
suggested that a range be established (with more flexible time limits) 
so that each individual Veteran can be reviewed on a case-by-case 
basis, and provided with assistance to meet their particular needs. The 
Administration has pursued a number of initiatives to keep such 
homeowners, including Veterans, in their residences.

    Question 5: I understand that the VA did not have sufficient time 
to comment on H.R. 3441, which would result in Veterans automatically 
enrolling for health care. Earlier this year, Secretary Shinseki talked 
about wanting to create a database which would make it easier for the 
Veteran to enroll and apply for VA services. Please provide a status 
update and explain whether VA has made progress on this.

    Response: The Veterans Benefits Administration has several 
initiatives underway to improve service delivery and make it easier for 
Veterans to access benefits and services. The initiatives include the 
Veterans Benefits Management System, the Veterans Relationship 
Management Program, and the eBenefits portal.
    The Veterans Benefits Management System initiative is an internal 
business transformation initiative supported by technology and designed 
to improve the delivery of Veterans benefits and services administered 
by VBA. It is a holistic solution that integrates a business 
transformation strategy to address process, people, and organizational 
structure and a 21st century paperless claims processing system--the 
Veterans Benefits Management System (VBMS).
    This initiative is focused on five key elements: (1) Business 
process re-engineering will streamline and improve claims workflows and 
enable continuous improvement; (2) Communications and change management 
will address the ``people and organizational structure'' sides of the 
transformation effort; (3) Technology modernization will provide 
secure, end-to-end electronic claims workflow and data storage 
technology (VBMS); (4) Metrics and measurement systems will enable 
continuous feedback and improvement and increase accountability for 
performance; and (5) Enhanced data mining and predictive capabilities 
will help VBA anticipate Veterans' needs.
    The Veterans Relationship Management Program (VRM) will leverage 
technological advances to learn more about the needs and preferences of 
our clients and allow VA to become more proactive in serving them in an 
integrated fashion. VRM will provide on-demand access to comprehensive 
VA services and benefits through a multi-channel (web-based, 
interactive voice response, etc.) client relationship management 
approach. Our employees will be empowered with rich, consistent data on 
our clients, while our clients will be empowered to perform self-
service, on demand. VA will ensure that all channels through which 
Veterans choose to access our services are convenient, easy-to-use, and 
provide the same high level of quality service with privacy and 
security safeguards in place.
    The eBenefits portal is a joint effort of VA and the Department of 
Defense (DoD). The eBenefits portal has been certified and accredited 
with user access to information controlled through the National 
Institute of Standards and Technology (NIST) standard credentials and 
the physical structure located within a secure Global Secure Systems 
(GSS) environment. The portal provides servicemembers, Veterans, 
families, and care providers with a secure, single sign-on process to 
their benefits and related services online (such as military personnel 
records and status of VA claims). Servicemembers will use this 
eBenefits account while on active duty and as Veterans following 
separation, allowing both DoD and VA to provide benefit updates and to 
deploy the right benefit information at the right time. Future 
eBenefits releases will provide additional self-service capabilities 
that empower users to electronically communicate with VA and DoD about 
their benefits and services from anywhere at anytime.

    Question 6: Please comment on VA's idea of having only one project 
number in the case where residential programs wish to expand on 
original program. It seems that there is an added burden placed on the 
organizations because of the separate project numbers. Is there some 
barrier that exists that would preclude VA from streamlining this 
process so it is not so burdensome to those that wish to help homeless 
veterans?

    Response: The Grant & Per Diem (GPD) Program currently has 550 
projects with community providers which offer a total of 11,300 beds. 
Each grant-funded organization is inspected annually, which includes a 
review of the services provided as put forth in the original grant 
application. Occasionally those organizations awarded several grants 
request that the projects are consolidated into one award and project 
numbers combined. VA has accommodated these grantees as much as 
possible by allowing, in some cases, grant services to overlap when it 
is beneficial to Veteran participants in the program. However, to 
ensure that each grantee is performing according to the grant agreement 
and that payments for services are segregated by year and project, the 
GPD Program requires that these project numbers remain unique to the 
year awarded and services that are to be provided. The requirement to 
track both services and funding is necessary for compliance with 
Federal grant rules. VA is required to ensure that services are 
provided under each grant award, according to these rules. Without 
separate project numbers, these awards would not be adequately 
monitored. Additionally, retaining individual identified project 
numbers allows VA to monitor the number of Veterans receiving services 
and Veteran outcomes of each program. This monitoring helps VA ensure 
that Veterans are getting quality services under all grant awards.

    Question 7: You expressed your support for section one of H.R. 
2735. H.R. 2735 would provide for an increase in per diem payments to 
reflect anticipated changes in the cost of furnishing services and to 
take into account the cost of providing services in a particular 
geographic area. It would also make these payments based on annual 
costs instead of daily costs. The draft discussion bill to improve per 
diem grants takes a different approach. It would maintain the payments 
based on daily costs, but would increase the reimbursement rates to the 
higher of the cost of daily cost of care as estimated by the grantee or 
$60 per bed, per day. Which of the two approaches to increasing per 
diem funding do you support and why?

    Response: It seems prudent to ensure that all resources to support 
community providers are given in the most appropriate manner. Given the 
choices offered we would be supportive of providing payments related to 
the specific costs related to providing those services to Veterans in a 
given geographic area. A rate of $60 may be warranted in some areas but 
exceeds costs for many areas based on our experience.
                  Questions from Congressman Donnelly
    Question 1: What specifically is VA doing to assess and meet the 
psychiatric needs of our wounded warriors?

    Response: The Department of Veterans Affairs (VA) has a 
comprehensive plan for wounded warriors and provides a full array of 
services to address their psychiatric needs. Specifically for the 
treatment of Post-Traumatic Stress Disorder (PTSD), VA operates an 
internationally recognized network of more than 200 specialized 
programs through its medical centers and clinics. Every VA medical 
center has outpatient PTSD specialty capability. PTSD programs provide 
a comprehensive continuum of care from outpatient PTSD Clinical Teams 
(PCT) through specialized inpatient units, brief-treatment units, and 
residential rehabilitation treatment programs. All PTSD Teams have a 
substance use disorder specialist assigned to them to provide care for 
concurrent substance use disorders. All Veterans Integrated Service 
Networks (VISNs) must have specialized residential or inpatient care 
programs to treat Veterans with severe symptoms and impairments related 
to PTSD. In addition, there are increasing numbers of PTSD programs or 
tracks within PTSD programs to meet special needs such as Veterans who 
are survivors of military sexual trauma. Mental health programs, 
especially those for Operation Enduring Freedom/Operating Iraq Freedom 
(OEF/OIF) Veterans, have ties to the national, regional and local 
rehabilitation programs for polytrauma and traumatic brain injury. VA 
increased funding for post-traumatic stress disorder (PTSD) treatment 
by more than 13 percent for FY 2010, for a total of over $354 million.
    VA has focused efforts on the early identification and management 
of stress related disorders in order to decrease the long term disease 
burden on returning troops. OEF/OIF Veterans coming to VA for the first 
time are screened for the presence of symptoms of PTSD, depression and 
alcohol abuse. The same screening for these conditions is repeated on 
an annual basis for new or existing Veterans of any service era. Should 
the Veteran screen positive for any of these conditions, further 
evaluation and appropriate treatment are provided. VA has established 
Serving Returning Veterans-Mental Health (SeRV-MH) Teams in over 90 VA 
Medical Centers to provide care specifically for returning OEF/OIF 
Veterans. SeRV-MH Team and PTSD Clinical Team staff provide 
collaborative, co-located care for Veterans in Primary Care Post 
Deployment Health Clinics. Mental health clinicians are also part of 
the staff of each of the Level 1 Polytrauma Centers across the nation.
    VA is disseminating across the system both Cognitive Processing 
Therapy and Prolonged Exposure, which are evidence-based therapies 
cited by the Institute of Medicine Committee on Treatment of PTSD as 
proven effective treatments for PTSD. More than 2,500 providers are 
trained in this type of treatment including 81 Vet Center staff. VA 
requires that all facilities make this therapy available to any 
eligible Veteran who may benefit.
    VA's National Center for PTSD is conducting an ongoing 
teleconference seminar series on best practices in pharmacotherapy for 
PTSD. As a separate initiative, a PTSD Mentor system has been 
established across every VISN to ensure coordination of care within 
facilities, VISNs and the nation. The PTSD Mentor program is 
coordinated by VA's National Center for PTSD.

    Question 2: Please identify any shortcomings in the current 
training of psychologists.

    Response: VA is proud of its clinical training programs in 
Psychology and knows no identifiable shortcomings in its training 
programs.
    VA sponsors 90 psychology internship programs, with 435 full time, 
year-long, paid positions. The internship is the last phase of training 
required for completion of the doctorate in psychology; it must be 
completed in a clinical setting where there are strong training 
opportunities and quality education and supervision. VA also sponsors 
200 postdoctoral fellowship positions in 54 programs. Supervised 
postdoctoral experience makes a candidate license-eligible and allows 
specialized training in areas critical to VA such as PTSD, Traumatic 
Brain Injury (TBI), Polytrauma, or Primary Care health psychology.
    There are two primary indicators of quality for VA's training 
programs. First, all of our internship programs are fully accredited or 
in the final stages of obtaining accreditation by the American 
Psychological Association. Second, VA's training programs are in high 
demand. All of them have many applications for each opening and are 
thereby able to select very highly qualified candidates for each 
position. VA training programs are highly respected in the national 
psychology community and are seen as a valuable national resource. 
Their focus on Veteran needs ensures that VA has a highly regarded 
pipeline of well trained, Veteran focused psychologists from which to 
recruit and hire for its mental health treatment needs.

    Question 3: Is there a shortage in trained personnel?

    Response: While there is no evidence of a widespread shortage of 
trained mental health professionals, it has been VA's experience that 
in certain localities, particularly highly rural regions, there may be 
a limited number of particular mental health professionals, namely 
psychiatrists. Specific incentives have been developed and used in such 
situations. In addition to opportunities for education debt reduction, 
VHA has established opportunities for facilities to engage in local 
advertising and recruitment activities, and to cover interview-related 
costs, relocation expenses, and provide hiring bonuses for certain 
applicants. Moreover, flexibility is provided to hire providers of 
other appropriate disciplines or to utilize fee-basis or contract care, 
when indicated, so that Veterans have continuous access to the full 
continuum of mental health services.

    Question 4: The HHS has a proven graduate program for 
psychologists--can VA work with them and, if not, why?

    Response: Yes, VA could work directly with HHS to provide graduate 
psychology education. However, HHS's and VA's training programs serve 
different purposes, so it would be inefficient and counter-productive 
to merge the programs.
    Based on their respective missions, there is a fundamental 
difference in how HHS and VA approach psychology training. HHS's 
Graduate Psychology Education (GPE) program provides grants to 
universities, professional schools, and hospitals to subsidize 
psychology training in targeted content areas at the graduate program 
level and at the internship level. VA, on the other hand, provides 
stipends directly to trainees in VA internship and post-doctoral 
programs in psychology. The GPE program serves HHS's purposes by 
enhancing general psychology training, whereas VA's program funds 
education and training that is specialized and specific to the needs of 
veterans.
    VA psychology training plays a crucial role in VA's operation. 
Seventy percent of VA psychologists are products of our own training 
programs. With the current emphasis on mental health needs of Veterans, 
it would be unwise to disrupt this very important, specifically 
tailored, recruitment pipeline.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
